<html>
<title> - CRITICAL MINERALS AND MATERIALS LEGISLATION</title>
<body><pre>[Senate Hearing 112-117]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-117
 
                         CRITICAL MINERALS AND 
                         MATERIALS LEGISLATION

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                            S. 383

                            S. 421

                            S. 1133



                                     

                               __________

                              JUNE 9, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
70-660                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                         Subcommittee on Energy

                  MARIA CANTWELL, Washington, Chairman

RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

    Jeff Bingaman  and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burke, Marcilynn, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    11
Caffarey, Mark, Executive Vice President, Umicore USA, Inc., 
  Raleigh, NC....................................................    40
Cantwell, Hon. Maria, U.S. Senator From Washington...............     1
Duclos, Steven J., Chief Scientist, and Manager, Material 
  Sustainability, GE Global Research, Niskayuna, NY..............    35
Erceg, Luka, President and CEO, Simbol Materials, Pleasanton, CA.    31
Hagan, Kay, U.S. Senator From North Carolina.....................     4
Murkowski, Lisa, U.S. Senator From Alaska........................     3
Price, Jonathan G., State Geologist and Director, Nevada Bureau 
  of Mines and Geology, Reno, NV.................................    27
Sandalow, David, Assistant Secretary of Energy for Policy and 
  International Affairs, Department of Energy....................     8
Udall, Hon. Mark, U.S. Senator From Colorado.....................     6

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    53

                              Appendix II

Additional material submitted for the record.....................    75


                         CRITICAL MINERALS AND 
                         MATERIALS LEGISLATION

                              ----------                              


                         THURSDAY, JUNE 9, 2011

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Maria 
Cantwell presiding.

  OPENING STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM 
                           WASHINGTON

    Senator Cantwell. [presiding] Good afternoon.
    The Energy Subcommittee of the Energy Committee will come 
to order. In hearing today is to receive testimony on several 
bills relating to critical minerals and materials legislation, 
those bills being S. 383, S. 421 and S. 1113. I know my 
colleagues are coming back from a floor vote we just had, but 
I'm going to go ahead and get started.
    We are here this afternoon to discuss the issue of critical 
minerals and materials which are essential components of many 
of the technologies that are part of our modern economy. Under 
the leadership of Chairman Bingaman and Ranking Member 
Murkowski, the full Committee has spent considerable time this 
Congress discussing and developing legislation to address our 
nation's many energy challenges. We have considered legislation 
to support the development of conventional and alternative 
fuels and technologies, options for low carbon electricity 
generation, and efforts to catalyze America's innovation in 
private sector investment needed to achieve cleaner and more 
diverse energy future.
    But we must not lose sight of the fact that our energy 
economy also depends on a stable, reliable, materials supply 
chain. When it comes to cleaner, alternative energy sources 
rare Earth elements and key mineral resources are essential 
ingredients in technologies as diverse as solar cells, wind 
turbines, energy storage technologies, efficient LED lighting 
and SMART grid electronics. Infinia, a company that makes 
innovative, high performance, solar power systems in Richland, 
Washington, said when we had the last hearing on this topic, 
``Access to commercial supply of rare Earth metals is of 
critical importance to Infinia and our suppliers and 
customers.''
    It's not just rare Earth metals. Other critical materials 
such as platinum, lithium, palladium are used in a broad array 
of essential modern technologies ranging from batteries to 
electronics to pollution control technologies. Just looking 
around the room I see dozens of ways these critical materials 
are being used already.
    However, as last year's subcommittee hearing established 
while America was once sufficient in supplying the materials 
and finished product used in high tech manufacturing today. We 
now are more reliant on imports from other nations. As 
Assistant Secretary Sandalow points out in his testimony, in 
the next 5 years we could face supply disruptions in the 
materials needed to produce clean energy technologies.
    To my mind the situation we find ourselves in when it comes 
to critical materials has many similarities and parallels to 
the situation we face in transitioning to a cleaner, more 
diverse, energy source in general. Not too long ago, the United 
States was the world's largest producer of rare earth elements. 
Not too long ago, we were inventing and manufacturing the 
world's wind turbines and solar panels.
    But somewhere along the way, that changed. 97 percent of 
the world's rare Earth elements are now produced in China, 
which also has some of the world's largest endowments of rare 
Earth and critical minerals. At the same time China's renewable 
energy investment is up 39 percent. China is now the world's 
largest manufacturer of wind turbines and solar modules.
    China has now overtaken the United States in terms of 
installed, renewable, electricity capacity. There are reports 
that provide evidence that China is using its strategic 
endowments to constrain global supply of selected rare Earth 
elements and critical materials. They are using these resources 
to monopolize the manufacturing of advanced and efficient clean 
energy technologies. The Associated Press reported on Wednesday 
that China is consolidating its rare Earth production industry 
such that a single company will have a monopoly on rare Earth 
production in China's main rare Earth producing region.
    The reality is that we can no longer afford to ignore this 
problem or to continue to drift without a national energy 
strategy, we must have predictable policies in this area. In 
many ways the challenges and solutions to critical materials in 
energy production shortages are the same. We need to establish 
a national plan and priorities, to invest in R and D, to 
provide the private sector with certainty and predictability 
and to figure out ways to make sure that those efforts are 
being undertaken.
    Most of all we need to make sure our efforts are leveraging 
America's innovative spirit of free market entrepreneurship so 
that we can make sure that we catch up again. We cannot risk 
having enormous exposure to supply chain shortages of strategic 
commodities. To that end I commend and thank my colleagues who 
have put 3 bills out for consideration today, Senator Hagan, 
Senator Udall and Senator Murkowski.
    So I will defer to them now to explain those bills. My hope 
is that given the broad range of co-sponsorship and stakeholder 
support for these measures and with on the help of our expert 
witnesses today, we will be able to come up with bipartisan 
legislation to address this important national problem.
    When my colleagues arrive, if they wish to make any opening 
statements we will allow them to do so. The ranking member, 
Senator Risch, I believe is on his way. The full committee 
ranking member, Senator Murkowski. We've been joined by Senator 
Bingaman, the full committee chair.
    Senator Bingaman, would you like to make any statement 
today?
    OK, if not, then I'm going to proceed to Senator Hagan and 
allow her to make a statement about her bill--Senator 
Murkowski, would you like to make any statement? We're now 
allowing the subcommittee and full committeechairs to make 
opening statements.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. I appreciate that, Madame Chair. I 
apologize that I am late. I apologized to my Chairman. I was 
late for the hearing this morning and just my day.
    Thank you to those who have joined us and----
    Senator Cantwell. I--just to give you a second. I have made 
a statement and then when you're finished or if Senator Risch 
arrives in time we'll allow him to make a statement and then 
we'll go to our witnesses, Senator Hagan, who also has 
introduced legislation today. Then we'll go to our full panel 
of witnesses.
    Senator Murkowski. Thank you, Madame Chairman. I appreciate 
the opportunity to speak on the legislation that we have in 
front of us. One of which I am introducing relating to critical 
minerals in the supply chain.
    We've got a real problem on our hands. Minerals are the 
building blocks of our nation's economy. From rare Earth 
elements to Mendelevium, we rely on our minerals for the 
smallest computer chips to the tallest skyscrapers.
    Minerals make it possible for us to innovate and invent and 
in the process they shape our daily lives, our standard of 
living and our ability to prosper. There's no question that a 
stable and affordable supply of minerals is critical to 
America's future competitiveness. Yet despite all that, our 
mineral related capabilities have been slipping for decades. 
Rare Earth elements garner most of the headlines, but the U.S. 
remains 100 percent dependent on foreign suppliers for 17 other 
minerals and more than 50 percent dependent on foreign sources 
for some 25 more.
    To revitalize the domestic, critical mineral supply chain, 
I've introduced one of the measures that we have before us 
today. It's the Critical Minerals Policy Act. I've got 17 co-
sponsors including 8 of my Democratic and 9 of my Republican 
colleagues. I thank them all for that support.
    The bill provides clear programmatic direction to keep the 
U.S. competitive. Will ensure that the Federal Government's 
mineral policies, some of which have not been updated since the 
1980s are brought here into the 21st century here. The 
legislation requires that USGS generate a list of minerals 
critical to the U.S. economy, outlines a comprehensive set of 
policies that will bolster the production of these critical 
minerals, expands manufacturing and promotes recycling and 
alternatives all while maintaining strong, environmental 
standards.
    What sets this bill apart is not only a more comprehensive 
look at the various minerals, but also its attention to the 
broader supply chain including the permitting process for 
domestic critical mineral production. The U.S. ranks dead last 
in the world in terms of the amount of time it takes to get to 
a yes or no answer to permit applicants. It's our 
responsibility here in this Energy Committee to understand why 
this is the case. If there's any real purpose for these delays. 
If not, what we can do about them.
    The U.S. has some of the strongest standards in the world 
for environmental protection. Mining operations are subject to 
no less than 30 Federal, State and local regulatory programs. 
As a country we should be proud and maintain the commitment 
that we've displayed over generations to being good stewards of 
our natural environment.
    We set standards as a result of these laws, standards for 
air emissions, waste storage, ground water supplies. I believe 
that if operators are capable with complying with these 
standards they should be allowed to produce the minerals. If 
they're not, then I don't want them doing business here in the 
United States.
    What we should not do, however, and particularly in the 
case of minerals critical to our global competitiveness and our 
national security is purposely or unwittingly subject these 
projects to an unnecessarily long permitting process. Delaying 
projects, standing capital and allowing bureaucratic 
intransigence is not a strategy for environmental protection. 
To the contrary it is disingenuous--thank you, disingenuous, 
and a dangerous thing for us to do as the U.S. struggles to 
create private sector jobs and attract long term investments.
    There's no question we know that mining has an 
environmental impact. It's a process that involves digging 
holes in the ground. It's just as simple as that. But we have 
to acknowledge that national interests served by reducing our 
reliance on foreign, critical mineral supplies and understand 
that these projects can be pursued in a more modern and a more 
responsible way here at home than abroad.
    I've gone to great lengths to take measured inquiry based 
steps to address the permitting process in my bill. I think 
it's reflected in the broad, bipartisan support that it's 
attracted. I do hope, Madame Chairman, that we will be able to 
continue to improve, not only on the proposals that we have 
before us, but working together to ensure that the significance 
of our critical mineral supply chain is recognized and helped 
to advance.
    So I appreciate, again, your support and having the hearing 
today.
    Senator Cantwell. Thank you, Senator Murkowski. We're now 
going to turn to Senator Hagan, who has joined us. Thank you 
for being here today to talk about S. 421, your legislation, 
Powering America's Lithium Production Act.
    Senator Hagan.

         STATEMENT OF HON. KAY R. HAGAN, U.S. SENATOR 
                      FROM NORTH CAROLINA

    Senator Hagan. Thank you, madame chairman and your Ranking 
Member Risch, I really do appreciate you inviting me here today 
to join this Subcommittee to discuss the need to secure a 
stable supply of rare Earth and other critical materials. I'll 
certainly want to thank Chairman Bingaman and Ranking Member 
Murkowski also. As members of the subcommittee well know the 
topic of today's hearing is vitally important to our Nation's 
ability to out innovate and out compete our global competitors.
    Chairman Cantwell, you mentioned this and Senator 
Murkowski, how important this is. Critical materials are the 
building blocks of next generation manufacturing and are 
essential components of everything from windmills to IPods to 
solar panels to the navigation system of an Abrams tank. As the 
Chair of the Senate Armed Services Emerging Threats 
Subcommittee, I can tell you that many of these materials are 
essential to our national security and our ability to equip our 
men and women on the battlefield.
    That's why I am encouraged that this Subcommittee is 
working together in a bipartisan way to put in place a strategy 
that will help ensure reliable and affordable access to 
critical minerals well into our future. In particular I want to 
thank the chairman and the ranking member for bringing this to 
the Subcommittee today this legislation that I introduced in 
late February, the Powering of America's Lithium Production 
Act. Lithium is the material of choice for rechargeable 
batteries, also known as lithium-ion batteries. It's a crucial 
component of clean energy products such as electric vehicles 
and our SMART grid of the future.
    As demand for electric vehicles continues to grow it is 
conservatively estimated that global lithium demand will grow 
by 20 percent annually through the end of this decade. Through 
the Recovery Act, Congress recognized the growing demand for 
lithium-ion batteries by making an unprecedented investment in 
our ability to manufacture advanced batteries here in the 
United States. Recovery Act investments included billions of 
dollars in loans and grants to support more than 30 electric 
vehicle battery and component manufacturing plants. Without a 
doubt these investments will enhance our energy security and 
will allow U.S. battery manufacturers to supply our growing 
electric vehicle market.
    But while we've made significant progress in assembling the 
infrastructure needed to manufacture these critical lithium-ion 
batteries domestically, we have yet to make similar investments 
in the production of the materials found inside these 
batteries. Currently the battery grade lithium used to power 
the next generation of lithium batteries is supplied almost 
exclusively from foreign sources. Even though 2 of the 3 global 
manufacturers capable of producing battery grade lithium are 
headquartered in the United States, most of their current 
production actually occurs overseas close to the major battery 
manufacturers in Asia.
    So instead of simply encouraging these manufacturers to 
replicate their overseas facilities here at home, we really 
should be encouraging them to improve on these technologies to 
give our domestic battery manufacturers a competitive edge. The 
Powering America's Lithium Production Act would do just that. 
It will enable these manufacturers to keep pace with escalating 
demand and will encourage them to invest innovation here at 
home in the United States.
    To do so, it provides grants to support the developments 
and commercialization of technologies that will enhance 
domestic lithium production for use in advanced batteries. When 
you combine that with our expanded domestic battery capacity, 
breakthroughs in lithium production will help put the U.S. at 
the forefront of electric vehicle innovation and manufacturing. 
As today's sky high gas prices teach us, dependence on foreign 
energy sources leaves our Nation less safe and less competitive 
in the global economy. We must not repeat this pattern with our 
critical mineral supply.
    The strength of the American economy depends on investment 
in clean energy technologies such as lithium-ion batteries that 
will bolster our national security, reduce our dependence on 
foreign oil, protect our environment and to me, most 
importantly, it will create jobs. The Powering America's 
Lithium Production Act is an important part of this broader 
effort. I encourage this Subcommittee to consider this bill 
carefully.
    Madame Chairman, I thank you for the opportunity to be with 
you here today and Ranking Member Risch. I look forward to 
continuing to work with the Subcommittee to address this 
important issue. Thank you.
    Senator Cantwell. Thank you, Senator Hagan. Does anybody 
have any questions for our colleague before we let her go?
    If not, thank you, Senator Hagan, for introducing this 
legislation and for your interest in such a critical issue.
    Senator Risch, would you like to make an opening statement 
before----
    Senator Risch. No, I'll pass. Thank you.
    Senator Cantwell. Thank you.
    Let's call up the second panel then.
    Dr. David Sandalow, Assistant Secretary for Policy and 
International Affairs from the U.S. Department of Energy.
    Ms. Marcilynn Burke, Deputy Director of the Bureau of Land 
Management for the U.S. Department of Interior.
    Welcome to both of you. Mr. Sandalow, thank you for being 
here the second time to talk about this issue and to brief the 
Committee on the Department of Energy's efforts in this area. 
So we'll give you a few minutes to get situated. I know you're 
also going to be accompanied by Mr. Jeff Doebrich, who is the 
Program Coordinator and Acting Mineral Resource--for Mineral 
Resources from the U.S. Geological Survey. So welcome, to you 
as well.
    My understanding is you're not going to give testimony but 
are here to answer any questions that committee members may 
have. Is that correct? Yes.
    Thank you.
    Before we do the second panel, I should have recognized 
Senator Udall, who has also introduced legislation. So Senator 
Udall, would you like to take a few minutes to talk about S. 
383?

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. I would, Madame Chair. Thank you for 
recognizing me. I apologize in advance for circulating between 
this Committee and the Intelligence Committee which I serve on 
and is holding a hearing now as well.
    It's a nice confluence. It's a challenging confluence. 
Because of what we know about our capabilities on the 
Intelligence Committee and what rare Earth materials and 
minerals offer to us in the long run.
    So I want to thank you and Ranking Member Risch for holding 
the hearing. I want to acknowledge the work of the Committee 
Ranking Member Murkowski, who in many ways is walking in the 
same steps that I did early this year in introducing 
legislation on critical material supplies. I came to see that 
she picked up and included many of the provisions from my bill 
in her bill. I think it's positive that we agree on many of the 
steps that we need to take moving forward.
    We've already heard from Senator Hagan. We will hear from 
the witnesses about how important critical material supplies 
are for our national security and our economic well being. I 
should also mention that I became aware of this during my 
service as well in the Armed Services Committee in the Senate.
    We used to dominate, the United States did, the world's 
supply chain, not just because we had the mines, but because we 
developed the know how as to how to process the minerals and 
put them into advanced technology. We sold that technology, 
however. The intellectual property rights went to countries 
like China and Japan and now we no longer have the 
manufacturing capabilities nor a skilled work force at the 
level that we need to have it or want in this country.
    So even if we were to open and I know we will, more rare 
Earth mines in the United States, we currently then have to 
ship the products of those mines to China to be processed into 
useful materials. That's, in part, my motivation for having 
introduced my bill at the beginning of the year to bring back 
our capacity to process the raw materials here in the U.S. Then 
to ensure that we can produce products along the entire supply 
chain.
    So I want to thank the chairman's staff, who is here as 
well, for working closely with me. Now that we have at least 2 
separate bills, I think we have some work to do to make sure 
our policies are aligned. I do have some concerns about some of 
the sections in the Ranking Member's bill, mainly the mining 
permitting piece and some of the mineral specific provisions.
    But the Energy Committee is known for its focus on working 
through differences between individual members. I know that 
Senator Murkowski and I can do that. I know the hearing will 
give us an opportunity to highlight the differences and the 
similarities and to move forward ultimately in the committee 
with a unified voice in ways in which we can better compete as 
a country and win the global economic race. We so much depend 
on these important natural resources to be able to do so.
    So, Madame Chair, I thank you for the opportunity to 
comment. I look forward to working with my friend from Alaska.
    Senator Cantwell. Thank you. Thank you, Senator Udall for 
introducing S. 383 and for your comments today. We'll look 
forward to working with you on that legislation as several 
pieces have been introduced. The Committee, obviously, has 
great interest in this.
    So now we're going to turn to our panel. I've already 
introduced them. So I'm going to let them just make their 
statements. But welcome to this Committee and thank you for 
your input.
    So, Mr. Sandalow, welcome.

STATEMENT OF DAVID SANDALOW, ASSISTANT SECRETARY OF ENERGY FOR 
     POLICY AND INTERNATIONAL AFFAIRS, DEPARTMENT OF ENERGY

    Mr. Sandalow. Thank you, Madame Chairwoman, Ranking Member 
Risch, members of the subcommittee. It's good to be before you 
again. Thank you for the opportunity to testify today on 
critical minerals and materials.
    Earlier this year I visited the Mountain Pass Mine in 
Southern California. I was impressed by the facility and its 
potential to provide a domestic source of rare earth metals. 
According to the owners the mine will produce at an annual rate 
of about 19,000 tons of rare earth by the end of next year and 
40,000 tons by early 2014 using modern technologies at a 
globally competitive cost.
    That's an important step in the right direction. The issue 
of critical minerals is important and needs priority attention 
in the months and years ahead. The Department of Energy shares 
the goal of establishing a stable, sustainable and domestic 
supply of critical minerals. We look forward to discussions 
with the Congress on ways to address this issue as we move 
forward.
    Madame Chair, the world is on the cusp of a clean energy 
revolution. Here in the U.S. we're making historic investments 
in clean energy. The American Recovery Act was the largest, 
one-time investment in clean energy in our Nation's history, 
more than $90 billion.
    At DOE we're investing $35 billion of Recovery Act funds in 
electric vehicles, battery and advanced energy storage, a 
smarter and more reliable electric grid, wind and solar 
technologies among many other areas.
    Other countries, importantly, are also seizing this 
opportunity. The market for clean energy technologies is 
growing rapidly around the world. For example, the Chinese 
government is launching programs to deploy electric cars in 
over 25 major cities while building huge wind farms, ultra 
super critical advanced coal plants and ultra high voltage, 
long distance transmission lines. India has launched an 
ambitious national solar mission. In Europe strong public 
policies are driving sustained investments in clean energy.
    In recognition of the importance of certain materials in 
the transition to clean energy, the Department of Energy is 
working to address the use of critical materials in clean 
energy components, products and processes. As a first step, DOE 
released its critical materials strategy last December. The 
report found that 4 clean energy technologies: wind turbines, 
electric vehicles, photovoltaic cells and fluorescent lighting 
use materials at risk of supply disruptions in the next 5 
years.
    In the report 5 rare earth elements: Dysprosium, neodymium, 
terbium, europium, yttrium along with indium were assessed as 
most critical in the short term. For this purpose criticality 
was defined as a measure that combined the importance to the 
clean energy economy and the risk of supply disruptions. The 
critical materials strategy highlighted 3 pillars to address 
the challenges associated with critical materials.
    First, substitutes must be developed.
    Second, recycling, reuse and more efficient use can 
significantly lower global demand for newly extracted 
materials.
    Finally, diversified global supply chains are essential. 
Within global supply chains domestic supply is the most 
important. That means encouraging Nations to expedite 
alternative supplies and exploring potential sources of 
materials such as existing mine tailings and coal ash in 
addition to facilitating environmentally sound extraction and 
processing here in the United States.
    This year DOE will update its analysis in light of rapidly 
changing market conditions. DOE is analyzing the use of 
critical materials in petroleum refineries and other 
applications not addressed in last year's report. In addition 
DOE may identify specific strategies from materials identified 
as critical including strategies with respect to substitution, 
recycling and more efficient use.
    In support of this year's analysis we issued a request for 
information that focused on critical material content of 
certain technologies and other topics. That RFI, as we call it, 
closed last month. We received nearly 500 pages of responses 
from 30 organizations including manufacturers, miners, 
universities and national labs. Many organizations shared 
proprietary data and material usage that will help us develop a 
clearer picture of current and future market conditions. We are 
in the process of analyzing that data as we speak.
    Madame chair, the administration is currently reviewing the 
bills before you today, S. 383, S. 421 and S. 1113. DOE has no 
comments on the specific content of those 3 bills at this time. 
We share the goal of establishing a secure supply of critical 
minerals and very much look forward to discussions with the 
Congress on ways to address any issues as we move forward.
    One last thing we've learned through experience is that 
supply constraints aren't static. As a society we've dealt with 
these types of issues before. Working together, being smart and 
serious, we can do so again.
    Thank you.
    [The prepared statement of Mr. Sandalow follows:]

Prepared Statement of David Sandalow, Assistant Secretary of Energy for 
         Policy and International Affairs, Department of Energy

    Chairwoman Cantwell, Ranking Member Risch, and Members of the 
Subcommittee, thank you for the opportunity to testify today and 
discuss three bills under consideration by this committee: S. 383, S. 
421, and S. 1113. I would also like to speak about the critical 
minerals that underpin the transition to a clean energy economy and the 
Department of Energy's ongoing work on this topic.
    Additionally, significant industry efforts are underway on this 
topic. Earlier this year I visited the Mountain Pass Mine in southern 
California. I was impressed by the facility and its potential to 
provide a domestic source of rare earth metals. According to the 
owners, the mine will produce at an annual rate of about 19,000 tons of 
rare earths by end of 2012 and 40,000 tons by early 2014, using modern 
technologies at a globally competitive cost. That's an important step 
in the right direction.
    The issue of critical minerals is important and needs priority 
attention in the months and years ahead. The Department shares the goal 
of establishing a stable, sustainable and domestic supply of critical 
minerals, and we look forward to discussions with the Congress on ways 
to address this issue as we move forward.

GLOBAL CLEAN ENERGY ECONOMY
    The world is on the cusp of a clean energy revolution. Here in the 
United States, we are making historic investments in clean energy. The 
American Recovery and Reinvestment Act was the largest one-time 
investment in clean energy in our nation's history--more than $90 
billion. At the Department of Energy (DOE), we're investing $35 billion 
in Recovery funds in electric vehicles; batteries and advanced energy 
storage; a smarter and more reliable electric grid; and wind and solar 
technologies, among many other areas. We aim to double our renewable 
energy generation and manufacturing capacities by 2012. We are working 
to deploy hundreds of thousands of electric vehicles and charging 
infrastructure to power them, weatherize at least half a million homes, 
and help modernize our grid.
    Other countries are also seizing this opportunity, and the market 
for clean energy technologies is growing rapidly all over the world. 
For example, the Chinese government is launching programs to deploy 
electric cars in over 25 major cities. They are connecting urban 
centers with highspeed rail and building huge wind farms, 
ultrasupercritical advanced coal plants and ultra-highvoltage long-
distance transmission lines. India has launched an ambitious National 
Solar Mission, with the goal of reaching 20 gigawatts of installed 
solar capacity by 2020.
    In Europe, strong public policies are driving sustained investments 
in clean energy. Denmark earns more than $4 billion each year in the 
wind turbine industry. Germany and Spain are the world's top installers 
of solar photovoltaic panels, accounting for nearly three-quarters of a 
global market worth $37 billion in 2009. Around the world, investments 
in clean energy technologies are growing, helping create jobs, promote 
economic growth and fight climate change. These technologies will be a 
key part of the transition to a clean energy future and a pillar of 
global economic growth.

DOE STRATEGY
    In recognition of the importance of certain materials in the 
transition to clean energy, DOE has begun to address the use of 
critical materials in clean energy components, products and processes. 
As a first step, DOE released its Critical Materials Strategy last 
December. The report found that four clean energy technologies-wind 
turbines, electric vehicles, photovoltaic cells and fluorescent 
lighting-use materials at risk of supply disruptions in the next five 
years. In the report, five rare earth elements (dysprosium, neodymium, 
terbium, europium and yttrium), as well as indium, were assessed as 
most critical in the short term. For this purpose, ``criticality'' was 
a measure that combined importance to the clean energy economy and the 
risk of supply disruption.
    The Critical Materials Strategy highlighted three pillars to 
address the challenges associated with critical materials in the clean 
energy economy. First, substitutes must be developed. Research and 
entrepreneurial activity leading to material and technology substitutes 
improves flexibility to meet the material demands of the clean energy 
economy. Second, recycling, reuse and more efficient use can 
significantly lower global demand for newly extracted materials. 
Research into recycling processes coupled with well-designed policies 
will help make recycling economically viable over time. Finally, 
diversified global supply chains are essential. To manage supply risk, 
multiple sources of material are required. This means encouraging other 
nations to expedite alternative supplies and exploring other potential 
sources of material (such as existing mine tailings or coal ash) in 
addition to facilitating environmentally sound extraction and 
processing here in the United States. With all three of these 
approaches, we must consider all stages of the supply chain: from 
environmentally-sound material extraction to purification and 
processing, the manufacture of chemicals and components, and ultimately 
end uses.
    This year, DOE will update its analysis in light of rapidly-
changing market conditions. DOE is analyzing the use of critical 
materials in petroleum refineries and other applications not addressed 
in last year's report. In addition, DOE may identify specific 
strategies for materials identified as critical, including strategies 
with respect to substitution, recycling and more efficient use. In 
support of this year's analysis, DOE issued a Request for Information 
that focused on critical material content of certain technologies, 
supply chains, research, education and workforce training, emerging 
technologies, recycling opportunities, and mine permitting. The RFI 
closed last month. We received nearly 500 pages of responses from 30 
organizations, including manufacturers, miners, universities, and 
national laboratories. Many organizations shared proprietary data on 
material usage that will help us develop a clearer picture of current 
and future market conditions.
    Within this larger context, we do intend to address domestic 
production of critical materials in our 2011 report. Production within 
the United States is important for at least three reasons. First, 
domestic production is the most secure. Second, the United States' 
considerable reserves of some critical materials could add 
significantly to total global production and to greater diversity in 
the global supply of these materials. Third, U.S. technology and best 
practices developed during mine operations can help promote safe and 
responsible mining in other countries, further contributing to supply 
diversity and the sustainable development of resources. With regard to 
mining in the United States, it is important to point out that permits 
are not the only requirements that can extend the time required to open 
a mine. The required accumulation of hundreds of millions of dollars of 
capital for mine development can also lead to delay.
    Managing supply chain risks is by no means simple. At DOE, we focus 
on the research and development angle. From our perspective, we must 
think broadly about addressing the supply chain in our research and 
development (R&D) investments, from extraction of materials through 
product manufacture and eventual recycling. It is also important to 
think about multiple technology options, rather than picking winners 
and losers. We work with other Federal agencies to address other 
issues, such as trade, labor and workforce, and environmental impacts. 
We are already closely working with our interagency partners to address 
these important issues.
S. 383, S. 421, and S. 1113
    The Administration is currently reviewing S. 383, S. 421, and S. 
1113, and the DOE has no comments on the specific content of these 
three bills at this time. We share the goal of establishing a secure 
supply of critical minerals, and we look forward to discussions with 
the Congress on ways to address any issues as we move forward.

CONCLUSION
    One lesson we have learned through experience is that supply 
constraints aren't static. As a society, we have dealt with these types 
of issues before, mainly through smart policy and R&D investments that 
reinforced efficient market mechanisms. We can and will do so again.
    Strategies for addressing shortages of strategic resources are 
available, if we act wisely. Not every one of these strategies will 
work every time. But taken together, they offer a set of approaches we 
should consider, as appropriate, whenever potential shortages of 
natural resources loom on the horizon.
    So in conclusion, there's no reason to panic, but every reason to 
be smart and serious as we plan for growing global demand for products 
that contain critical minerals. The United States intends to be a world 
leader in clean energy technologies. Toward that end, we are shaping 
the policies and approaches to help prevent disruptions in supply of 
the materials needed for those technologies. This will involve careful 
and collaborative policy development. We will rely on the creative 
genius and entrepreneurial ingenuity of the business community to meet 
an emerging market demand in a competitive fashion. With focused 
attention, working together we can meet these challenges.

    Senator Cantwell. Thank you, Mr. Sandalow. We'll look 
forward to asking you questions.
    Ms. Burke, thank you for being here.

 STATEMENT OF MARCILYNN BURKE, DEPUTY DIRECTOR, BUREAU OF LAND 
  MANAGEMENT, DEPARTMENT OF THE INTERIOR ACCOMPANIED BY JEFF 
    DOEBRICH, PROGRAM COORDINATOR, ACTING MINERAL RESOURCES 
                 PROGRAM, U.S.GEOLOGICAL SURVEY

    Ms. Burke. Good afternoon. Thank you for this opportunity 
to discuss S. 383, the Critical Minerals and Materials 
Promotion Act and S. 1113, the Critical Minerals Policy Act. 
These bills direct the Secretary's of Energy and the Interior 
to perform a number of activities intended to support and 
promote the production of domestic critical minerals and to 
enhance the Nation's critical minerals supply chain.
    In this statement I will address the provisions relevant to 
the Department of the Interior. As Madame Chair has 
acknowledged, with me today is Jeff Doebrich and he's the 
Acting Minerals Program Coordinator at the U.S. Geological 
Survey. He will answer questions about the USGS's role.
    The Department of the Interior supports the goal of 
facilitating the development of critical minerals on Federal 
lands in an environmentally responsible manner. Global demand 
for critical mineral commodities is on the rise with increasing 
applications in consumer products, computers, automobiles, 
aircraft and other advanced technology products. Much of this 
growth in demand is driven by new technologies that increase 
energy efficiency and decrease reliance on fossil fuels. To 
begin the process of understanding the potential sources of 
critical minerals the USGS has recently completed an inventory 
of known domestic, rare Earth reserves and resources.
    S. 383 directs the Secretary of the Interior acting through 
USGS to establish a research and development program for 
undiscovered and discovered resources of critical minerals and 
materials in the United States and abroad. These actions are 
already underway at the USGS. The USGS continuously collects, 
analyzes and disseminates data and information on domestic and 
global rare Earth and other critical mineral reserves and 
resources as well as production, consumption and use.
    S. 1113, the Critical Minerals Policy Act of 2011 directs 
the Secretary of Interior through the USGS to perform a number 
of actions that build upon the current capabilities including 
this recent rare Earth inventory. The bill directs the USGS to 
develop a rigorous methodology for determining which minerals 
are critical and then to designate them as such. It also calls 
for a comprehensive, national resource assessment within 4 
years of the bills enactment of each mineral designated as 
critical under section 101 of the bill.
    Section 104 calls for the establishment of a high level 
working group whose members would come from 9 departments and 
agencies as well as a designee from the Office of the 
President. The working group would review, assess and evaluate 
the permitting process for exploration and development of 
domestic critical minerals while maintaining our environmental 
standards. Section 104 requires the working group to submit a 
report of its findings to the President and Congress. The 
Department would like to work with the Committee to clarify and 
focus the duties of this working group. The Department is also 
concerned that the bill provides insufficient time to carry out 
both the duties of the working group and to report to Congress.
    Section 105 addresses new, critical mineral manufacturing 
facilities and seeks to facilitate the permitting processes for 
them for all Federal agencies as well as improve coordination 
and consideration of permit applications that are under State 
review. In this permitting process the BLM sometimes reviews 
and analyzes one category of critical mineral manufacturing as 
defined in the bill if it is to occur on BLM lands. Often 
times, however, these and other manufacturing operations are 
located on non-Federal lands. We are concerned about other 
portions of section 105 and those are discussed further in our 
written statement.
    The USGS stands ready to fulfill its role as the Federal 
provider of unbiased research, unknown mineral resources, 
assessment of undiscovered mineral resources and information on 
domestic and global mineral resources for use in global 
critical mineral supply chain analyses. Similarly the BLM 
welcomes the opportunity to work with the Committee toward the 
goal of improving the coordination and efficiency of the mining 
permitting process while maintaining our environmental 
standards.
    Thank you again for this opportunity to present our views 
on these bills. We'd be happy to answer any questions.
    [The prepared statement of Ms. Burke follows:]

     Statement of Marcilynn Burke, Deputy Director, Bureau of Land 
                 Management, Department of the Interior
                               on S. 383

    Good afternoon, Madam Chairwoman and Members of the Subcommittee. 
Thank you for the opportunity to discuss S. 383, the Critical Minerals 
and Materials Promotion Act of 2011. The bill directs the Secretaries 
of Energy and of the Interior to perform a number of activities 
intended to promote the domestic production of critical minerals and 
materials. In this statement, we will address the provisions relevant 
to the Department of the Interior. The Department of the Interior 
supports the goals of this bill, although we note that the Departmental 
activities called for in S. 383 are within the scope of existing 
Department of the Interior authorities.
    The U.S. Geological Survey (USGS) is responsible for conducting 
research and collecting data on a wide variety of nonfuel mineral 
resources. Research is conducted to understand the geologic processes 
that concentrated known mineral resources at specific localities in the 
Earth's crust and to estimate (or assess) quantities, qualities, and 
areas of undiscovered mineral resources, or potential future supply. 
USGS scientists also conduct research on the interactions of mineral 
resources with the environment, both natural and as a result of 
resource extraction, to better predict the degree of impact that 
resource development may have on human and ecosystem health. USGS 
mineral commodity specialists collect, analyze, and disseminate data 
and information that document current production and consumption for 
about 100 mineral commodities, both domestically and internationally 
for 180 countries. This full spectrum of mineral resource science 
allows for a comprehensive understanding of the complete life cycle of 
mineral resources and materials--resource formation, discovery, 
production, consumption, use, recycling, and reuse--and allows for an 
understanding of environmental issues of concern throughout the life 
cycle.
    Global demand for critical mineral commodities is on the rise with 
increasing applications in consumer products, computers, automobiles, 
aircraft, and other advanced technology products. Much of this demand 
growth is driven by new technologies that increase energy efficiency 
and decrease reliance on fossil fuels. To begin the process of 
understanding potential sources of critical mineral commodities, the 
USGS has recently completed an inventory of known domestic rare-earth 
reserves and resources (Long and others, 2010). This study restates 
basic geologic facts about rare earths relevant to assessing domestic 
security of supply and reviews current U.S. consumption and imports of 
rare earths, current knowledge of domestic resources, and possibilities 
for future domestic production. The report also includes an overview of 
known global rare-earth resources and discusses the reliability of 
alternative foreign sources of rare earths.
    Though rare earth elements are currently of most concern to many, 
including the Department of Defense, which funded the inventory, it 
should be noted that in 2010 the United States was 100 percent 
dependent on foreign suppliers for 18 mineral commodities and more than 
50 percent dependent on foreign sources for 43 mineral commodities. 
Import partners include Brazil, Canada, China, France, Germany, Japan, 
Mexico, Russia, and Venezuela. In 2008, a National Research Council 
committee, funded largely by the USGS, developed a ``criticality 
matrix'' that combines supply risk with importance of use as a first 
step toward determining which mineral commodities are essential to the 
Nation's economic and national security (National Research Council, 
2008).

S. 383
    S. 383 directs the Secretary of the Interior, acting through the 
USGS, to establish a research and development program to (1) provide 
data and scientific analyses for research on, and assessments of the 
potential for, undiscovered and discovered resources of critical 
minerals and materials in the United States and other countries; (2) 
analyze and assess current and future critical minerals and materials 
supply chains; and (3) if appropriate, cooperate with international 
partners to ensure that the research and assessment programs provide 
analyses of the global supply chain of critical minerals and materials.
    These actions are within the scope of existing authorities, and 
already underway at the USGS. The USGS continuously collects, analyzes, 
and disseminates data and information on domestic and global rare-earth 
and other critical mineral reserves and resources, production, 
consumption, and use. This information is published annually in the 
USGS Mineral Commodity Summaries (USGS, 2011) and includes a 
description of current events, trends, and issues related to supply and 
demand.
    The USGS stands ready to fulfill its role as the federal provider 
of unbiased research on known mineral resources, assessment of 
undiscovered mineral resources, and information on domestic and global 
production and consumption of mineral resources for use in global 
critical-mineral supply chain analysis. Any study conducted to fulfill 
the objectives of the bill would require substantial resources and 
would need to compete for funding with other Administration priorities.
    Thank you for the opportunity to present the views of the 
Department on S. 383. We are happy to answer any questions you or the 
other Members may have.
                                 ______
                                 
                               On S. 1113

    Good afternoon and thank you for the opportunity to discuss S. 
1113, the Critical Minerals Policy Act of 2011. The bill directs the 
Secretaries of Energy and of the Interior to perform a large number of 
activities intended to support and enhance the Nation's critical 
mineral supply chain, beginning with developing a methodology to 
determine which minerals are critical to the Nation's economy. In this 
statement, we will address the provisions relevant to the Department of 
the Interior.
    The Department of the Interior supports the goal of facilitating 
the development of critical minerals in an environmentally responsible 
manner. We note that many of the activities called for in S. 1113 are 
within the scope of existing Department of the Interior authorities. We 
would like to work with the Committee toward the goal of improving the 
coordination and efficiency of the mining permitting process while 
maintaining environmental standards.

Background
    The U.S. Geological Survey (USGS) is responsible for conducting 
research and collecting data on a wide variety of nonfuel mineral 
resources. Research is conducted to understand the geologic processes 
that concentrated known mineral resources at specific localities in the 
Earth's crust and to estimate (or assess) quantities, qualities, and 
areas of undiscovered mineral resources, or potential future supply. 
USGS scientists also conduct research on the interactions of mineral 
resources with the environment, both natural and as a result of 
resource extraction, to better predict the degree of impact that 
resource development may have on human and ecosystem health. USGS 
mineral commodity specialists collect, analyze, and disseminate data 
and information that document current production and consumption for 
about 100 mineral commodities, both domestically and internationally 
for 180 countries. This full spectrum of mineral resource science 
allows for a comprehensive understanding of the complete life cycle of 
mineral resources and materials-resource formation, discovery, 
production, consumption, use, recycling, and reuse-and allows for an 
understanding of environmental issues of concern throughout the life 
cycle.
    Global demand for critical mineral commodities is on the rise with 
increasing applications in consumer products, computers, automobiles, 
aircraft, and other advanced technology products. Much of this demand 
growth is driven by new technologies that increase energy efficiency 
and decrease reliance on fossil fuels. To begin the process of 
understanding potential sources of critical mineral commodities, the 
USGS has recently completed an inventory of known domestic rare-earth 
reserves and resources (Long and others, 2010). This study restates 
basic geologic facts about rare earths relevant to assessing domestic 
security of supply and reviews current U.S. consumption and imports of 
rare earths, current knowledge of domestic resources, and possibilities 
for future domestic production. The report also includes an overview of 
known global rare-earth resources and discusses the reliability of 
alternative foreign sources of rare earths.
    Though rare earth elements are currently of most concern to many, 
including the Department of Defense, which funded the inventory, it 
should be noted that in 2010 the United States was 100 percent 
dependent on foreign suppliers for 18 mineral commodities and more than 
50 percent dependent on foreign sources for 43 mineral commodities. 
Import partners include Brazil, Canada, China, France, Germany, Japan, 
Mexico, Russia, and Venezuela. In 2008, a National Research Council 
committee, funded largely by the USGS, developed a ``criticality 
matrix'' that combines supply risk with importance of use as a first 
step toward determining which mineral commodities are essential to the 
Nation's economic and national security (National Research Council, 
2008).

S. 1113
    S. 1113, the Critical Minerals Policy Act of 2011, directs the 
Secretary of the Interior, through the Director of the USGS, to perform 
a number of actions that build on current USGS activities and 
capabilities, including the recent rare-earths inventory. The bill 
directs the USGS to develop a rigorous methodology for determining 
which minerals are critical, and then to use that methodology to 
designate critical minerals. It calls for a comprehensive national 
mineral resource assessment within four years of the bill's enactment 
for each mineral designated as critical under Sec. 101, and it 
authorizes field work for the assessment, as well as technical and 
financial assistance for States and Indian tribes. The bill establishes 
a collaborative effort between USGS and the U.S. Energy Information 
Administration for annual reviews of domestic mineral trends as well as 
forward-looking analyses of critical mineral production, consumption, 
and recycling patterns. The bill repeals the National Critical Minerals 
Act of 1984 and parts of the National Materials and Minerals Policy, 
Research, and Development Act of 1980 but retains Sections 1604(e) and 
(f) of the 1980 Act, which authorize the mineral information tracking 
and analysis activities of the USGS.
    Sec. 104 calls for the establishment of a high-level Working Group 
whose members would be the Secretaries (or designees) of the Interior, 
Energy, Agriculture, Defense, Commerce, and State, the U.S. Trade 
Representative, the Administrator of the U.S. Environmental Protection 
Agency, and the Chief of Engineers of the Army Corps of Engineers, as 
well as a designee from the Executive Office of the President. The 
Working Group would review, assess, and evaluate the permitting process 
for exploration and development of domestic, critical minerals, while 
maintaining environmental standards. Sec. 104 requires the Working 
Group to submit a report to the President and Congress on the Working 
Group's findings. The Department would like to work with the Committee 
to clarify and focus the duties of this Working Group. We are also 
concerned that the bill provides insufficient time to both carry out 
the duties of the Working Group and to report back to Congress.
    Section 104 also calls for the development of a performance metric. 
The Department of the Interior issued its FY 2011-2016 Strategic Plan 
in January 2011. As part of developing this plan, the Department 
developed performance metrics. Throughout the process, and in 
accordance with the Government Performance and Results Act (GPRA), the 
Department sought public input into the plan, goals, and performance 
measures selected. Within the Department's Strategic Plan framework, 
the BLM already measures and reports in its Budget Justifications 
information regarding non-energy mineral (which include critical 
minerals) exploration and development leases, permits, and licenses.
    Sec. 105 addresses new ``critical mineral manufacturing 
facilities'' and seeks to facilitate the permitting processes for them 
for all Federal agencies as well as facilitate coordination and 
consideration of permit applications that are under state review. The 
bill defines one category of ``critical mineral manufacturing'' to 
include ``the production, processing, refining, alloying, separation, 
concentration, magnetic sintering, melting, or beneficiation of 
critical minerals within the United States'' (Sec. 2(4)(A)). In its 
permitting processes, the BLM sometimes reviews and analyzes such 
operations if they are to occur on BLM lands. Oftentimes, however, 
these and other manufacturing operations are located on non-Federal 
lands.
    Sec. 105 of the bill also lists several activities that the 
President may undertake in cooperative agreements with states regarding 
the processing of critical mineral mining permits, including memoranda 
of agreement for the coordination and concurrent review of state and 
Federal permit applications. The bill also provides for use of 
consolidated permit applications for all Federal authorizations and 
memoranda of agreement between Federal agencies to coordinate review of 
permit applications. The Department supports the goals of optimizing 
efficiencies in the review of permit applications and would welcome the 
opportunity to explore with the Committee the circumstances under which 
a consolidated application for all permits required by the Federal 
government would be efficient and effective, bearing in mind the 
diverse missions and authorities of the Federal agencies involved. The 
Department also supports the goal of coordinating consideration of 
mining operations across Federal agencies and is working on many levels 
to improve interagency cooperation.
    With respect to concurrent Federal and state review of permit 
applications (Sec. 105(b)(3)), while the Department supports the idea 
of sharing information and coordinating with states to the extent 
practicable, we must remain mindful of the multiple authorities 
governing the authorization of mineral development, including those 
delegated to the states to regulate in certain areas such as the Clean 
Air Act and the Clean Water Act.

Conclusion
    The Department maintains a workforce of geoscientists (geologists, 
geochemist, geophysicists, and resource specialists) with expertise in 
critical minerals and materials. The Department continuously collects, 
analyzes, and disseminates data and information on domestic and global 
rare-earth and other critical mineral reserves and resources, 
production, consumption, and use. This information is published 
annually in the USGS Mineral Commodity Summaries (USGS, 2011) and 
includes a description of current events, trends, and issues related to 
supply and demand.
    The Department, through the USGS, stands ready to fulfill its role 
as the federal provider of unbiased research on known mineral 
resources, assessment of undiscovered mineral resources, and 
information on domestic and global production and consumption of 
mineral resources for use in global critical-mineral supply chain 
analysis.
    Similarly, we welcome the opportunity to work with the Committee 
toward the goal of improving the coordination and efficiency of the 
mining permitting process while maintaining environmental standards
    We note, however, that many of the activities called for in S. 1113 
are already authorized by existing authorities. Any activities 
conducted to fulfill the objectives of the bill would require 
substantial resources and would need to compete for funding with other 
priorities.
    Thank you for the opportunity to present the views of the 
Department on S. 1113. We will be happy to answer any questions.

    Senator Cantwell. Thank you, Ms. Burke. Again, thank you, 
to all the witnesses for being here today.
    I'm going to start with you, Mr. Sandalow. You touched on 
the issue of substitutes. It seems to me that there is no 
amount of mining that is going to fully address this issue.
    You know, I've read some information about the University 
of Nebraska developing a permanent magnet that does not require 
rare Earth elements at all. The University of Delaware is 
trying to create a nano composite magnet. If successful, this 
could result in a huge, reduction in rare earth minerals demand 
as much as 30 to 40 percent. Japan is working on Ferrite 
magnets that don't need rare Earth.
    So could you elaborate on your point about substitutes for 
rare Earths and what it will take to bring those products to 
the marketplace?
    Mr. Sandalow. Thank you for the question, Madame 
Chairwoman. It's an extremely important area. You're exactly 
right in saying that substitutes are critical to our work in 
this area.
    We, at the Department of Energy, are supporting work in 
developing substitutes. The ARPA-E program, for example, has a 
funding opportunity announcement looking at exactly this topic. 
Our energy efficiency and renewable energy program is looking 
at exactly the same types of issues.
    In areas, you know, including not only for magnets but 
lighting and other areas, we have the potential to develop 
substitutes but it's going to require government partnering 
with industry in ways that are productive going forward. I 
think the basic research and development that needs to be done 
in this area is essential. Then government working with 
industry can make the steps that will really make a difference.
    Senator Cantwell. The legislation that we have before us 
today doesn't do a lot in the area of substitutes. Is that 
correct?
    Mr. Sandalow. I would look to the sponsors. I do think it's 
important that we do develop substitutes and that we work, you 
know, productively in that area.
    Senator Cantwell. OK. Mr. Sandalow, do our scientists and 
engineers have enough data now to evaluate what our domestic 
resource base is with respect to critical minerals or is there 
more work to be done there?
    Mr. Sandalow. For mineral assessment I would defer to 
Department of Interior and USGS. But, you know, in general data 
collection is an extremely important function of government. 
It's one that needs to be funded adequately for the sake of our 
companies and our competitiveness.
    Senator Cantwell. What about work force? Do we have the 
work force there?
    Mr. Sandalow. It's such an important issue. Thank you for 
asking. We do not.
    Education and training is a huge--very, very important 
issue in this area, Madame Chair. The educational resources 
that have gone into this area in other countries swamp those 
that have gone into those in our own country. It's extremely 
important that we develop the trained work force to take on 
this issue.
    Senator Cantwell. Could you elaborate on that? What kind of 
investment has China or other countries made in the necessary 
skills? Because I would assume it'd be similar to mining in 
general or no?
    Mr. Sandalow. It's also in chemistry and in a variety of 
technical including engineering expertises that are essential 
to developing products in this area. You know, at the 
Department of Energy there has been expertise at the Ames 
National Lab in this area for many, many years. But that type 
of expertise needs to be multiplied if this country is going to 
be fully competitive in this area in the years ahead.
    Senator Cantwell. OK. Thank you.
    Ms. Burke, obviously there are many of us here who have 
been seeking an update to the 1872 mining law. I'm certainly 
one of them. We have royalties for oil and gas and coal. Should 
there also be royalties on these minerals?
    Ms. Burke. Madame Chairman, as you're aware that we have 
proposed legislation as part of the budget to take several 
minerals out of the mining law, gold, copper, those sorts of 
elements. But we have not looked at what sort of royalty would 
be appropriate, if any, on rare Earth or other critical 
minerals.
    Senator Cantwell. OK. How do you look at this inventory 
issue that we were just discussing? Do we have a good 
assessment of what the domestic resources are with respect to 
critical minerals and materials?
    Ms. Burke. I'll defer to Mr. Doebrich.
    Senator Cantwell. OK.
    Mr. Doebrich. Madame Chairwoman.
    Senator Cantwell. Thank God there's not a fourth witness 
because you might defer to them. But anyway.
    Mr. Doebrich. That's true.
    Senator Cantwell. Go ahead.
    Mr. Doebrich. The only minerals or elements or metals that 
have been systematically assessed on a national basis are gold, 
silver, copper, lead and zinc. So rare Earths and other 
minerals that are considered as critical have yet to be 
assessed nationally in a systematic way. That's what we're 
preparing to do in the coming years.
    Senator Cantwell. What does that mean we're preparing to 
do? So we have a plan. We have the resources. We have a 
deadline. How long would it take? That.
    Mr. Doebrich. Yes. We are in the process of updating our 
national data bases, in the process of updating our deposit 
models that are required to do these assessments. One of the 
things that we've been involved with heavily over the last 10 
years is a global assessment for a copper, pot ash and platinum 
development.
    So we are waiting for the completion of that which is 
happening at the end of this fiscal year before we have human 
resources available then to embark on a new national 
assessment.
    Senator Cantwell. OK. I think I'll come back to this in a 
second round. Senator Murkowski, would you like to ask 
questions?
    Senator Murkowski. Thank you for your attendance here today 
and for working with us on these issues. You mentioned, Ms. 
Burke, in your testimony that you welcome the opportunity to 
work with the Committee toward the goal of improving the 
coordination and the efficiency of the mining permitting 
process while maintaining the environmental standards. We've 
got to work on the efficiency side.
    Recognizing, again, as I stated in my opening comments, 
that we're dead last when it comes to this permitting process 
and how long it takes, anywhere from 7 to 10 years. So we do 
want to work with you on that. We do want to try to gain some 
efficiencies within the process itself.
    Let me ask both of you. The Critical Materials Strategy 
Report that came out in December, I understand that sometime 
before the end of this year there's going to be a new version 
or an update to that report. As good as the report was, as 
important as it was, I think there were some concerns that it 
didn't--there wasn't a lot of interagency coordination as you 
worked to identify problems and potential solutions.
    I--we say in the report that we're dead last. Acknowledge 
that. But what have we identified in terms of what the solution 
is to that. Other than just saying, well, that's kind of the 
responsibility of the Department of the Interior.
    So since we've got both agencies today I guess I would ask 
you to commit to working more collaboratively on this next 
report that's coming out so that we can hopefully have some 
more specific proposals than we saw with the last report. 
You're both nodding your heads. So I take it you agree that 
this is a good approach.
    Mr. Sandalow. We'd be delighted to do that, Senator. Thank 
you for the question and the suggestion. I would add that just 
yesterday there was a meeting convened by the Office of Science 
and Technology policy among all the major Federal agencies on 
this topic. There's been very active interagency conversation 
in the prior months. I know that's the plan going forward.
    So completely agree and thank you very much for the 
suggestion.
    Senator Murkowski. OK. Good.
    Also to both of you when I released my discussion draft of 
the Critical Mineral Policies Act for comment, we got a number 
of comments back to that advocating for the designation of 
certain USGS offices as principle statistical agencies. I'm 
wondering if either one of you would care to comment or react 
to this suggestion. As I understand it would represent a fairly 
significant reorganization of the minerals information, 
functions at USGS and would allow the Federal Government to 
compel the provision of information that in the past has just 
been made voluntarily.
    Is this something that the Administration would support? Is 
this a good idea? Bad idea?
    Mr. Doebrich. We'd actually like to better understand what 
the full ramifications of that designation would mean because 
we really don't at this moment. So we'd like to actually answer 
that for the record.
    However, I will say that our current collection of 
production and consumption information, that is done 
voluntarily and has been done for many years. Through that 
process we've generated a tremendous amount of trust with the 
industry and in the production, those who produce and provide 
materials in the minerals industry. We are, by law, required 
should the supplier have the information request to keep this 
information proprietary and so this is OMB guidance and OMB 
regulations.
    So far it's worked very well. We've had very good response 
using the voluntary method. Again this is through many, many 
years of doing this and generating a tremendous amount of trust 
with our partners out there.
    Senator Murkowski. So you'll communicate with us in terms 
of where you might come down one way or another on that? I'd 
appreciate that. OK.
    Let me ask about the Federal, State and local regulatory 
programs that I mentioned. I think there were 30, no less than 
30 different regulatory programs that mining operations are 
subject to. In looking at the legislation that I've put forward 
can you tell us whether or not it amends, weakens or in any way 
modifies any existing, environmental regulatory program?
    Ms. Burke.
    Ms. Burke. When we reviewed the bill we did not look at 
that specific question. But on its face it does not appear to 
amend any of those laws or regulations.
    Senator Murkowski. OK. Good. Thank you.
    Thank you, Madame Chair.
    Senator Cantwell. Thank you.
    Senator Bingaman.
    The Chairman. Thank you very much. Thanks for chairing the 
hearing. Let me ask, Mr. Sandalow, I happened to be in Japan 
last fall when the problem arose with the Chinese cutting off 
access to rare Earth shipments to the Japanese. Now they claim 
they didn't do that. But the Japanese think they did.
    I was visiting with the Japanese Minister of Economy, Trade 
and Industry. It was his strong opinion and I shared his 
opinion that there had been an effort by China to 
systematically undersell other producers in the world and 
thereby to drive a bunch of people out of business. Therefore, 
the Chinese remained the sole remaining source for these rare 
earth elements.
    That was the problem. We needed to find a way to cause the 
production of these elements to occur again in the United 
States, as they had in the past, and this--I saw you visited 
this mine in California. They're gearing up now, I think, 
because the price of these elements has gone up again. They 
find it profitable to go back into the business in a more 
serious way as I understand it.
    So, sort of starting from the general proposition that 
unless we diagnose the problem correctly, we're not likely to 
fix it. I don't really believe, based on what I've seen that 
the problem, the core problem here is the permitting process. I 
think my colleague Senator Murkowski referred to bureaucratic 
intransigence as the reason why we do not have a production of 
these rare earth elements.
    I don't doubt that there's bureaucratic intransigence. It 
is everywhere I've ever seen, acknowledge that.
    But the main problem here is it hasn't been profitable for 
U.S. farms to produce these minerals. We have the minerals. We 
have the rare Earth elements. It hasn't been profitable.
    So what we need to do is to find a way to not only--it's 
now profitable again because the prices are up. But to ensure 
that there's going to be a reasonable price for these minerals 
going forward in the world market. I guess my other concern, 
I'll just add this before I finish my soliloquy here is I'm 
told that the Chinese have now shifted to a deal where they're 
consolidating their production of rare Earth elements in a 
single company. That to me is a little bit concerning as well 
in that it makes it a lot easier to ensure that the supply and 
the price is what you in fact want it to be for purposes of the 
world market.
    So what's your reaction to all of this? I'm just wondering 
if we charge off here and change the permitting process and do 
all these things. The price of these elements may still drop 
through the floor here one of these months. Everyone in the 
U.S. who is in this business will shut down in a hurry. They 
will in my State.
    Mr. Sandalow. Thank you, Senator, for those very thoughtful 
comments. I would respond as follows. I think your comments 
highlight the problem whenever any resource is produced at 
levels of 90 percent or more from one country. That is going to 
be a problem when there's a global supply chain for those 
minerals.
    So it is essential that we find a way to globalize the 
supply chain, including domestic production right here in the 
United States. As part of that strategy essential that we also 
find substitutes and that we find ways to minimize the use. 
That we do so, as your question suggests, on an economically 
sustainable basis.
    That's going to take government and industry working 
together in partnership. I think it's something that, I know 
it's something that we can achieve if we work together and do 
it right.
    The Chairman. Has the Administration considered the 
possibility? I mean, we have a buy America provisions at the 
Department of Defense operates under where we would give some 
preference to products that incorporate rare Earth elements 
that are produced in this country to the extent that they're 
available. Going forward, is there any thought of doing 
something to that effect?
    Mr. Sandalow. That's not been part of discussions that I'm 
aware of, Senator, but certainly something that we could look 
at.
    The Chairman. Thank you very much.
    Senator Cantwell. Next is Senator Heller.
    Senator Heller. Thank you, Madame Chairwoman.
    I've actually come here for the next panel, but I'm very 
interested in the discussion that we've had in the last few 
minutes. So it has produced some questions in my own mind. So I 
appreciate you giving me a few minutes.
    One of the--you brought up the issue of mining reforms and 
perhaps changing the royalty formulas on some of the hard rock 
minerals that we mine in this country. I don't know a lot about 
the history here in the Senate. But I can tell you somewhat of 
the history in the House and why some of those reforms were 
difficult to pass was because usually most of the products that 
came out of the House probably did more to discourage mining 
production that it did encourage mining production.
    So I guess my only point or argument is I'd certainly like 
to be part of that discussion as you move forward. Because I 
think we can come to an agreement with something that does in 
fact encourage mining production as opposed to something that 
may be too onerous for the industry to go forward. So anyway 
thanks for your comments. I'd certainly like to be involved to 
what extent maybe.
    I want to also follow up on what Senator Bingaman was 
saying talking about the permitting process. That is an issue 
of contention in my State. Exploration is one thing. The many 
years it takes, obviously, to explore claims and to put it to a 
point of production. But at that point, that process for 
permitting may take 7 to 10 years.
    When I talk about mining production in Nevada, our State 
has very high unemployment. Those counties that have high 
mining production, the unemployment in those counties are half 
what it is in the rest of the State. So mining works very well 
and plays well in our State.
    So the question that I have is with all the time it takes 
to do the exploration, all the time it takes for the permitting 
process and in this case, generally 7 to 10 years. I guess my 
question for Ms. Burke would be given your knowledge of the 
importance of developing these resources how do you propose, 
how would you propose to improve this permitting process, 
particularly while we wait for current legislation efforts to 
become law?
    Ms. Burke. Thank you for the question, Senator. Before I 
launch, headlong, into our proposals for how we might improve 
the process. I just wanted to clarify that the 7 to 10 years is 
the time it takes from discovery to go into production. The 
BLM's permitting process on average for a large mine takes 4 
years.
    So there are obviously other permits from State and local 
officials, that sort of thing, that can add additional time. 
But the BLM's permitting process, on average, takes 4 years.
    Just last week or 2 weeks ago, our Director, Bob Abbey, was 
in your great State of Nevada.
    Senator Heller. He's from Nevada.
    Ms. Burke. Meeting with the Governor and industry and 
others to discuss this very, very issue. As you may be aware, 
our office in Nevada is sort of, a pilot if you will, having 
put in place some efforts to try to streamline or facilitate 
the more efficient processing of permits. While it is still 
very early on in this, sort of, new process to tell, I believe 
that folks are optimistic that the sorts of things that Nevada 
is trying to do will in fact garner the types of results that 
we're all seeking.
    Senator Heller. OK. I appreciate your comments. Because I 
share with the Governor and have had this discussion with both 
Mr. Abbey and the Governor, obviously, on this process and the 
impact that it has on the State of Nevada.
    So anyway, I thank you for your comments and look forward 
to working with you down the road as we try to iron out some of 
these issues.
    Thank you, Madame Chairwoman.
    Senator Cantwell. Thank you, Senator Heller.
    Senator Franken.
    Senator Franken. Thank you, Madame Chair.
    This is for anyone. Many electronics have rare Earth 
elements and other critical materials in them. Senator Bingaman 
was talking about the Japanese. They have taken up something 
called urban mining, which means they take old electronics and 
they reuse or recycle the critical elements that they contain.
    Best Buy which is headquartered in my great State of 
Minnesota, Ms. Burke, has an electronic recycling program where 
they recycle many kinds of electronics that people bring in for 
free. Is this something that we can promote? I know that costs 
are high to recycle, to make widespread recycling of critical 
materials feasible. But can we somehow reduce the price?
    Also if you don't recycle these materials very often they 
end up being very toxic. So I was wondering what role 
reprocessing of electronics could play in making sure that we 
have these rare Earth elements and recycle them and other 
critical materials?
    Mr. Sandalow. Thank you for the question, Senator. It's an 
important one. The answer is yes, this is an area that we must 
look into and that we are looking into.
    There are tremendous opportunities with respect to the 
recycling of rare Earth metals. I think you're going to hear 
some more about that on the next panel from some of the leaders 
in this area.
    Senator Franken. OK.
    Mr. Sandalow. One of the challenges has been that these 
rare Earth metals in particular are often found in very trace 
amounts in the products in which they are located. So 
separating them and then reusing them can be a challenge for 
that reason. But that underscores, I think, the opportunity in 
doing research into new designs that might facilitate the 
removal of these at the end of the product's life.
    That's an area of great interest at the Department of 
Energy. I think it's one that some of the companies you're 
going to hear from are working on as well.
    Senator Franken. Now very often these old things, these old 
electronics are exported and end up in, you know, in countries 
that where they end up being toxic to the environment. I think 
that's something that we need to try to avoid.
    On the permitting process, I do want to make--understand 
this distinction because I kept hearing this 7 to 10 year 
thing. Senator Heller was--it sounded like he was saying that 
once the exploration has been done then it takes 7 to t10. We 
have a mine, a potential mine up in Northern Minnesota that has 
some of these rare metals.
    What's slowed it down is they did an environmental impact 
study and it didn't quite cut mustard. But they're doing it 
again. I'm confident that eventually they will be able to 
figure out how to do this mining without harming the water 
table.
    But, I mean, which is it? Is it 7 to 10? Is it--what--run 
it down for me? Give me some kind of idea of what is a typical 
process.
    Ms. Burke. The 4 years that I was speaking of is from the 
time that an operator files a plan of operation or an 
application with the BLM to the point that we reach a final 
decision about whether or not the mining operation can go 
forward and under what conditions.
    Senator Franken. But you couldn't permit it before that 
anyway, I mean, right?
    Ms. Burke. Before the discovery and exploratory work? 
That's correct.
    Senator Franken. OK. So what is the 7 to 10, exactly?
    Ms. Burke. That is taking into account the discovery and 
exploration and even beyond the time that is necessary for the 
BLM to process the application.
    Senator Franken. But the plan of operation--what is it? 
It's 4 years from when?
    Ms. Burke. From when the industry files the plan of 
operation which is in essence an application with the BLM.
    Senator Franken. OK. So I don't see how anything could be 
permitted before there is a plan of operation.
    Ms. Burke. That's correct.
    Senator Franken. OK. So then why is this number for the 
permitting process 7 to 9 years? I mean, wouldn't it be 4 
years?
    I mean, in other words, I don't want to argue over 
semantics. But it seems to be misleading to say it's 7 to 10 
years if, you know, the permitting process is what I would call 
the permitting process in which you process the permit. Right?
    So that would only happen once someone asked for a permit.
    Ms. Burke. That is correct.
    Senator Franken. OK. I just want to make that clear. Thank 
you, Madame Chair.
    Senator Cantwell. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madame Chairman. 
Very clear. I appreciate it.
    [Laughter.]
    Senator Franken. Good.
    Senator Barrasso. They call that 7 to 9 years the Al 
Franken decade.
    [Laughter.]
    Senator Barrasso. The--I want to thank Senator Murkowski 
for her continued leadership on this critical mineral issue. 
It's--I'm an original co-sponsor of her Critical Minerals 
Policy Act 2011. It's an important piece of legislation to 
reduce U.S. dependence on foreign sources of critical minerals.
    You know, in Wyoming we have a company that is looking to 
open a rare Earth mine. It's an exciting project. It could help 
address some of the rare Earth supply chain issues. But they 
have a long way to go before it becomes a reality.
    China now controls an estimated 97 percent of the global 
production of rare Earth elements. China's critical minerals 
strategy is clear. It wants to give itself a competitive 
advantage in manufacturing and in other industries. Rare Earth 
elements are an essential part of wind turbines, solar panels 
and with control of a key aspect of the supply chain, China 
then has a clear advantage in manufacturing wind turbines and 
solar panels.
    Last year the Department announced a plan for speeding the 
permitting for solar projects on public lands to so called 
solar zones and also announced a process to streamline the 
permitting for wind projects. It highlights a problem that 
exists across the board. Permitting any kind of project in this 
country is a major challenge.
    Burdensome regulations, cumbersome bureaucracy stand in the 
way of American energy and mining. The Murkowski bill includes 
an examination of the inefficiencies in the permitting process 
and provisions to help Federal and State coordination. These 
provisions are important because permitting can be a major 
hurdle, especially when Federal land is involved. So more needs 
to be done to address this.
    So my question, Mr. Sandalow is in your testimony you 
mention recycling and alternative sources of material as ways 
to address shortages in rare Earths and the negative impact on 
solar and wind energy of those concerns. You specifically 
referenced coal ash as a potential source of material. The EPA, 
you know, is currently considering regulating coal ash as a 
hazardous waste which will hurt the beneficial reuse of coal 
ash.
    So the market for beneficial reuse of coal ash is already 
cratered because of uncertainty over the threat from the EPA of 
these additional regulations. So we have an Administration 
that's promoting a strategy to use coal ash to meet our 
critical mineral needs. But at the same time, the 
Administration through the EPA is considering regulations that 
will serve as a major impediment to what is to here, today, the 
Administration's strategy. I've, you know, memos from the 
Department of Energy and all that I know you're familiar with.
    So if EPA regulating coal ash is a hazardous waste that's 
going to undercut the DOE strategy for promoting critical 
minerals. What's going on now between the Department of Energy, 
EPA? They're submitting comments regarding coal ash regulations 
and the potential impact on our critical mineral strategy.
    Mr. Sandalow. Thanks for the question, Senator. I believe 
we can and we must find ways to accomplish both the goals that 
are identified in your question. That is, addressing the 
environmental implications of the disposal of coal ash and 
finding ways to beneficially reuse that product for American 
industry. We can do that.
    Working together between the EPA and DOE then as well 
between government and industry, we can find ways to achieve 
both those goals.
    Senator Barrasso. So have you been communicating 
specifically with the EPA or where are we along the process? 
Could you kind of just outline that a little bit for the 
Committee?
    Mr. Sandalow. That I would have to take back for the 
record, Senator. DOE and EPA are always talking about these and 
other issues on a regular basis. But----
    Senator Barrasso. But things are actually ongoing with 
this?
    Mr. Sandalow. Yes.
    Senator Barrasso. Sometimes we've had different people from 
different--oh, yes, we're working on it. Then you say, well 
what are you doing? Find out it's not going as well as we would 
like.
    Mr. Sandalow. I'm not personally familiar with the details 
of those conversations, Senator. But I'd be happy to take that 
for the record and let you know.
    Senator Barrasso. Alright. I'd really like to hear back 
because I think it's an important issue and it's going to have 
a major impact on this. Thank you.
    We are engaging in relevant policy and technical 
discussions with EPA and other interagency partners to identify 
and pursue opportunities to beneficially reclaim rare earths 
while simultaneously addressing any environmental implications 
with regards to coal ash. It should be noted that research is 
still at the early stages for extraction of rare earth elements 
(REE) from coal ash. If this source of rare earth elements 
turns out to be economically and technically viable, we would 
be interested in innovative approaches that both utilize the 
resource and protect human health and the environment. One 
approach would be to extract REE's and other materials as part 
of a treatment process, where treatment changes the physical, 
chemical, or biological character of a waste to make it less of 
an environmental threat.
    Senator Barrasso. Thank you, Madame Chairman.
    Senator Cantwell. Thank you. I'd like to move on to the 
second panel. I know Senator Murkowski had a quick question she 
wanted to ask one of the witnesses before we did that.
    Senator Murkowski.
    Senator Murkowski. I thank you, Madame Chair. I will 
attempt to be brief. We're talking about critical minerals. Of 
course the question is is how are we defining critical?
    Mr. Sandalow, I had to go back to your written testimony 
because you had stated that within the critical minerals 
strategy, the report that was released, you say for this 
purpose criticality was a measure that combined importance to 
the clean energy economy and the risk of supply disruption. In 
my bill, we do include--we include the component about risk to 
supply and the disruption. But also not just importance to the 
clean energy economy but also defense, health care related 
applications.
    I'm assuming you don't disagree that that should also not 
be what we look at when we define what is critical?
    Mr. Sandalow. Yes. Our report coming out of the Department 
of Energy was focused in particular on energy related 
applications. I think more broadly speaking the term 
criticality would refer to a broader set of issues.
    Senator Murkowski. OK. I just wanted to check.
    Thank you, Madame Chair.
    Senator Cantwell. Thank you. Again, thank you to the 
witnesses for your involvement and testimony on this issue. I'm 
sure we'll work with you as we continue to move forward on 
legislation.
    We're going to go to the second, or actually third panel, 
technically, and have them come up and join us at the Dias.
    That is, Dr. Jonathan G. Price, State Geologist and 
Director from the Nevada Bureau of Mines and Geology.
    Mr. Luka Erceg, President and CEO of Simbol Materials in 
Pleasanton, California.
    Dr. Steve Duclos, who is Chief Scientist at GE Global 
Research.
    Mr. Mark Caffarey, who is with--who is Executive Vice 
President of Umicore in Raleigh, North Carolina.
    I know Senator Heller you have a connection here. Did you 
want a few comments of further introduction of Mr.--of Dr. 
Price?
    Senator Heller. If I may, please.
    Senator Cantwell. Yes, go right ahead.
    Senator Heller. Thank you, Madame Chairman.
    It is my pleasure to welcome Dr. Jonathan Price to the 
Energy and Natural Resources Committee, Subcommittee on Energy, 
to discuss the minerals bill before us today. Dr. Price is 
Nevada's State Geologist and Director of the Nevada Bureau of 
Mines and Geology, which is Nevada's research, public 
information and geological survey unit housed out of the 
University of Nevada, Reno. He's also a tenured professor at 
the Mackay School of Earth Sciences in Engineering, one of the 
premier mining schools in the nation.
    Mining is an integral--is integral to Nevada's history. We 
have a proud tradition of leading the Nation on mining and 
minerals research. Mining provides more than 60,000 direct and 
indirect jobs in Nevada, is responsible for over $204 million 
in tax revenue and contributes $9.5 billion in economic 
activities in 2009. Nevada currently has the highest 
unemployment rate in the country. However, in the areas of my 
State that rely on mining, such as the Elko area, the 
unemployment rate is nearly half the State's average because of 
the economic activities associated with mining.
    Not only is mining the backbone of Nevada's rural economy, 
without mining we couldn't even produce the products we consume 
every day nor could we get them to market. From microwaves to 
medical devices to smart phones and the trucks that deliver 
goods to market, none of it would be possible without mining. 
Traditional and emerging industries, our national defense 
systems and national security requires elements and minerals 
that would not be available without mining.
    Mining is critical to our economy and national defense. Our 
country should have a policy that promotes mining rather than 
discourages it. I am so pleased that Dr. Price is here to share 
his perspective with us. His vast achievements, research, 
honors, awards and publications speak for themselves and I know 
we're all eager to benefit from his expertise on the subject 
matter before us.
    Again, Chairman Cantwell, thank you for having Dr. Price 
here with us today.
    Senator Cantwell. Thank you, Senator Heller. With that 
introduction, Dr. Price, we're going to let you go first and 
then we'll here from the rest of the witnesses.
    Thank you all for being here this afternoon.
    Dr. Price.

 STATEMENT OF JONATHAN G. PRICE, STATE GEOLOGIST AND DIRECTOR, 
          NEVADA BUREAU OF MINES AND GEOLOGY, RENO, NV

    Mr. Price. Thank you. My name is John Price. I'm testifying 
today from my perspective as Nevada State Geologist and as Co-
Chair of a 2011 study on energy critical elements by the 
American Physical Society and the Materials Research Society. A 
copy of this study is appended to my written testimony. By the 
way, there's a paragraph in there that addresses this issue 
that was discussed earlier about the timing for exploration 
verses development.
    Thank you for this opportunity to comment on the importance 
of your work in addressing the national issues regarding 
critical minerals. Graphs at the end of my written testimony 
provide some context for the issues.
    Firstly, global demand for nearly every mineral and energy 
commodity is rising in part because global population is rising 
and in part because average standard of living is also rising.
    Second, China's dominance in the minerals arena presents 
challenges, threats and opportunities. The world isn't running 
out of mineral resources. Long term demand will likely be met 
by supplies from a global free market. The resources are, 
however, unevenly distributed geologically and geographically 
such that short term supplies of raw materials and value added 
manufactured products can be interrupted leading to price 
increases that can be significant concerns for the U.S. 
economy.
    Energy critical elements or ECEs as we call them in the 
report, are a class of chemical elements that are critical to 
one or more new energy related technologies. A shortage of 
these elements would significantly inhibit large scale 
deployment which could otherwise be capable of transforming the 
way we produce, transmit, store or conserve energy. The report 
identifies 3 primary areas of potential actions by the United 
States to ensure the availability of ECEs.
    One, information collection, analysis and dissemination.
    Two, research development and work force enhancement.
    Three, recycling.
    Recognizing that the Department of Defense is responding to 
the 2008 National Academy of Science's report on managing 
materials for a 21st century military, the ECE report did not 
address defense stockpile issues. Did not recommend stockpiles 
for purely economic reasons. The bills currently pending in the 
Senate do an excellent job of addressing many of the 
recommendations made in the ECE report.
    The following changes could make the legislation even more 
effective. Two of the bills have sections covering information 
collection, analysis and dissemination. The ECE report, as well 
as the 2008 National Academy of Science's report on critical 
minerals recommended that the USGS be given more authority and 
elevate it to a principle statistical agency as is the Energy 
Information Administration.
    All the bills establish R and D programs. However the ECE 
report recommended a somewhat broader research spectrum. In our 
view the Federal Government should establish an R and D effort 
focused on ECE's and possible substitutes that can enhance 
vital aspects of the supply chain including geologic deposit 
modeling, mineral extraction and processing, material 
characterization and substitution, utilization, manufacturing, 
recycling and life cycle analysis.
    The ECE report made an additional recommendation regarding 
recycling. Steps should be taken to approve rates of post 
consumer collection of industrial and consumer products 
containing ECEs beginning with an examination of the numerous 
methods explored and implemented in various States and 
countries.
    Allow me to conclude with some personal comments. The State 
Geological Surveys have critical mineral data, geological 
samples available for research and expertise that are not 
easily accessible to the USGS. For example, New Mexico has data 
on rare Earth elements tellurium and beryllium and Alaska makes 
its new information about domestic mineral resources readily 
available for follow up by industry.
    In Nevada currently the U.S.'s only lithium producer, our 
State Geological Survey houses considerable information on the 
geological framework for lithium deposits. It would be 
appropriate for the bill that deals with permitting issues to 
specifically identify State regulators as stakeholders within 
the Federal critical minerals working group should consult. In 
many States, including Nevada, State and Federal regulators try 
to work together to speed up the process but the slowness of 
permitting, particularly on federally managed lands continues 
to be a major deterrent to domestic exploration and production.
    Finally, I believe that authorization levels are too low 
for the tasks assigned. Given the number of chemical elements 
that are likely to be considered critical, the USGS's Mineral 
Resources Program would need at least twice the amount of 
funding allocated. In addition, the funding for R and D seems 
low by a factor of 5. These issues could be addressed by 
reprogram or resources within the USGS and DOE.
    Thank you.
    [The prepared statement of Mr. Price follows:]

Prepared Statement of Jonathan G. Price, State Geologist and Director, 
              Nevada Bureau of Mines and Geology, Reno, NV

    My name is Jonathan G. Price. I am the Nevada State Geologist and 
Director of the Nevada Bureau of Mines and Geology, which is the state 
geological survey and a research and public service unit of the Nevada 
System of Higher Education at the University of Nevada, Reno. I am 
testifying today from my perspectives as State Geologist and as the Co-
Chair of a 2011 study on Energy Critical Elements: Securing Materials 
for Emerging Technologies by the American Physical Society's Panel on 
Public Affairs and the Materials Research Society. A copy of this study 
is appended to my testimony.
    Thank you for this opportunity to comment on the issues of critical 
minerals and the three bills that you are considering.
    Four graphs at the end of this testimony provide some context for 
the issues. Global demand for nearly every mineral and energy commodity 
is rising, in part because global population is rising and in part 
because average standard of living is also rising. Neither copper nor 
iron are considered critical minerals in most discussions today, 
because their resources are widely distributed geographically, and 
markets for them are well established, but they help provide context on 
the rising demand for the minerals that are considered critical or 
strategic. The continuing historical rise in demand for copper, an 
example of a mineral commodity needed for modern society, is documented 
in Figure 1.* To meet global demand, the world needs to mine the 
equivalent of one huge copper deposit each year and find a new one to 
replace the depleted reserves. Although conservation and recycling can 
lessen the demand for newly mined copper, the increases in both global 
population and average standard of living require more mining.
---------------------------------------------------------------------------
    * Figures 1-4 have been retained in subcommittee files.
---------------------------------------------------------------------------
    Domestic resources for most, but not all, mineral commodities occur 
in the United States, where they are mined using the world's best 
practices for environmental stewardship and health and safety for 
workers and the public. The Federal government (specifically through 
the U.S. Geological Survey in the Department of Interior for most 
mineral resources and through the Department of Energy for some of the 
energy resources) has a vital role in documenting domestic production 
and reserves and in assessing the likelihood of future discoveries that 
will add to the mineral and energy resources of our country.
    Global iron-ore production and, by that measure, the rise of China 
as a major economic power, is shown in Figure 2. The dominance of China 
as a producer of mineral and energy commodities today is illustrated in 
Figures 3* and 4*. These graphs use critical data collected and 
reported by the USGS. China's dominance in the minerals arena presents 
challenges, threats, and opportunities for the United States.
    The world isn't running out of mineral resources; long-term demand 
will likely be met by supplies from a global free market. The resources 
are, however, unevenly distributed geologically and geographically, 
such that short-term supplies of raw materials and value-added 
manufactured products can be and have been interrupted, leading to 
price increases that can be significant concerns for the U.S. economy 
and the economies of other, less mineral-rich countries.
    The report on Energy Critical Elements: Securing Materials for 
Emerging Technologies (the ECE report) surveys potential constraints on 
the availability of these elements. Energy-critical elements (ECEs) are 
a class of chemical elements that currently appear critical to one or 
more new energy-related technologies. A shortage of these elements 
would significantly inhibit large-scale deployment, which could 
otherwise be capable of transforming the way we produce, transmit, 
store, or conserve energy. The report addresses elements that have not 
been widely extracted, traded, or utilized in the past, and are 
therefore not the focus of well-established and relatively stable 
markets. The report discusses a number of constraints on the 
availability of ECEs for the U.S. and world markets:

          (a) Crustal abundance, concentration, and distribution. 
        Whereas exploration benefits from well-tested geological models 
        of ore deposits for the more common metals, such understanding 
        is lacking for many of the less common elements.
          (b) Geopolitical risk. The production of some ECEs is 
        dominated by one or a few countries.
          (c) Risk of joint production. Tellurium and selenium are good 
        examples of ECEs that are produced as byproducts of a more 
        common metal--copper. There is little incentive to increase the 
        production of these byproduct metals, as long as their prices 
        remain low relative to their abundances.
          (d) Environmental and social concerns. As countries that now 
        have lax environmental, safety, health, and social impact 
        standards embrace higher standards, the price and availability 
        of ECEs may be significantly affected.
          (e) Response times in production and utilization. The time 
        period from exploration to production is commonly 5 to 15 years 
        or longer, and there are similarly long timeframes, sometimes 
        decades, for bringing a new technology, such as a new choice of 
        elements for photovoltaics, to market.

    The report identifies five specific areas of potential action by 
the United States to insure the availability of ECEs:

          (1) Federal agency coordination;
          (2) information collection, analysis, and dissemination;
          (3) research, development, and workforce enhancement;
          (4) efficient use of materials; and
          (5) market interventions.

    Recognizing that the Department of Defense is responding to the 
2008 National Academy of Sciences report on Managing Materials for a 
Twenty-first Century Military, the ECE report did not address military/
defense stockpile issues, and apart from helium, which has special 
physical and geological properties, did not recommend stockpiles of 
ECEs for purely economic reasons.
    The bills currently pending in the Senate--S. 383, S.421, and 
S.1113--do an excellent job of addressing many of the recommendations 
made in the ECE report, but some changes, following recommendations in 
the ECE report, could make the legislation even more effective. 
Specifically:

          (1) S.383 and S.1113 have sections covering information 
        collection, analysis, and dissemination. The ECE report, as 
        well as a 2008 National Academy of Sciences report on Minerals, 
        Critical Minerals, and the U.S. Economy, recommended that the 
        USGS (or whatever agency is given the primary responsibility 
        for mineral-resource data collection and analysis) be given 
        more authority and elevated to a ``Principal Statistical 
        Agency,'' as is the Energy Information Administration in the 
        Department of Energy. This designation could be added to S.1113 
        (Sec. 103-Resource Assessment or Sec. 107-Analysis and 
        Forecasting) or S.383 (Sec. 3).
          (2) All the bills establish research and development 
        programs, and S.383 and S.1113 address workforce issues. 
        However, the ECE report recommended a somewhat broader research 
        spectrum than the bills that have been introduced. In our view,

          the Federal government should establish an R&D effort focused 
        on ECEs and possible substitutes that can enhance vital aspects 
        of the supply chain, including geological deposit modeling, 
        mineral extraction and processing, material characterization 
        and substitution, utilization, manufacturing, recycling, and 
        life-cycle analysis.

          (3) S.383 and S.1113 include sections dealing with research 
        on efficient use of materials (recycling, substitutions, etc.). 
        The ECE report included an additional recommendation regarding 
        recycling:

          Steps should be taken to improve rates of postconsumer 
        collection of industrial and consumer products containing ECEs, 
        beginning with an examination of the numerous methods explored 
        and implemented in various states and countries.''

    S.1113 appropriately recognizes the value of having the USGS and 
DOE work with State geological surveys on resource assessments (Sec. 
103). The State geological surveys often have critical-mineral data, 
geological samples available for research, and expertise that are not 
easily accessible to the USGS. For example, Peter Scholle, the New 
Mexico State Geologist, and Virginia McLemore, economic geologist on 
their staff, informed me about New Mexico's data on rare earth 
elements, tellurium, beryllium, and other resources, and Robert 
Swenson, the Alaska State Geologist, noted that their efforts have made 
new information about Alaskan resources, including platinum-group 
elements, readily available for follow-up by industry. In Nevada, 
currently the U.S.'s only lithium producer, our State geological survey 
houses considerable information on the geologic framework for lithium 
deposits. At the University of Nevada's Mackay School of Earth Sciences 
and Engineering, in a joint project with the USGS, we are using samples 
from the Mackay-Stanford Ore Deposits Collection to begin to understand 
the distribution of tellurium and selenium in both domestic and 
international copper deposits. The coastal Atlantic States, from 
Florida to Maine, have data on offshore and near-shore resources of 
heavy mineral sands, which need to be included as long-term resources 
for rare earth elements, titanium, zirconium, and other potentially 
critical minerals.
    It would be appropriate for Section 104 of S.1113, which deals with 
permitting issues, to specifically identify State regulators as 
stakeholders with whom the Federal Critical Minerals Working Group 
should consult. In many states, including Nevada, State and Federal 
regulators try to work together to speed up the permitting process, but 
the slowness of permitting, particularly on Federally managed lands, 
continues to be a major deterrent for domestic exploration and 
production.
    Section 102 (Policy) of S.1113 encourages ``Federal agencies to 
facilitate the availability, development, and environmentally 
responsible production of domestic resources to meet national critical 
minerals needs.'' This wording is consistent with the June 2011 
statement by the Society for Mining, Metallurgy, and Exploration 
concerning rare earth elements:

          It is critical to establish a domestic rare earths minerals 
        production industry to help secure the Nation's clean energy 
        future, reduce the U.S. vulnerability to material shortages 
        related to national defense, and to maintain our global 
        technical and economic competitiveness. Given that the Chinese 
        dominance of the rare earths market has adversely impacted 
        supply stability and endangers the United States and its 
        allies' assured access to key materials, rare earths should 
        qualify as materials either strategic or critical to national 
        security. Further, the U.S. government should facilitate the 
        reintroduction of a globally competitive rare earth industry in 
        the U.S.

    It is important to emphasize the globally competitive phrase, 
because the U.S. industries must be economically viable in the global 
economy. For some mineral commodities, the U.S. may not have sufficient 
resources that are of high enough grade or large enough to be 
competitive in today's market. S.383 (Sec. 3) and S.1113 (Sec. 107 and 
109) emphasize analyzing U.S. known and undiscovered, potential 
supplies in context with global supplies. The policy section (Sec. 6) 
of S.383 appropriately uses the term economically sound in its emphasis 
on domestic supplies: ``promote and encourage private enterprise in the 
development of economically sound and stable domestic critical minerals 
and materials supply chains.''
    Section 303 (Authorization of Appropriations) of S.1113 authorizes 
levels that are, in my opinion, too low for the tasks assigned in 
Sections 103 (Resource Assessment), 106 (R&D), and 107 (Analysis and 
Forecasting). Sections 103 and 107 fall within the charge of the USGS's 
Mineral Resources Program. Given the number of chemical elements that 
are likely to be considered critical, including those identified in the 
ECE report, the USGS's Mineral Resources Program would probably need at 
least twice the amount of funding allocated for Section 103 ($40 
million rather than $20 million). In addition, the funding for R&D 
seems low by a factor of five ($7.5 million per year rather than $1.5 
million per year for the five-year period). These issues could be 
addressed by reprogramming resources within the USGS and DOE.
    Thank you, again, for this opportunity to comment on the importance 
of your work in addressing the national issues regarding critical 
minerals.

    Senator Cantwell. Thank you, Dr. Price, for your testimony 
and for being specific about each of the pieces of legislation 
before us. We'll get a chance to ask you questions in a few 
minutes.
    Mr. Erceg, thank you.

 STATEMENT OF LUKA ERCEG, PRESIDENT AND CEO, SIMBOL MATERIALS, 
                         PLEASANTON, CA

    Mr. Erceg. Yes, Senator.
    Senator Cantwell. OK. Thank you very much for being here. 
Go ahead with your testimony.
    Mr. Erceg. Good afternoon. My name is Luka Erceg. I am 
President and CEO of Simbol Materials. I'd like to thank you 
for the opportunity to testify today regarding the important 
legislation before this committee. Simbol supports these 3 
bills and we believe that they will drive innovation, job 
creation and American competitiveness in the global economy.
    Simbol is today commercializing an innovative and 
sustainable process to produce lithium, manganese and zinc 
domestically and currently operates a demonstration plant co-
producing these critical materials from the affluent brines of 
geothermal power plants. We're currently permitting our first 
commercial facility and when complete we will be the only U.S. 
producer of manganese and electrolytic manganese metal, also 
known as EMM.
    Second, we will double the U.S. lithium production by the 
end of 2012.
    We firmly believe the U.S. Government can drive investment 
by establishing a clear definition for critical minerals and 
materials. We believe that lithium and manganese should be 
considered critical due to the lack of U.S. based production.
    Lithium is critical because it is an essential component in 
advanced batteries for electric vehicles and other energy 
storage applications. The U.S. imports upwards of 80 percent of 
its current needs.
    Manganese is critical because the EMM compound is essential 
for producing specialty steels for defense applications and the 
manganese dioxide compound is a key metal also used in electric 
vehicle batteries. However the U.S. is 100 percent reliant on 
foreign sources of manganese ore. 95 percent of the world's EMM 
today is produced in China. None is produced in the United 
States. Despite this reliance only the Defense Logistics Agency 
is classified manganese or EMM as critical materials.
    Now these are not criticisms of any agency. Rather, they 
demonstrate the need for clarity in the definition of critical 
materials across the U.S. Government. We're concerned that the 
current legislative proposals may result in a rear view mirror 
effect through the study and review provisions. As such we 
would ask the Committee to consider a self classifying 
definition that's based upon first, the use of specific 
materials in industries that support strategic or policy 
priorities and secondarily, the level of U.S. production and 
processing. These self classifying definitions would provide 
real time signals to markets and to industry prompting 
investments. Agencies could still focus on materials of 
interest to them without government picking winners or losers.
    Now Federal support for R and D is a powerful driver for 
private investment into critical materials production. We 
firmly support R and D and deployment activities in the 
proposed legislation as it will jump start a supply chain for 
domestic material production. Now Federal R and D support to 
de-risk new technologies when it's coupled with commercial 
sector investments, sends inordinately large market signals 
that encourage follow on investing in areas of policy interest. 
These signals will lead to job creation.
    I'd like to give you an example that in 2009, the 
Department of Energy's Geothermal Technologies Program 
announced a $3 million grant to Simbol to demonstrate our 
processes. Following the grant announcement Simbol raised a 
further $43 million in capital, prior to even receiving the 
first Federal grant dollar. The government's validation of 
Simbol sent a clear signal to the market that stimulated 
commercial investments 12 times the grant itself.
    With this support we grew our work force from 16 to 40. We 
will reach 60 by year end and we'll continue further job 
creation through construction and operations of our facilities 
in the near future. These R and D opportunities create 
opportunities for universities to train the next generation of 
scientists and engineers. Critical, because it is inordinately 
difficult to hire individuals with experience in critical 
minerals and materials processing. It is taking us upwards of 9 
months to find qualified candidates for key positions. The lack 
of a domestic supply chain has resulted in the erosion of our 
talent pool.
    Financing also remains a great barrier to commercialization 
of production of processing facilities. The lack of a Federal 
strategy for the development of material supply chains clouds 
the importance of critical materials creating reluctance in the 
part of investors. Financing new commercial facilities is 
difficult for producers such as ours because it is unlikely 
that we will secure off take agreements to reduce financing 
risk. Investors and lenders require market visibility for our 
products, but many of the end use markets that we would sell 
into are still nascent in the United States such as electric 
vehicles and other clean energy initiatives.
    Existing commercialization programs such as section 1703 
Loan Guarantee or the section 48C Advanced Manufacturing Tax 
Credit did not help as neither contemplated the production of 
critical materials as components for clean energy technologies. 
We would ask that this committee consider strengthening the 
legislative proposals to expand eligibility for component 
material production under existing commercialization programs.
    With that, thank you very much for the opportunity to 
testify here today.
    [The prepared statement of Mr. Erceg follows:]

Prepared Statement of Luka Erceg, President and CEO, Simbol Materials, 
                             Pleasanton, CA

                      On S.383, S.421, and S.1113

    Good afternoon. My name is Luka Erceg, and I am the President and 
CEO of Simbol Materials. Thank you for the opportunity to speak with 
you today regarding the important legislation under consideration by 
this Committee. Simbol supports these three bills, which will drive 
innovation, support job creation, and advance America's competitiveness 
in the global clean energy economy.
    Simbol is commercializing innovative, sustainable processes for the 
domestic production of lithium (Li), manganese (Mn) and zinc (Zn). We 
currently operate a demonstration plant in the Salton Sea region of 
California, where we co-produce minerals from geothermal brines at an 
existing geothermal power plant. Following power production, we 
``borrow'' the brine for about 90 minutes to selectively extract the 
targeted minerals. The brine is then reinjected into the ground. This 
process has a smaller environmental footprint and cost profile than any 
other method for producing these materials.
    We are currently in the permitting process for the construction of 
a full-scale production and processing facility. Upon completion, we 
will be the only U.S. producer of manganese and electrolytic manganese 
metal. We also expect to double U.S. production of lithium by 2012.
    The U.S. government can drive investment by establishing a clear 
definition for ``critical'' minerals and materials.
    By any objective measure, both Li and Mn should be considered 
``critical.'' As is the case with rare earth metals, this designation 
is not due to scarcity in global supply, but rather due to the lack of 
U.S. production.
    Li is an essential component of advanced batteries for electric 
vehicle and grid storage applications. The U.S. is approximately 76% 
import dependent on Li, with most global production from salt flat 
evaporation in South America and growing supply in China. While some 
government studies--including the Department of Energy's (DOE) 2010 
critical materials strategy--have labeled lithium as ``critical,'' 
other assessments have not included it.
    Electrolytic manganese metal (EMM) is a fundamental input for 
specialty steels for defense and commercial applications, and Mn 
dioxide increasingly is emerging as one of the leading metal components 
for electric vehicle battery cathode powders. The U.S. is 100% import 
dependent on foreign sources of manganese ore, as well as electrolytic 
manganese metal--95% of which is produced in China. Signaling U.S. 
concern with foreign production and trade patterns, the U.S. Congress 
three years ago passed anti-dumping legislation penalizing Chinese and 
Australian Mn producers. Despite this, Mn was not included in the DOE's 
strategy, although in April of this year the Defense Logistics Agency 
identified it as one of the Department of Defense's top ten shortfall 
materials.
    These examples are not intended to serve as a criticism of any 
agency, but rather as a demonstration of the need for clarity across 
the U.S. government in defining what makes a material ``critical.''
    The current legislative proposals delegate the activity of defining 
a set of critical materials to specific federal agencies, with an 
opportunity for review and updating. We are concerned that this 
structure will force the government to evaluate a globally competitive 
market through the rearview mirror. Any assessment that follows this 
structure will reflect market conditions as they existed several years 
ago, rather than market conditions today. Instead, a self-classifying 
definition, which could be based on 1) use of specific materials in 
industries that support strategic or policy priorities (e.g. advanced 
batteries, wind turbines and specialty steels) and 2) the level of U.S. 
production and processing, would provide real-time signals to industry. 
Such a definition should apply across the entire federal government. 
This will ensure that the government is not picking winners and losers 
at a given moment in time, but rather structuring programs based on the 
realities of the rapidly changing global marketplace.
    A self-classifying definition would allow market participants to 
quickly determine policy-makers' priorities without waiting potentially 
years for agency review and update. A straightforward, clear definition 
will immediately communicate to the market that designated materials 
are critical to U.S. policy goals. This will rapidly drive private 
investment to strategic federal priorities.
    Federal support for research and development (R&D) is a powerful 
driver of private investment in critical materials.
    We strongly support the proposed legislative programs to develop 
research, development and deployment activities for critical materials. 
These programs will jump-start the development of a domestic supply 
chain for the clean energy, defense and other strategic sectors in the 
face of aggressive policy support for entrenched foreign producers.
    The establishment of a new industry is inherently risky, and it 
requires a concerted effort by both the public and private sectors. We 
believe that federal support for basic research remains essential to 
advancing our country's competitive position in the clean energy 
economy. The Advanced Research Project Agency--Energy (ARPA-E) plays a 
critical role in driving cutting-edge, game-changing technologies. In 
addition, the DOE and other agencies play an important function in 
supporting R&D efforts to develop and demonstrate technologies that 
lower operating costs, allow access to new resources, and improve 
quality and environmental performance.
    Federal R&D support that assists firms in de-risking new 
technologies, when coupled with commercial sector investments, send 
loud signals to the market that encourage follow-on investing in areas 
of policy interest. In the critical materials arena, these federal R&D 
commitments are powerful drivers of private investment, and they 
support the development of a competitive domestic supply chain for 
electric vehicles and materials for defense applications.
    For example, in 2009, DOE's Geothermal Technologies Program (GTP) 
announced its intent to award Simbol a $3 million grant to demonstrate 
its processes for competitive production of lithium, manganese and zinc 
chemicals for energy storage applications. Since being awarded the 
grant, we have grown our workforce from 16 to 40, and we will reach 60 
by year-end. We also have leveraged those federal funds to raise 
approximately $43 million in further capital--the majority of which was 
committed prior to the actual delivery of the first grant dollar, 
strongly demonstrating the investment signal provided by the 
government's technology validation.
    Financing risk remains the greatest barrier to commercialization of 
production and processing facilities.
    While basic R&D support is essential to restoring U.S. leadership 
in mineral production technology, the most significant role for the 
federal government is in helping overcome commercialization risk. This 
Committee has heard a series of testimony in recent weeks and months 
regarding the challenges associated with financing first commercial 
facilities throughout the clean energy sector. This risk is arguably 
even more pronounced for mineral producers like Simbol, which are not 
able to secure offtake agreements to reduce financing risk.
    While Simbol has been highly successful in raising private capital, 
the investment required for a full-scale plant is significant. Private 
investors require a demonstrated market for our product, but the 
reality is that--at least here in the U.S.--we are selling into a 
nascent industry. While growth projections for advanced batteries (and 
associated Li and Mn consumption) are high, investors continue to hold 
back, awaiting the emergence of downstream industry consumption for 
electric vehicles and grid storage. Furthermore, the absence of a 
federal strategy for the development of supply chains to support 
priority policy areas causes confusion in the marketplace regarding the 
importance of critical materials.
    Federal support for commercialization will help us bridge this so-
called ``valley of death.'' In the same way that our GTP grant 
attracted an initial round of private capital, we anticipate that 
federal commercialization assistance would stimulate private investment 
for the full-scale production facility. It is important to note that 
mineral production facilities do not qualify for assistance under 
existing commercialization programs. For example, neither the Section 
1703 loan guarantee program nor the Section 48(c) advanced energy 
manufacturing tax credit reaches sufficiently far back in the supply 
chain to support mineral production or processing activities. The 
current legislative proposals would be strengthened by adding 
provisions to expand eligibility.
    Building a domestic supply chain for critical materials will spur 
domestic manufacturing and innovation throughout the clean energy 
sector.
    The development of a domestic supply chain for critical materials 
will reduce the risk of supply disruption and mitigate exposure to 
price spikes. (For example, Mn dependence has exposed DoD to price 
spikes of up to 350% over 2003 levels.) However, the greatest benefit 
of developing a domestic supply chain is bolstering our nation's 
competitive position throughout the entire clean energy sector.
    At every point in the supply chain, manufacturing drives 
innovation. As a supply chain lengthens, each step is strengthened 
through industry collaboration--which creates a more competitive 
overall domestic industry. In the case of electric vehicles and grid 
storage applications, critical materials are the cornerstone of the 
supply chain. It is important to realize that production processes to 
convert raw materials to usable products for downstream markets are 
highly technology intensive. At Simbol, we have 8 PhDs and 3 MS degrees 
on staff (representing 25% of our current workforce), all with 
backgrounds in chemical engineering, electrochemistry and chemistry. 
Our scientists and engineers are consistently finding innovative ways 
to improve the quality of materials and to develop the next generation 
of products. This is the case throughout the entire critical materials 
industry, where highly skilled teams are consistently developing and 
improving materials--to the benefit of our nation's clean energy, 
defense, and industrial sectors.
    Domestic innovation in critical materials also will drive workforce 
growth. Because domestic production of these materials largely ended in 
the 1970s, today it is inordinately difficult to hire individuals with 
experience in Mn and Li processing. In fact, it is taking us up to 9 
months to find qualified candidates for key positions at Simbol. Market 
growth in the production and processing of critical materials will lead 
to increased training of students in these fields, and subsequent 
technology advancements through our university system.
Conclusion
    The development of an industry for critical materials production 
and processing is essential to the growth of our domestic clean energy 
economy and our nation's energy security. I appreciate the Committee's 
attention to this important set of issues, and I look forward to your 
questions.

    Senator Cantwell. Thank you very much for your testimony.
    Next is Dr. Duclos. Thank you very much for joining us this 
afternoon.

  STATEMENT OF STEVEN J. DUCLOS, CHIEF SCIENTIST AND MANAGER, 
   MATERIAL SUSTAINABILITY, GE GLOBAL RESEARCH, NISKAYUNA, NY

    Mr. Duclos. Madame Chair Cantwell and Ranking Member Risch, 
and members of the committee, it's a privilege to share with 
you GE's thoughts on how we manage shortages of materials 
critical to our manufacturing and what steps the government can 
take to help industry minimize the risk associated with these 
shortages. This hearing addresses an issue that is critical to 
the future well being of U.S. manufacturing for large and small 
businesses alike. Without development of new supplies and 
focused research in materials and manufacturing such supply 
challenges could undermine efforts to meet the Nation's future 
needs in energy, health care and transportation.
    I'll focus on my remarks today on GE's critical mineral and 
materials strategy and outline recommendations for how the 
government can strengthen its support of industry in this area. 
The materials in GE's products are comprised of 70 of the first 
83 elements in the periodic table. Thousands of GE 
manufacturing jobs are associated with products incorporating 
rare Earth elements including energy efficient fluorescent 
lighting, permanent magnets in wind turbines, compressor motors 
for oil and gas, medical imaging equipment and encodings for 
aviation engines and electrical generating gas turbines. As 
Chief Scientist and Manager of Materials Sustainability of GE 
Global Research, it's my job to understand the latest trends in 
materials and to work with our businesses to manage our 
material needs in a sustainable way.
    To evaluate risk associated with materials shortages GE 
uses a modification of the assessment tool developed by the 
National Research Council in 2008. Risks are quantified by 
element in 2 categories, price and supply risk and impact of 
restricted supply to GE. These elements--those elements deemed 
to have a high risk in both categories are identified as 
materials needing further study and a detailed plan to mitigate 
supply risks. For this analysis we use in house knowledge as 
well as data from the U.S. Geological Survey.
    There is a broad spectrum of solutions that can be 
implemented to minimize the risk of those elements identified 
as being at high risk. Those include No. 1, improvements in the 
global supply chain including the development of alternate 
sources and mines and for manufacturer's long term agreements 
in development of strategic inventory of materials.
    No. 2, improvements in material utilization in 
manufacturing and reduction of manufacturing waste.
    No. 3, development of recycling technologies that extract 
at risk elements from both end of life products and 
manufacturing end loss. This includes the design of products 
that are more easily recycled and serviced.
    No. 4, development of materials and systems technology that 
either greatly reduce the use of at risk elements or eliminates 
the need for the element all together.
    Several examples of these are discussed in my written 
testimony where GE has successfully taken this approach. These 
include the replacement of helium with boron in neutron 
detectors. The reduction by a factor of 2 of the Rhenium 
content is super alloys for our jet engines, a development that 
leveraged past research programs supported by DARPA, the Air 
Force, Navy and NASA.
    Finally No. 5, reassessment of the entire system. Often 
more than one technology can address a customer's need. Each 
will use a different subset of the Periodic Table. An example 
is the development of energy efficient LED lighting 
technologies as supported by the Department of Energy that 
offer a 70 times reduction in the use of rare Earth elements 
for lighting.
    Attention needs to be played--paid to all of these 
mitigation strategies. The shorter term sourcing and 
manufacturing solutions are critical to bide time for the more 
optimal recycling and material substitution solutions that tend 
to be longer term, higher risk and require risk mitigation 
strategies involving parallel paths. The government can help by 
enabling public/private collaboration that provides both 
materials understanding and resources that enable these 
material substitution approaches.
    Anticipated growth in the use of critical materials for 
efficient energy and transportation technologies mandates that 
we develop a comprehensive systems strategy in mitigating risk 
to our domestic manufacturing sector. Accordingly I advocate 3 
aspects within Federal policy regarding critical minerals and 
materials.
    First, enhance our Nation's ability to monitor, assess and 
coordinate a response to identify critical minerals and 
materials issues.
    Second, support innovations in material substitutions and 
manufacturing. Collaborative and precompetitive efforts between 
academia, government laboratories and industry will help ensure 
that manufacturing compatible solutions are available to avert 
disruptions in U.S. manufacturing.
    Third, adopt a comprehensive approach to developing 
mitigation strategies outlined in this testimony: new material 
sources, recycling technologies, manufacturing efficiencies, 
alternate materials and new systems solutions.
    Madame Chair Cantwell and members of the committee, thank 
you. I look forward to answering your questions.
    [The prepared statement of Mr. Duclos follows:]

 Prepared Statement of Steven J. Duclos, Chief Scientist and Manager, 
       Material Sustainability, GE Global Research, Niskayuna, NY

Introduction
    Chairman Cantwell, ranking member Risch, and members of the 
Subcommittee, it is a privilege to share with you General Electric's 
thoughts on how we manage shortages of precious materials and 
commodities critical to our manufacturing operations and what steps the 
Federal government can take to help industry minimize the risks 
associated with these shortages.

Background
    GE is an advanced technology, services, and finance company taking 
on the world's toughest challenges. Operating in more than 100 
countries with more than 300,000 employees, we are driving advanced 
technology and product solutions in key industries such as energy, 
water, transportation, aviation, and healthcare providing a cleaner, 
more sustainable future for our nation and the world.
    At the core of every GE product are the materials that make up that 
product. To put GE's material usage in perspective, we use at least 70 
of the first 83 elements listed in the Periodic Table of Elements. In 
actual dollars, we spend $40 billion annually on materials. 10% of this 
is for the direct purchase of metals and alloys. In the specific case 
of the rare earth elements, GE uses rare earth minerals in the 
production of energy efficient fluorescent lighting, in permanent 
magnets for generators in our most advanced wind turbines, in 
compressor motors for our Oil and Gas business, in our medical imaging 
technologies, and in coatings for aircraft engines and power generation 
turbines.
    Because materials are so fundamental to everything we do as a 
company, we are constantly watching, evaluating, and anticipating 
supply changes with respect to materials that are vital to GE's 
business interests. On the proactive side, we invest a great deal of 
time and resources to develop new materials and processes that help 
reduce our dependence on any given material and increase our 
flexibility in product design choices.
    We have more than 35,000 scientists and engineers working for GE in 
the US and around the globe, with extensive expertise in materials 
development, system design, and manufacturing. As Chief Scientist and 
Manager of Material Sustainability at GE Global Research, it's my job 
to understand the latest trends in materials and to help identify and 
support new R&D projects with our businesses to manage our materials 
needs in a sustainable way.
    Without development of new supplies and more focused research in 
materials and manufacturing, such supply challenges could seriously 
undermine efforts to meet the nation's future needs in energy, 
healthcare, and transportation. GE's strategy to address its materials 
needs could easily serve as a framework for how the Federal government 
can strengthen its support of academia, government, and industry in 
this area.

GE's Evaluation of Material Risks
    The process that GE uses to evaluate the risks associated with 
material shortages is a modification of an assessment tool developed by 
the National Research Council in 2008, and similar to an assessment 
recently completed by the Department of Energy to evaluate critical 
materials for energy technologies. In the GE analysis, risks are 
quantified element by element in two categories: ``Price and Supply 
Risk'', and ``Impact of a Restricted Supply on GE''. Those elements 
deemed to have high risk in both categories are identified as materials 
needing further study and a detailed plan to mitigate supply risks. The 
``Price and Supply Risk'' category includes an assessment of demand and 
supply dynamics, price volatility, geopolitics, and co-production. Here 
we extensively use data from the US Geological Survey's Minerals 
Information Team, as well as in-house knowledge of supply dynamics and 
current and future uses of the element. The ``Impact to GE'' category 
includes an assessment of our volume of usage compared to the world 
supply, criticality to products, and impact on revenue of products 
containing the element. We continue to work with researchers at Yale 
University who are developing a more rigorous methodology for assessing 
the criticality of metals.

Minimization of Material Risks
    Once an element is identified as high risk, a comprehensive 
strategy is developed to reduce this risk. Such a strategy can include 
improvements in the supply chain, improvements in manufacturing 
efficiency, as well as research and development into new materials and 
recycling opportunities. Often, a combination of several of these may 
need to be implemented.
    Improvements in the global supply chain can involve the development 
of alternate sources, including the support of new mines. Manufacturers 
can also develop long-term supply agreements that allow suppliers a 
better understanding of our future needs. In addition, for elements 
that are environmentally stable, we can inventory materials in order to 
mitigate shortterm supply issues.
    Improvements in manufacturing technologies can also be developed. 
In many cases where a manufacturing process was designed during a time 
when the availability of a raw material was not a concern, alternate 
processes can be developed and implemented that greatly improve its 
material utilization. An example of this is the development of near-
net-shape manufacturing technologies that produce parts and products by 
maximizing material utilization.
    Another solution is the recycling of end-of-life products and 
optimizing product design to enable such recycling. In addition, 
development of recycling technology for the re-use of manufacturing 
scrap can generate an important source of raw materials. Currently, 
commodity elements such as Aluminum and Copper are extensively 
recycled--extending this to critical materials can generate an 
important source of these raw materials.
    An optimal solution is to develop technology that either greatly 
reduces the use of the at-risk element or eliminates the need for the 
element altogether. While there are cases where the properties imparted 
by the element are uniquely suitable to a particular application, I can 
cite many examples where GE has been able to invent alternate 
materials, or use already existing alternate materials to greatly 
minimize our risk. At times this may require a redesign of the system 
utilizing the material to compensate for the modified properties of the 
substitute material. Let's look at a few illustrative recent examples.
    The first involves Helium-3, a gaseous isotope of Helium used by GE 
Energy's Reuter Stokes business in building neutron sensors for 
detecting special nuclear materials at the nation's ports and borders. 
The supply of Helium-3 has been diminishing since 2001 due to a 
simultaneous increase in need for neutron detection for security, and 
reduced availability as Helium-3 production has dwindled. GE addressed 
this problem in two ways. The first was to develop the capability to 
recover, purify and reuse the Helium-3 from detectors removed from 
decommissioned equipment. The second was the accelerated development of 
Boron-10 based detectors that eliminate the need for Helium-3 in 
Radiation Portal Monitors. GE recently completed construction of a 
facility in Twinsburg, Ohio to manufacture Boron-10 neutron detection 
modules for use in Radiation Portal Monitors and other neutron 
detection systems.
    A second example involves Rhenium, an element used at several 
percent in super alloys for high efficiency aircraft engines and 
electricity generating turbines. Faced with a six-fold price increase 
during a three-year stretch from 2005 to 2008 and concerns that its 
supply would limit our ability to produce our engines, GE embarked on 
multi-year research programs to develop the capability of recycling 
manufacturing scrap and end-of-life components. A significant materials 
development effort was also undertaken to develop and certify new 
alloys that require only onehalf the amount of Rhenium, as well as no 
Rhenium at all. This development leveraged past research and 
development programs supported by DARPA, the Air Force, the Navy, and 
NASA.
    The Department of Defense supported qualification of our reduced 
Rhenium engine components for their applications.
    By developing alternate materials, we created greater design 
flexibility that can be critical to overcoming material availability 
constraints. Pursuing this path is not easy and presents significant 
challenges that need to be addressed. Because the materials development 
and certification process takes several years, executing these 
solutions requires forecasting impending problems. For this reason, 
having shorter term sourcing and manufacturing solutions is critical in 
order to ``buy time'' for the longer-term solutions to come to 
fruition. In addition, such material development projects tend to be 
higher risk and require risk mitigation strategies and parallel paths. 
The Federal Government can help by enabling public-private 
collaborations that provide both the materials understanding and the 
resources to attempt higher risk approaches. Both components are 
required to increase our chances of success in minimizing the use of a 
given element.
    Another approach to minimizing the use of an element over the long 
term is to assure that as much life as possible is obtained from the 
parts and systems that contain these materials. Designing in 
serviceability of such parts reduces the need for additional material 
for replacement parts. The basic understanding of life-limiting 
materials degradation mechanisms can be critical to extending the 
useful life of parts, particularly those exposed to extreme conditions. 
It is these parts that tend to be made of the most sophisticated 
materials, often times containing scarce raw materials.
    A complete solution often requires a reassessment of the entire 
system that uses a raw material that is at risk. Often, more than one 
technological approach can address a customer's need. Each of these 
approaches will use a certain subset of the periodic table--and the 
solution to the raw material constraint may involve using a new or 
alternate technology. Efficient lighting systems provide an excellent 
example of this type of approach. Linear fluorescent lamps use several 
rare earth elements. In fact, they are one of the largest consumers of 
Terbium, a rare earth element that along with Dysprosium is also used 
to improve the performance of high-strength permanent magnets. Light 
emitting diodes (LEDs), a new lighting technology whose development is 
being supported by the Department of Energy, uses roughly one-
seventieth the amount of rare earth material per unit of luminosity, 
and no Terbium. Organic light emitting diodes (OLEDs), an even more 
advanced lighting technology, promises to use no rare earth elements at 
all. In order to ``buy time'' for the LED and OLED technologies to 
mature, optimization of rare earth usage in current fluorescent lamps 
should be considered. This example shows how a systems approach can 
minimize the risk of raw materials constraints.
    In addition to high efficiency lighting, GE uses rare earth 
elements in our medical imaging systems and in wind turbine generators. 
Rare earth permanent magnets are a key technology in high power density 
motors. These motors are vital to the nation's vision for the 
electrification of transportation, including automobiles, aircraft, 
locomotives, and large off-road vehicles. The anticipated growth in the 
use of permanent magnets and other rare earth based materials for 
efficient energy technologies mandates that we develop a broad base 
solution to possible raw material shortages. One such solution would be 
the development of permanent magnet materials that use significantly 
less rare earth. GE is currently working on novel magnet processing 
techniques using nano technology that could reduce rare earth 
concentrations in permanent magnets by up to 80% in a project supported 
by the Department of Energy's ARPA-E.

Recommendations
    Based on our past experience I would like to emphasize the 
following aspects that are important to consider when addressing 
material constraints:

          1) Early identification of the issue--technical development 
        of a complete solution can be hampered by not having the time 
        required to develop some of the longer term solutions.
          2) Material understanding is critical--with a focus on those 
        elements identified as being at risk, the understanding of 
        materials and chemical sciences enable acceleration of the most 
        complete solutions around substitution and reuse/recycling. 
        Focused research on viable approaches to substitution and usage 
        minimization greatly increases the suite of options from which 
        solutions can be selected.
          3) Each element is different and some problems are easier to 
        solve than others--typically a unique solution will be needed 
        for each element and each use of that element. While basic 
        understanding provides a foundation from which solutions can be 
        developed, it is important that each solution be compatible 
        with real life manufacturing and system design. A specific 
        elemental restriction can be easier to solve if it involves few 
        applications and has a greater flexibility of supply. Future 
        raw materials issues will likely have increased complexity as 
        they become based on global shortages of minerals that are more 
        broadly used throughout society.

    Given increasing challenges around the sustainability of materials, 
it will be critical for the Federal government to strengthen its 
support of efforts to minimize the risks and issues associated with 
material shortages. Based on the discussion above, we make the 
following recommendations for the Federal government:

          1) Given the need for early identification of future issues, 
        we recommend that the government enhance its ability to monitor 
        and assess industrial materials supply, both short term and 
        long term, as well as coordinate a response to identified 
        issues. Collaborative efforts between academia, government 
        laboratories, and industry will help ensure that manufacturing 
        compatible solutions are available to industry in time to avert 
        disruptions in US manufacturing.
          2) Federal government support of materials, manufacturing, 
        and systems research will be critical to laying the foundation 
        upon which solutions are developed when risks to supplies of 
        critical minerals and materials are identified. These complex 
        problems will require collaborative involvement of academic and 
        government laboratories with direct involvement of industry to 
        ensure solutions are manufacturable. This includes educational 
        and workforce development that will be critical to building 
        industry's capability in these areas.
          3) With global economic growth resulting in increased 
        pressure on material stocks, along with increased complexity of 
        the needed resolutions, it is imperative that comprehensive 
        action be taken on the solutions discussed in this testimony: 
        developing new materials sources, manufacturing efficiency, 
        recycling technologies, development of alternate materials, and 
        new systems solutions. This will require investment in long-
        term and precompetitive research and development--and the 
        Federal government's support of these will be of increasing 
        criticality as the demand for raw materials grows globally.

Comments on S.383, S.421, and S.1113
    GE believes legislation on the critical materials issue needs to be 
comprehensive, and cover the source, manufacturing, recycling, and R&D 
solutions discussed above. S.383 and S.1113 offer the most 
comprehensive legislation to assess critical material needs, to 
reinvigorate the domestic mining supply chain, manufacturing, and 
research and development to mitigate risks arising from insufficient or 
uncertain sources of supply. It is also critical to bolster education 
within the mining, separations, engineering, and manufacturing 
workforce. GE believes it is critical to emphasize long-term 
innovation, as opposed to short-term stockpiling, in the critical 
materials policy and strategy.

Conclusion
    In closing, we believe that a comprehensive approach and sustained 
level of investment from the Federal government in materials science 
and manufacturing technologies is required to accelerate new material 
breakthroughs that provide businesses with more flexibility and make us 
less vulnerable to material shortages. Chairman Cantwell and members of 
the subcommittee, thank you for your time and the opportunity to 
provide our comments and recommendations.

    Senator Cantwell. Thank you, Dr. Duclos. Thank you very 
much for your testimony.
    Mr. Caffarey, thank you for being here as well. After you 
finish then we'll go to questions. Thank you very much for your 
testimony.

 STATEMENT OF MARK CAFFAREY, EXECUTIVE VICE PRESIDENT, UMICORE 
                     USA, INC., RALEIGH, NC

    Mr. Caffarey. Thank you, Madame Chair.
    Madame Chair Cantwell, Ranking Member Risch and members of 
the Committee, my name is Mark Caffarey and I'm Executive Vice 
President of Umicore USA in Raleigh, North Carolina. Thank you 
for the opportunity to testify before you today.
    Umicore is a global materials technology company whose 
annual sales of some $15 billion. Founded over 200 years ago, 
Umicore has a long history in mining and metal smelting. In the 
last 15 years alone we have transformed our operations by 
developing a closed loop business model that provides more than 
50 percent of the metals we transform into materials from our 
own recycling, many of which qualify as critical materials in 
the U.S. and other countries.
    As the world's leading recycler of precious metals in 2010 
alone Umicore recovered approximately $6 and a half billion in 
metal values from discarded, end of life products and 
industrial by-products. Because Umicore knows that in principle 
metals can be infinitely recycled without losing any of their 
properties. A key component of our business strategy is to 
further increase the range of materials we derive from 
recycling.
    The 3 bills before the committee today all call upon the 
Department of Energy to launch programs in the recycling of 
critical materials. Because we at Umicore believe the recycling 
of products containing critical materials is a central strategy 
to securing access to those materials for the U.S., we support 
these efforts and the focus in all 3 bills on research and 
development. I will highlight 3 main points in my testimony 
today.
    First, the U.S. likely has the largest cache of critical 
materials in the world. They can and should be recycled to 
assure secure and ready access to the critical materials needed 
for defense and civilian high tech products. Umicore supports 
Federal efforts to achieve this through recycling.
    Second, recovering metals from production scrap and waste 
and from end of life products is much more efficient and needs 
much less energy than production from primary resources. In 
terms of productivity consider that for every ton of ore 
containing the platinum group metals, mining will yield 
approximately 5 grams of PGMs per ton. But by recycling 
automotive catalysts we can harvest 2,000 grams PGMs per ton, 
400 times more.
    Our plant in North Carolina is already reclaiming over 2 
million grams of PGMs from approximately one million recycled 
automobiles every year. Our main recycling refining facility is 
recovering 17 different metals from its varied feed. Aluminum 
recycling achieves 90-95 percent energy savings which is 
certainly something to aim for in critical materials. Recycling 
is by far the more efficient energy way to produce critical 
materials as long as the appropriate process flows are used.
    Third, the economic growth benefits our domestic commitment 
to the recycling of critical materials could be enormous. 
Umicore itself employs 14,400 people worldwide with 1,500 
highly skilled, highly paid employees at our precious metal and 
battery recycling facility. The employment potential of a U.S. 
critical materials recycling industry is significant in terms 
of new job creation and job availability at varying skill 
levels. The 4 stages of the recycling process are: collection, 
dismantling, pre-treatment and refining of the pre-treated 
materials into the final critical materials products which is 
done at Umicore's recycling plants.
    The economic growth potential is enormous. The recycling of 
critical materials is an entire industry. One the U.S. has yet 
to even begin building domestically.
    These 3 bills call upon the Secretary of Energy to develop 
an R and D program that includes recycling. Umicore believes 
that the government support included in these bills is for 
fundamental, pre-competitive research and development of 
critical materials is appropriate and necessary. The bills 
focused on R and D will be especially important in the subset 
of critical materials known as rare Earths. Umicore is now 
performing research on the possibility of recycling rare Earths 
from various sources of end of life materials and evaluating 
the possibility of stepping into funded projects where this can 
be further addressed.
    But proven technologies already exist to recycle many 
critical materials beyond the rare Earth subset. Umicore has 
the technology and expertise to do so. With respect to these 
critical materials it is important for the U.S. to support the 
development of a critical materials recycling industry built 
upon those existing and proven technology.
    Umicore believes that this committee should consider 
provisions to require the Secretary to study and make 
recommendations to the Congress on how to development of such 
an industry could catalyze by demonstration, deployment and 
financing programs in the Department of Energy or other Federal 
agencies in any bill it advances to the Senate floor. Such a 
study would contemplate how Federal policies could support the 
development of private sector infrastructure for each of the 4 
stages in the recycling process. So that the American system 
for recycling critical materials is as robust as it should be. 
Such a study could be a vital first step to achieving the 
significant national security, energy efficiency and economic 
growth benefits previously described.
    Thank you for the opportunity to testify. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Caffarey follows:]

   Prepared Statement of Mark Caffarey, Executive Vice President of 
                     Umicore USA, Inc., Raleigh, NC

    Madam Chairman, Mr. Ranking Member, and Members of the Committee, 
my name is Mark Caffarey, and I am an Executive Vice President at 
Umicore USA. Thank you for the opportunity to testify before you today.
    Umicore is a global materials technology company, with annual sales 
of some $15 billion. We focus on areas where we can best use our 
expertise in materials science, chemistry, metallurgy, and recycling. 
We produce metals-based materials for: rechargeable batteries for 
laptops, mobile phones and electric cars; emission control catalysts 
for passenger cars; photovoltaic systems; and fuel cells. We are also 
the world's leading recycler of precious metals.
    The three bills before the Committee today--S. 383. S. 421, and S. 
1113--all call upon the Department of Energy to launch programs in the 
recycling of critical materials. I am testifying today to offer 
Umicore's support for those programs, because we at Umicore believe the 
recycling of products containing critical materials is a central 
strategy to securing access to critical materials for the United 
States.
    Our belief is not based on theory, but rather on practice--our own 
business experience. Umicore is more than 200 years old, with a history 
in mining and metals smelting. In the last fifteen years we have 
transformed our operations by developing a closed loop business model, 
allowing us to secure from our recycling more than 50% of the metals we 
transform into materials. Among those are three highlighted by DOE as 
critical for clean energy technologies (indium, gallium, tellurium from 
US DOE's Critical Materials Strategy, 2010) as well as Platinum Group 
Metals added to the list of critical materials in other parts of the 
world. In 2010 Umicore recovered approximately $6.5 billion in metals 
value from discarded end-of-life products and industrial by-products. 
Because Umicore knows that, in principle, metals can be infinitely 
recycled without losing any of their properties, a key component of our 
business strategy is to increase even further the range of materials we 
derive from recycling.
    As you consider the legislation before you, we urge to contemplate 
the benefits of recycling in achieving the common objectives of these 
three bills. First and most importantly, these bills all seek to ensure 
that the United States has secure, ready, domestic access to critical 
materials required for defense and civilian hightechnology products. If 
the United States committed itself to meeting its critical materials 
needs in large part through recycling, there is no nation on earth that 
could match American resources. The United States has the largest 
``aboveground'' mines of critical materials in the world, in the sense 
that this country's supply of industrial scrap and end-of-life 
automobiles, electronics, and electronic appliances--whether they are 
in wreckers' yards, land-fills, or Americans' basements and attics--
can't be matched by any other nation. In essence, these ``above-ground 
mines'' make the United States the Saudi Arabia of critical materials. 
A well-developed recycling system could tap these mines for U.S. 
critical materials security without limit.
    Second, recovering metals from production scrap and waste and from 
end-of-life products is much more efficient and needs much less energy 
than production from primary resources. In terms of productivity, 
consider that for every ton of gold-containing ore taken from the 
ground through mining, approximately 5 grams of gold can be recovered. 
Likewise for ore containing platinum group metals that is mined, 
approximately 5 grams of PGM's can be recovered. (Platinum Group Metals 
= Platinum, Palladium, Rhodium, Ruthenium, Osmium, and Iridium) On the 
other hand, for every ton of mobile phones recycled, we can harvest 
300-350 grams of gold, or more than 70 times the yield from mining. And 
for every ton of automobile catalysts recycled, we can harvest 2,000 
grams of PGMs--more than 400 times the yield from mining. Each year in 
Maxton, North Carolina, Umicore Autocatalyst Recycling (UAR) reclaims 
over 2 million grams of PGMs from approximately 1 million recycled 
automobiles. The spent automotive catalyst is de-canned and sampled in 
the North Carolina facility.
    In terms of energy savings, take the production of aluminum, for 
example. Recycling uses only 5-10% of the energy that would be required 
for virgin aluminum production, representing a 90-95% energy savings. 
For the precious metals (i.e. gold, silver and the the platinum group 
metals) and for metals such as cobalt, indium or tellurium, the energy 
savings achieved by state-of-the-art recycling are also significant. An 
exact calculation of energy efficiency per metal is difficult to 
achieve due to the heterogeneous nature of our feed and the numerous 
metals extracted from the Umicore flowsheet. Our initial work indicates 
that the annual production of metals from our recycling/refining 
facility creates in total about 1/5th the CO2 emissions compared to 
producing those same 17 metals via the primary route. Recycling is by 
far the more energy efficient way to produce critical materials--as 
long as the appropriate process chains are used.
    Take an example of these energy efficiency savings from our own 
organization. Umicore Battery Recycling has evaluated its recycling 
process for rechargeable battery materials versus primary production of 
these materials. Umicore's process avoids the mining of virgin 
materials (at high energy cost), requires no additional energy-
consuming processing to achieve quality in the materials because of the 
high purity of the materials in the used batteries, and finishes with a 
highly energy-efficient recycling (smelter) technology. Umicore 
estimates that the energy savings achieved by its battery recycling 
process amounts to 50-70% compared to production from ores (depending 
on the battery composition). Umicore's rechargeable battery recycling 
plant will soon have a capacity for 7,000 tons of rechargeable 
batteries (equivalent to 150,000 automobiles or 250 million mobile 
devices).
    Likewise, Umicore's recycling process for precious metals 
containing industrial byproducts and End of Life materials avoids the 
mining of virgin materials (at high energy cost) and allows the 
recovery of 17 metals in all--two of them from the critical list 
published by DOE: indium and tellurium. The rare earth elements present 
in the automotive catalysts would be extremely difficult to recover due 
to the chemical nature of those catalysts.
    Third, and finally, the economic growth benefits of a domestic 
commitment to the recycling of critical materials could be enormous. 
Umicore itself employs 14,400 people world-wide, with 1500 highly-
skilled, highly paid employees at our largest plant, the precious 
metals and battery recycling plant. The employment potential of a 
robust U.S. critical materials recycling industry is significant, 
involving not only many, many jobs but also jobs of varying skill 
levels at each of four stages of the recycling process: (1) the 
collection of discarded end-of-life products and scrap; (2) the 
dismantling and sorting of products and the separation of components; 
(3) the pre-treatment of the separated components; and (4) the refining 
of the pre-treated materials into the final critical material products, 
which is what we do at our recycling plants. Finally, there is all the 
indirect employment that can be associated with the recycling 
industry--IT, engineering, transportation, sales, administration, as 
well as research at universities and research centers. The economic 
growth potential is enormous, because the recycling of critical 
materials is an entire industry, and the United States has not begun 
yet to build one domestically.
    The three bills before you call upon the Secretary of Energy to 
develop a research and development program that includes recycling. 
Again, Umicore's own experience offers testimony to the wisdom of those 
provisions, having gone from a company obtaining metals from mining to 
one obtaining metals mainly from industrial by-products and end-of-life 
products using highly energy efficient, clean recycling technologies. 
This strategic business decision has resulted in high levels of 
innovation within the company and has stimulated research and 
innovation via collaboration with many university partners and in-house 
R&D centers. So Umicore believes that government support for 
fundamental, precompetitive research and development for critical 
materials--as contemplated in the three bills before you today--is 
appropriate and necessary.
    The focus on research and development in the three bills will be 
especially important in the subset of critical materials known as the 
``rare earths.'' Umicore is now performing research on the possibility 
of recycling rare earths from various sources of end-of-life materials 
and is evaluating the possibility of stepping into funded projects 
where this can be further addressed.
    But we also note that there are existing, proven technologies to 
recycle many critical materials beyond the rare earth subset. So with 
respect to these critical materials, we can focus now on how the nation 
should support the development of a critical-materials recycling 
industry built upon those existing, proven technologies like 
Umicore's..
    To that end, I note that Umicore has provided comments (attached) 
to the Secretary of Energy on the proposed strategic plan for the 
department to the effect that there should be a department-wide effort 
to determine how DoE programs can support the development of such a 
critical materials recycling industry.
    But perhaps this Committee should also consider including in any 
bill it forwards to the floor provisions that require the Secretary to 
study and make recommendations to the Congress on how the development 
of such an industry could be catalyzed by demonstration, deployment, 
and financing programs in the Department of Energy or other federal 
agencies. As noted above, the recycling process includes four critical 
stages: collection, dismantling, pre-treatment, and then refining. Such 
a study would contemplate how federal policies could support the 
development of private-sector infrastructure for each of these stages 
so that the American system for recycling critical materials is as 
robust as it should be. Such a study could be a vital first step to 
achieving the significant national security, energy-efficiency, and 
economic growth benefits described above.
    Thank you for the opportunity to testify before you today, and I 
stand ready to answer any questions you may have.

    Senator Cantwell. Thank you very much, Mr. Caffarey.
    I'm going to start with you because you've just finished 
your testimony here about, you know, the amount of domestic 
resources and recycling. If we considered the above ground 
mines, as you call them, then we are certainly endowed with a 
lot of resource.
    What do you think the barriers are to developing that 
supply chain? Do you think that it's different than, what we're 
doing with aluminum and gold recycling?
    Mr. Caffarey. I believe I've tried to illustrate that the 
whole recycling process has 4 parts to it. So definitely we're 
very weak on the collection side. We're very weak on the pre-
treatment side.
    The last step where we recover the different elements do 
exist. We have systems in place for that already. But to get 
the materials to those different facilities is the weak link in 
the whole recycling process.
    Senator Cantwell. What would you suggest as strategies to 
try to deal with that barrier?
    Mr. Caffarey. I believe that would be a study by the DOE or 
the other Federal agencies to look as to what is the best way 
to get to collect these products and keep them together and 
pre-treat them the right way. Today we do not have the solution 
as we concentrate on the efficient recycling of the different 
end of life products.
    Senator Cantwell. But I'm assuming there's no incentive 
either in many of these recycling markets that have failed to 
materialize so far because the collection is so disperse or no 
one's come up with an economic model to benefit that recycler, 
or because sometimes distance and transportation costs make it 
uneconomical. So do you think that this is about incenting 
recycling?
    Mr. Caffarey. There are different ways to go about it. But 
I think it's also a question of a lack of information. I 
believe the automotive recyclers are well organized. But do 
they know exactly all the different elements that an automobile 
contains?
    We mentioned rare Earth permanent magnets. The automobile 
is a perfect example of containing a wide variety of permanent 
magnets. But who exactly knows where they are or what is the 
best way to collect them before the automotive is--an 
automobile is shredded. Because once it's shredded and goes to 
the steel in the streets the different elements are lost.
    Senator Cantwell. OK. Mr. Duclos, you talked about the 
combination approach, some efficiency, some new materials 
research and recycling. I know that there are global companies 
in my State like Boeing and others who are looking at these 
markets. Which of the approaches do you support looking at, 
when you look at this legislation, you know, reducing as 
someone who is a manufacturer needing this material? What do 
you like in those strategies?
    Mr. Duclos. Yes. It's a--thanks for the question because 
this is really a key part of the challenge. The fact is is that 
the solution will be a mix of these 5 solutions and which one 
in particular is chosen, which set of these solutions is chosen 
depends on the element and it depends on the use of that 
element.
    There may be some cases where material substitution is more 
easily done. In that case that's a fairly clean answer to the 
question, involves doing some research in order to develop 
those material substitutions. But in other cases material 
substitutions may not be at all possible. In those cases you 
would look to the recycling and the manufacturing efficiency to 
make sure that we're being as efficient as possible in the use 
of the material.
    So it's really a mix.
    Senator Cantwell. How important are we in this equation. By 
that I mean, government. We asked the previous panel about an 
assessment of where we are with these various materials. It's 
clear we need to get more information from them.
    Is this something the private sector can handle on its own?
    Mr. Duclos. These challenges before us are great. When we 
face an issue with the material we face having to choose among 
those solutions. The fact is that there can be oftentimes 
parallel paths. The real challenges at the beginning of this 
process to do that, sort of, fundamental, precompetitive 
understanding of materials and what materials, properties, can 
give--what in a product, can help definitely lead to, you know, 
which direction to go. That's where the Federal Government can 
help.
    In addition I think it's really important in terms of 
Federal Government's help in collecting information. You know, 
we will not publicly say, you know, which materials we think 
are critical. However, we would be willing to give that 
information in a proprietary sense.
    We have with the Department of Energy, for example, in 
their assessment. I think that's a really important thing that 
the government can do is collect that information. So we can 
see around corners and anticipate these challenges before they 
happen so that we can implement this series of solutions.
    Senator Cantwell. Thank you.
    Mr. Price and Mr. Erceg, you both talked about this work 
force issue which we heard on the previous panel as part of 
this issue and in the manufacturing area or, you know, getting 
people prepared because we've seen a decline in qualified 
people that is critical for minerals materials. How might we 
encourage people in this particular area? What do you think is 
missing?
    Mr. Price. In the university systems what stimulates 
bringing people into the work force is typically the research 
opportunities that are there to fund the graduate students and 
the post-docs to work in those arenas. Those research 
opportunities, I think, are one of the main ways of taking a 
look at it. In that energy critical elements report we also 
talked about having some centers of excellence in things like 
rare Earth processing, element by element on the most critical 
minerals that we're talking about.
    Those kinds of centers are also a good way of approaching a 
problem. So it would be a combination of research opportunities 
that would help to train the graduate students and post-docs 
and then these centers of excellence.
    Senator Cantwell. Is----
    Mr. Price. I believe the Department of Energy is moving in 
that direction on the processing side of things. It really 
falls more on the shoulders of the USGS on the geological 
aspects.
    Senator Cantwell. Interesting.
    OK, Mr. Erceg?
    Mr. Erceg. Thank you, Senator. I would also add that when, 
you know, through R and D collaborations such as the DOE grant 
programs, ARPA-E's innovation programs. Those are fantastic 
programs that create collaborative opportunities for commercial 
enterprises to work with universities. This has been a key 
function of our grant program as well.
    Once you can go to the universities and say, look, we've 
got this grant opportunity. This is the commercial aspects we 
see. It draws students to them.
    You know, fortunately we've all been students before. It's 
difficult to, you know, look at your career and say, wow, 
there's no career opportunities if I study this. So it's a 
fantastic window to show, you know, our great students and 
science and engineering, you know, a path to commercialization.
    Senator Cantwell. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Madame Chairman.
    Mr. Caffarey, I am interested in the recycling aspects of 
this and is it your testimony that the economics are such that 
the economics aren't an incentive to the industry to recycle 
the products?
    Mr. Caffarey. My testimony--thank you for the question, 
Senator.
    My testimony is to say that there is a mine that's readily 
available and we're not organized to collect the different 
materials because we have processes that can efficiently 
recover critical elements. We have years of experience in 
recovering the precious metals out of catalytic converter. We 
have experience recovering precious metals and other metals out 
of electronic scrap which is a large feed of our process.
    We're looking into how to contribute to the rare Earth 
question now a day with some new R and D in recycling. But I 
believe the question is always how do we get the material 
together.
    Senator Risch. That's the question I was focusing on is the 
financial aspects of it. Because, you know, we Americans are 
really, really motivated when there's a profit involved. I 
don't know how familiar you are with the automobile dismantling 
business.
    But I've got some friends in that business. I've watched it 
done. I'm telling you they take everything out of there that 
they can and separate it out that will make them more money. So 
I'm a little surprised to hear you say that it's not being 
done.
    Mr. Caffarey. I didn't say it's not being done. But maybe 
not everybody has the information. What's not essential when we 
talk about magnets, not everybody knows that it contains rare 
Earth. Maybe there's also a contribution to education, to 
educate the industry, to educate the people that are involved 
today at that level and maybe they will have ideas to, well, 
before we shred it maybe we should be removing this part.
    Then they can also contribute to say, well, you know, it's 
very difficult. Maybe the automotive design should be done to 
make it easier to recover. So then we're also talking about the 
design for recycling to make it easier to be able to recover 
those parts at end of life.
    Senator Risch. That's why I was interested in the economics 
of it. My experience is that the marketplace, if there's 
dollars and cents involved, always figure it out before the 
government does. Not only that, but they figure it out a whole 
lot better.
    That's why I was wondering about the economics of this 
whether or not it's just simply that there isn't enough money 
in it to motivate people to extricate these parts out of an end 
of life product.
    Mr. Caffarey. I can only share the experience that we have 
and for all the materials that we process it's economical.
    Senator Risch. Thank you. Thank you, Madame Chair.
    Senator Cantwell. Senator Udall.
    Senator Udall. Thank you, Madame Chair. Thank you to the 
panel for taking the time. This is fascinating and important 
both.
    Mr. Caffarey, I'd like to turn to you initially. You point 
out that the U.S. has, I think as you put it, the largest above 
ground mines of critical----
    Mr. Caffarey. Correct.
    Senator Udall. Materials. That's an interesting way to 
think of what you're doing. That our landfills make us the 
Saudi Arabia of critical materials. This is interesting.
    In addition, in light of the fact that I think a Chinese 
official has been reported as saying, the Middle East has oil 
and China has rare earths, what can we do and I know you've 
talked a little bit about this up to this point to develop the 
critical materials recycling industry in our country? Would you 
just, if you would, think about what kind of job creation 
potential it might hold.
    Mr. Caffarey. At the 4 different stages of recycling you 
have different levels of skills that are required. If you take 
the collection point, that would be the lowest level, the 
lowest skill level that's required. Then when you're doing the 
final step where the transformation and recovery and recycling, 
that's where you need the highest skill, the metallurgy 
knowledge, the chemistry knowledge, the engineering.
    But then after collection you have the pre-treatment of the 
different materials. As far as trying to give as an example, 
the automotive, we try, not be the best, but there are 
different parts. The mobile phone is also a very complex item 
where you have different elements.
    If you want to recover selenium or tellurium out of the 
telephone you're not going to be doing that just for that. You 
have to have a system in place that allows you to gather the 
mobile phones together and then have a process that will 
recover all the different elements. It's, if you take one metal 
as an individual example that might not justify the whole 
recycling process. But when you put them all together then that 
will justify the process.
    So on the job level I can see definitely a greater number 
of employment opportunities on the collection, people working 
at the different State or even county or city levels and then 
gathering a most efficient stream. The industry has still to be 
created. There are some that are very economical or very 
beneficial and that get cherry picked. We have to have a system 
that can take care of all end of life materials.
    Senator Udall. Did I read recently that tellurium has some 
100 times the value per volume that the similar amount of gold 
would have or am I not remembering correctly where I read that? 
In other words the tellurium is quite valuable given its 
rarity.
    Mr. Caffarey. The tellurium has gained in value, yes. It's 
not at the level of gold yet.
    Senator Udall. OK.
    Mr. Caffarey. But----
    Senator Udall. Somebody was thinking in a wishful manner.
    Mr. Caffarey. I believe so, yes.
    Senator Udall. Let me continue the line of questioning 
directed to you. You said that recovering metals from scrap and 
waste is much more efficient and requires less energy than 
getting them from ore. I think that's the thrust of what you've 
been saying. I find that your example of the platinum group 
metal is amazing that you get 400 times the yield from 
recycling automotive catalysts than yield from mining those 
same platinum group metals.
    As you may know we've had a hearing in this Committee on 
energy efficiency. Do you think that if more companies pursued 
recycling from their material needs that we could reduce, 
significantly perhaps, our manufacturing energy needs in our 
country?
    Mr. Caffarey. Yes, we're convinced of that.
    Senator Udall. You are convinced?
    Mr. Caffarey. We have recently started up at an industrial 
level the recycling of rechargeable batteries. We have done 
life cycle analysis to help us evaluate, well, what is the 
value, what is the contribution. Using the elements that we 
recover from recycling have reduced the need for energy by 70 
percent. So comparing the use of recycled materials verses the 
use of mined materials it requires less and it requires 70 
percent less energy.
    There's also a difference in the total CO<INF>2</INF> 
emissions that is also a factor and that goes together with 
that. So there's less CO<INF>2</INF> emissions when using the 
recycled materials verses using the mined materials.
    Senator Udall. Those are powerful statistics. I know the 
Chairwoman has a keen interest in this as well. It's in part 
why she scheduled this hearing. But there's enormous 
opportunity.
    My time is beginning to expire. But I know we've talked a 
lot about manufacturing in our country and the concerns that we 
have that we're losing our manufacturing base. It strikes me 
that what you've talked about and others on the panel when it 
comes to recycling. It's a form of manufacturing, maybe a form 
of, I don't know what the simple term would be, reverse 
manufacturing or--but, I mean, this offers another way in which 
we can take advantage of all the skill sets that Americans 
have.
    Mr. Caffarey. Definitely.
    Senator Udall. I don't know if you would rebut that way of 
thinking about what you're doing and others are doing, but it 
strikes me that this is a form of manufacturing.
    Mr. Caffarey. Yes. Your raw material is just nothing that 
you get out of the ground. Yes. Above ground mine like you 
mentioned.
    Senator Udall. Yes, there was one keen observer of our 
energy policy who said, if you want to find more oil you ought 
to drill below Detroit. The point that was being made was by 
creating more efficient automobiles and providing that option 
to the American public to buy more efficient automobiles you're 
in fact finding more oil.
    It's a concept, I think, we can apply to a lot of other 
areas in America. As we become more lean, more efficient with 
our use of energy and therefore, I think, more secure.
    Madame Chair, thank you for, again, holding the hearing on 
this very, very important topic.
    Senator Cantwell. Thank you, Senator Udall. Thanks for 
introducing your legislation.
    I just had one follow up. Dr. Price, you talked about 
Centers of Excellence. Are there any centers that exist now and 
where would you see that kind of collaboration? How would that 
manifest itself?
    Mr. Price. As Mr. Sandalow said in his testimony or in 
response, there is a rare Earth element center of excellence at 
Ames, Iowa. That's the only one that I'm aware of that really 
focuses on a specific group of elements. They've been doing 
research for many years on the processing of rare Earth 
elements.
    That stands as an example of what our committee was 
recommending.
    Senator Cantwell. Processing. Processing, meaning?
    Mr. Price. The big problem with rare Earths is that they're 
chemically very similar. To separate them for the individual 
uses, if you want neodymium, you have to separate it from the 
other rare Earth elements. The process for doing that is an 
area fertile for continued research.
    When it gets into the recycling issues, separating then the 
rare Earth from the other materials, if you wanted to separate 
the neodymium from iron, neodymium boron magnets, there's 
research that's needed to do that.
    Senator Cantwell. How do you think we should look at this 
right now in the context of that particular center? The 
challenge that's in front of us? Particularly this, you know, 
relationship between, you know, centers of excellence in my 
mind are a combination with a little government resource of 
academia and the private sector business enterprise working 
together on joint collaborative--on a collaborative approach 
for solutions.
    Given the challenge that we're facing in becoming more 
aggressive, pursuing centers of excellence around particular 
areas of rare Earth minerals? Is Ames enough? What else do we 
need to do?
    Mr. Price. Ames is a good start on the rare Earth side of 
things. They do not, however, focus very much on the geological 
aspects of it. Their part of it is looking at the, more of the, 
downstream processing and supply sides of things.
    NSF has very good models of centers that are competitive in 
a peer reviewed manner. DOE is talking about various hubs of 
excellence and this could easily fall under their approach to 
that problem.
    Senator Cantwell. I'm not sure I'm following you.
    Mr. Price. That by having programs that are peer reviewed 
by the scientific community such that we're getting the very 
best of the research opportunities is generally the best way to 
go with these sorts of centers.
    Senator Cantwell. OK. But again, you mean on this specific 
materials and their usage.
    Mr. Price. Yes.
    Senator Cantwell. Or potential usage.
    Mr. Price. Yes.
    Senator Cantwell. When you said geological earlier, 
obviously the dynamics are changing, they're constantly 
changing. In the Northwest, these are big aerospace 
manufacturer and they consider composites. They consider 
alloys. They consider future materials back and forth. You 
know, these are big decisions.
    So before we go opening up mining all over again, we 
obviously want a lot of expertise on where the future is going 
with these materials. So I would think that if we needed more 
centers of excellence it would be more in that area, less in 
the geological area. So that's what I'm trying to have you help 
me understand your point.
    Mr. Price. Yes. Rare Earth is a great example. There are 
only 2 really big deposits in the world that have been 
contributing a whole lot to the rare Earth supply, one big 
deposit in China and then the Mountain Pass deposit in 
California. There are a number of other rare Earth deposits 
throughout the world none of which have been supplying material 
at the levels that those 2 had.
    There's a lot of opportunity for understanding how to 
extract the rare Earth elements from those different types of 
deposits. They occur in different minerals. The one in 
California and the one in China are both in rare Earth 
fluorocarbonates that have been relatively easy to process. But 
some of the other rare Earth deposits throughout the world are 
in different minerals that have challenges in terms of 
extraction.
    The fact that there are so few deposits really is a fertile 
area for the geological aspects. We can easily ask the question 
why aren't we finding more? There may well be other rare Earth 
deposits that are out there that need to be looked at 
seriously.
    The USGS did its assessment. It was sort of off from the 
basic literature that's out there. They looked at what the rare 
Earth situation is like in the U.S. But they actually missed a 
number of deposits that we know about that could be the long 
term resources. But they're in some cases, different minerals 
that haven't been looked at all that seriously.
    So it would require then a combination of that sort of 
geological knowledge of what's out there, what some of these 
potential resources may be, then working with the process 
engineers, metallurgists, extract the metallurgists to try to 
figure out how do we best get those rare Earths out of those 
minerals. Then the further downstream aspect certainly the 
recycling part of it is a big piece as well.
    So it's a combination of----
    Senator Cantwell. Thank you. That's helpful.
    So what is an example of someplace where we haven't been 
looking on another rare Earth or I mean another extraction that 
we haven't been looking at?
    Mr. Price. A good example there might be tellurium. Right 
now the world's supply of tellurium is coming primarily from a 
certain way of processing copper ores. We actually don't know 
all that well where all the tellurium is in those copper ores. 
So there's research that's beginning to look into those issues.
    But we do know that certain types of or certain processes 
are extracting the tellurium. It comes, these days, from the 
sulfide ores that are characteristic of the big copper deposits 
in Chile and Peru and Arizona. Utah is another big producer.
    Those copper ores have the tellurium, presumably, in with 
the copper minerals themselves. That's where it's being 
collected today. In Arizona we process a lot of those copper 
minerals today using a different technique that is basically 
getting none of the tellurium.
    So there's a big issue of well, we know there's tellurium 
in those deposits. We're not extracting it. Can we do more to 
understand how to extract it from that process?
    Senator Cantwell. Just for the record, what would we do 
with tellurium? What's its use?
    Mr. Price. The big issue with tellurium these days in this 
energy critical arena has been that it's one of the preferred 
elements used in thin film photovoltaics. Cadmium telluride 
turns out to be one of the best approaches to thin film 
photovoltaics for solar panels.
    Senator Cantwell. This would be a key part of that 
manufacturing process?
    Mr. Price. That's correct.
    Senator Cantwell. Thank you.
    Thank you all. I'm sure we could go on with this expertise 
of the panel. We thank you for your testimony today. I'm sure 
that if members have questions we'll follow up for the record.
    Again, we'll keep consulting with you as we move forward on 
this legislative process. Thank you all very much. The hearing 
is adjourned.
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Response of Jonathan G. Price to Question From Senator Bingaman

    Question 1. The most fundamental question to consider today is how 
we should go about determining exactly which minerals and materials are 
critical? The National Academy of Science recommended a method in their 
2008 study whereby that determination can be made-this seems like a 
good starting point, but can we make a more focused definition of which 
materials are critical for energy technologies? How can we make sure 
that every mineral or material under the sun is not considered to be 
``critical''?
    Answer. The 2011 study on Energy Critical Elements: Securing 
Materials for Emerging Technologies by the American Physical Society's 
Panel on Public Affairs and the Materials Research Society, which is 
available at http://www.aps.org/policy/reports/popa-reports/
loader.cfm?csModule=security/getfile&PageID=236337 , defined the term 
``energy-critical element'' (ECE) as ``a class of chemical elements 
that currently appear critical to one or more new, energy-related 
technologies. A shortage of these elements would significantly inhibit 
large-scale deployment, which could otherwise be capable of 
transforming the way we produce, transmit, store, or conserve energy. 
We reserve the term ECE for chemical elements that have not been widely 
extracted, traded, or utilized in the past and are, therefore, not the 
focus of well-established and relatively stable markets.'' The study 
identifies several elements that we consider ``possible'' ECEs. 
Although our list of ECEs is not exhaustive, and others could 
justifiably be added, this approach is good to follow in setting 
priorities for data collection, analysis, research, development, and 
workforce building by the federal government.
    The 2008 National Academy of Sciences report offered an additional 
approach that can further narrow the list of priority elements. That 
study did not focus on energy technologies; using that approach alone 
could yield a larger number of elements needing study than would result 
from a combined approach that also focused on ECEs.
    The 2011 American Physical Society report did recommend that ``the 
federal government should regularly survey emerging energy technologies 
and the supply chain for elements throughout the periodic table with 
the aim of identifying critical applications, as well as potential 
shortfalls.'' This should help the United States be prepared for 
potential shortfalls in availability. As an example, beryllium, which 
is not currently considered an ECE, but is critical for many defense-
and space-related technologies, in recent years has been produced from 
only one mine in the United States. That mine supplies much of the 
beryllium used throughout the world, such that other countries consider 
beryllium a critical element. Our federal government should be 
evaluating the domestic and global availability of beryllium on a 
regular basis. The U.S. Geological Survey (USGS) produced a fine 
document in 1973, titled United States Mineral Resources (USGS 
Professional Paper 820, 722 pages), which briefly evaluated the 
potential for domestic as well as international supplies of many of the 
elements in the periodic table. An update of that document is long 
overdue. In my opinion, it should be updated at least every ten years, 
with more focus paid to those elements that are considered critical for 
energy technologies, defense, and domestic economic development.

     Responses of Jonathan G. Price to Questions From Senator Coons

    Question 1. As the state geologist of Nevada, one of the most 
resource-rich states in the country, how would you characterize the 
existing state of geological knowledge about critical materials such as 
REE deposits compared to better understood deposit types such as 
porphyry Cu or epithermal Au?
    Answer. Because there have been far fewer scientific studies of 
rare earth element deposits (and many of the other critical minerals) 
than of the types of deposits that host major resources for copper and 
gold, we lack the understanding that is needed to explore for the new 
types of resources that will surely be found in the future. We need 
descriptive studies of known deposits as well as process-oriented 
studies on the geochemistry and mineralogy of the critical elements, so 
that we can predict the occurrence of new types of deposits that 
currently are not recognized in today's mineral-resource assessments. 
There are many examples of how lack of knowledge of new deposit types 
(e.g., Carlin-type gold deposits and Olympic Dam-type iron oxide-
copper-gold deposits) leads to gross underestimation of resource 
potential.
    Question 2. Is geologic mapping adequately supported in the USA to 
allow accurate estimates of resource availability?
    Answer. No. The National Cooperative Geologic Mapping Program (in 
the Department of Interior-USGS budget) is funded well below the level 
that the Senate and House have authorized. The STATEMAP portion of the 
program leverages federal and state dollars, as does the EDMAP portion 
of the program, which supports training of the next generation of 
geologic mappers. These maps are integral to not only resource 
assessment but also to conscientious, environmentally responsible 
development of those resources.
    Question 3. How could state geologists contribute to federal 
efforts to better understand and develop deposits of critical minerals 
and materials?
    Answer. There are several opportunities for state geological 
surveys to work with the federal government in this regard. The USGS 
has four programs that are particularly relevant: (1) the external 
grants portion of the USGS Minerals Program, (2) the National 
Cooperative Geologic Mapping Program, (3) the National Geological and 
Geophysical Data Preservation Program, and (4) Minerals Information. As 
the Department of Energy focuses on specific energy-critical elements, 
there also will be opportunities for DOE to work with state geological 
surveys.
    Because the USGS does not have the breadth of expertise that is 
needed to understand the processes that form the wide variety of ore 
deposits or to assess the potential for new discoveries both 
domestically and internationally, the USGS Minerals Program needs to 
engage the knowledge of experts in state geological surveys, 
universities, and industry in this work. A significant external grants 
program (on the order of 20% of the Minerals Program budget, as is the 
case in the USGS Earthquake Hazards Program) would greatly improve the 
effectiveness of the Minerals Program.
    The National Cooperative Geologic Mapping Program is an excellent 
approach to engaging state geological surveys in providing the 
geological framework necessary for both discovery and development of 
mineral deposits. Geologic maps are needed to determine how the mineral 
deposits within a given area formed, where undiscovered deposits are 
most likely to occur, what environmental consequences there may be to 
development of the deposits, how best to protect groundwater and other 
resources during development, and how to ensure effective reclamation 
and post-mining land use.
    The National Geological and Geophysical Data Preservation Program 
in the USGS got a modest start in response to a 2002 National Academy 
of Sciences study on the need for geoscience data preservation 
(Geoscience Data and Collections--National Resources in Peril). This 
program includes information on how to gain access to samples that are 
curated by state geological surveys. Much more could be done to improve 
the information that the USGS needs for its assessments of domestic 
mineral resources. Many state geological surveys have archives of 
samples and data from drilling of water wells, mineral-exploration 
wells, and energy-exploration wells, all of which are relevant to 
mineral-resource assessments and future development.
    The responsibility of monitoring mineral production in the U.S., in 
the context of worldwide production, was moved to the USGS when the 
U.S. Bureau of Mines was closed in 1996. Although memoranda of 
understanding continue to be signed by state geological surveys and the 
USGS for collaboration on collection of statistics, there is no longer 
funding to assure that the best data are collected by the federal 
government. The U.S. Bureau of Mines formerly had officers stationed in 
major mineral-producing states and foreign countries, but that funding 
disappeared shortly before the responsibility of collecting mineral 
information was given to the USGS.
    The Department of Energy is currently working with state geological 
surveys on building a National Geothermal Data System. The states are 
formatting their geothermal-relevant data in a nationally consistent 
manner. Some of these data sets are also relevant to mineral resources, 
and a similar DOE-state cooperative effort could be undertaken with a 
focus on energy-critical elements. Coordination between the USGS 
Minerals Program, the USGS's National Geological and Geophysical Data 
Preservation Program, and DOE's work is essential to avoid duplication 
of effort. The states are often in a good position to facilitate 
coordination among federal agencies that share interests in maintaining 
high-quality data on mineral and energy resources within the states.
                                 ______
                                 
        Response of Luka Erceg to Question From Senator Bingaman

    Question 1. The most fundamental question to consider today is how 
we should go about determining exactly which minerals and materials are 
critical? The National Academy of Science recommended a method in their 
2008 study whereby that determination can be made-this seems like a 
good starting point, but can we make a more focused definition of which 
materials are critical for energy technologies? How can we make sure 
that every mineral or material under the sun is not considered to be 
``critical''?
    Answer. Mr. Chairman, you have pinpointed the most fundamental 
issue in this debate. The National Academy of Science (NAS) defines 
criticality based on two parameters: importance in use and exposure to 
supply disruption. While we believe that the NAS report is the most 
comprehensive government examination of these issues to date and we 
largely agree with these parameters, we are concerned that they fail to 
sufficiently capture the fundamental importance of U.S. production. 
Building a domestic supply chain for critical materials not only 
alleviates potential supply disruptions, but it also supports domestic 
innovation and job creation.
    As I stated in my testimony, manufacturing drives innovation at 
every point in the supply chain. As a supply chain lengthens, each step 
is strengthened through industry collaboration--which creates a more 
competitive overall domestic industry. In the case of electric vehicles 
and grid storage applications, critical materials are the cornerstone 
of the supply chain. Developing domestic production and processing 
capabilities will not only drive job creation in those industries but 
also will drive innovation and increase competitiveness throughout the 
entire supply chain.
    For this reason, the concept of domestic production should be built 
into the definition of critical materials. To avoid the issue you 
appropriately raise of potentially designating an inordinate number of 
materials as ``critical,'' we should only consider criticality for 
materials that support strategic energy and defense priorities.

        Responses of Luka Erceg to Questions From Senator Udall

    Question 1. In your testimony you mention a ``self-classifying'' 
definition for criticality. Can you explain this more? What does this 
mean and how would it work?
    Answer. The market for critical materials is dynamic and vibrant, 
changing and evolving constantly. Investment decisions are being made 
in real time. While current legislative proposals establish thoughtful 
structures for federal agencies to determine what materials are 
``critical,'' these processes are inherently backward-looking, 
examining a market that existed months or years previously.
    Although these processes are useful, the federal government can 
more directly and quickly drive private investment in priority mineral 
production and processing activities by establishing a clear, self-
classifying definition. By establishing a clear definition that can 
immediately be interpreted by the marketplace, Congress will accelerate 
the development of critical mineral and material resources.
    We recommend a definition that considers two factors: 1) importance 
for strategic energy and defense priorities and 2) degree of U.S. 
import reliance for ore and processed materials.
    Question 2. It looks as though you would include the level of U.S. 
production as criteria for criticality. As you know there are several 
mineral resources that we do not have in the U.S. and we are 100% 
reliant on imports. Does this mean those materials would be deemed 
critical under the self-classification even if they have stable supply 
chains? In other words, would U.S. resources be necessary to keep a 
mineral off the list of critical minerals under the self-classifying 
type of definition?
    Answer. Yes, we believe that if the U.S. is 100% import reliant on 
a mineral and it is used in an area of strategic energy and defense 
priorities, it should be deemed critical.
    We believe that two criteria should be considered in determining 
criticality: 1) importance for strategic energy and defense priorities 
and 2) degree of U.S. import reliance for ore and processed materials.
    This definition recognizes the importance of building a domestic 
supply chain in support of driving domestic innovation and 
competitiveness throughout the electric vehicle and grid storage 
industries.
                                 ______
                                 
     Response of Steven J. Duclos to Question From Senator Bingaman

    Question 1. The most fundamental question to consider today is how 
we should go about determining exactly which minerals and materials are 
critical? The National Academy of Science recommended a method in their 
2008 study whereby that determination can be made-this seems like a 
good starting point, but can we make a more focused definition of which 
materials are critical for energy technologies? How can we make sure 
that every mineral or material under the sun is not considered to be 
``critical''?
    Answer. It is important to prioritize the criticality of raw 
materials and the elements contained in those raw materials, in order 
to focus risk mitigation efforts on those materials and elements that 
are most at risk. To this end GE has used a methodology similar to that 
developed by the National Academy of Sciences, which quantitatively 
assesses the ``Supply and Demand Risk'' and the ``Importance to GE''. 
If an element is found to be high on both scales it is considered to be 
``critical'' and in need of a detailed plan for mitigation of supply 
risks. This approach can be modified for a certain area of concern, 
such as ``energy technologies'' by modifying the assessment of the 
second factor to ``Importance to Energy Technologies''. The ``Supply 
and Demand Risk'' factor can be made quantitative by following either 
the Academy of Sciences approach, or with the approach being developed 
by Prof. Thomas Graedel at Yale University, which uses established 
economic and geopolitical indices to evaluate this parameter. As an 
example, the criticality to energy technologies can be quantified by 
the amount of usage in energy technologies and an assessment of the 
criticality of the usage in those technologies. The Department of 
Energy has done such an analysis in late 2010 which determined that 5 
rare earth elements (Y, Dy, Nd, Tb, and Eu) and 1 non-rare earth 
element (In) were critical to renewable energy technologies. This 
number of at risk elements is consistent with the analysis that GE did 
across its business segments. These examples demonstrate that 
methodologies do exist that quantify, prioritize, and reduce the number 
of elements that need further attention.

      Response of Steven J. Duclos to Question From Senator Coons

    Question 1. GE is known for its innovative utilization of rhenium. 
A recent large discovery of molybdenum and rhenium in Australia (Merlin 
zone of Mt. Dore deposit, Queensland) may dramatically change the 
economic and resource picture for rhenium. How does GE stay abreast of 
such geologic developments and how would dramatic changes in rhenium 
availability change your business model?
    Answer. Advancement of materials technology is a key part of 
continued improvement in advanced gas turbine engines for aviation and 
ground-based energy production. Rhenium has been one of the important 
elements in GE achieving progress in engine technology since it is a 
strengthener of nickel-based superalloys. GE recognizes the importance 
of Rhenium, which is why it has been our policy to conserve this 
material. Therefore, GE has continued to seek alternatives for future 
product development and application.
    GE stays abreast of developments in Rhenium in a variety of ways. 
First, we constantly seek information on Rhenium and other materials 
through a variety of publications and outlets. The news of new Rhenium 
discoveries has been quickly publicized, and we are alert to the 
quantity and availability of the newly discovered resources. Second, GE 
attempts to create and maintain relationships with mining, processing, 
and researchers in the materials industry for all materials including 
Rhenium. Third, GE maintains an independent in-house materials research 
organization to identify and assess new materials for our aviation and 
energy products. All of this information is used to help develop our 
strategy on the application of advanced materials to our products.
    Dramatic increases in the availability of Re supply can reduce cost 
and increase design flexibility of some aviation products while 
dramatic decreases in availability could not only raise cost but 
decrease design flexibility of some aviation products. We believe that 
Re is an important element and that we should not consume any more of 
it than absolutely needed. GE has developed alloys with reduced Re and 
no Re that have been used to replace existing products with higher Re 
containing alloys in current applications. In addition, GE reclaims Re 
from chip grindings and recycles Re-containing alloys as a key part of 
our strategy. GE will continue to conduct research on advanced 
materials that require little or no Rhenium to ensure that we have the 
most overall effective solutions to our future advanced engine 
products.
                                 ______
                                 
      Response of Mark Caffarey to Question From Senator Bingaman

    Question 1. The most fundamental question to consider today is how 
we should go about determining exactly which minerals and materials are 
critical? The National Academy of Science recommended a method in their 
2008 study whereby that determination can be made-this seems like a 
good starting point, but can we make a more focused definition of which 
materials are critical for energy technologies? How can we make sure 
that every mineral or material under the sun is not considered to be 
``critical''?
    Answer. There have been a number of studies on what constitutes a 
``critical material'' beginning with the NSF study in 2008 that is 
referenced by Senator Bingaman. Additional work has been done by 
others, including methodology studies and proposals shown in ``Critical 
raw materials for the EU'' \1\published June 2010 by the European 
Commission's Directorate General Enterprise and Industry. While their 
work was directed at the European situation and to non-energy 
materials, it offers another outlook on assessment. Their three 
``indicators'' for criticality were economic importance, supply risk 
and environmental country risk. Included in the assessments are the 
extent to which a material can be substituted and how much of the 
material demand can be met by recycling.
---------------------------------------------------------------------------
    \1\ ``Critical raw materials for the EU'' published June 2010 by 
the European Commission's Directorate General Enterprise and Industry, 
Raw Materials Supply Group. Technical input: Fraunhofer Institute, Bio 
Intelligence. http://ec.europa.eu/enterprise/policies/rawmaterials/ 
documents/index--en.htm
---------------------------------------------------------------------------
    The same general categories of assessment are used in ``Energy 
Critical Elements: Securing Materials for Emerging Technologies''\2\ 
wherein sufficient supply is of utmost importance and demand is still 
to be determined as R&D and markets move forward.
---------------------------------------------------------------------------
    \2\ ``Energy Critical Elements: Securing Materials for Emerging 
Technologies'' published March 2011 by APS (American Physical Society) 
and MRS (Materials Research Society).
---------------------------------------------------------------------------
    From this very brief summary it is clear that most approaches are, 
in principle, similar. And in looking at the findings of the various 
reports mentioned here, whether for energy or non-energy applications, 
there are many overlaps in the materials found to be critical. 
Differences seem to come less from different methodological approaches 
than from different frame conditions/priorities in the country which 
conducted the ssessment. Therefore Umicore cannot recommend any 
specific methodology but proposes to simply start from the good work 
that already is available.
    In any event, the list of critical materials is not a static one 
but one that will change, grow, shrink depending on a number of 
factors. There will be new and evolving technologies to consider. Is 
the material readily available and easily mined? Is it present 
underground but also in urban mines and landfills? Is it a by-product 
of other metal(s) and what is its concentration in that metal? Can it 
be extracted in that case in an economically appropriate way? Are there 
end products containing the material that are being collected and 
recycled? What is the concentration of the material in those end 
products and is it easily extracted?
    The provisions in S.1113 and S.383 for tracking of critical 
materials supply and performing R&D to strengthen supply of those 
materials through recycling and more efficient use are a step in the 
right direction. Supporting the work of DOE and USGS is necessary in 
this context.

       Responses of Mark Caffarey to Questions From Senator Udall

    Question 1. You mentioned that for the last 15 years your company 
has been working on a ``closed loop business'' model, meaning you used 
recycled base materials. What drove your company to pursue this 
business model? What were the biggest incentives and what were the 
biggest obstacles to reaching your goals in this area?
    Answer.
  <bullet> Drivers for Umicore to follow closed loop model:

    --Business driven--Based on our long and deep expertise in 
            metallurgy, chemistry and metal markets/application areas, 
            we knew we could build on key strengths which make us very 
            competitive in the recycling field. In fact, our recycling 
            activities are in a Business Group that is a profit center 
            within Umicore. Umicore has proven that sophisticated 
            recycling technology provides not only ecological 
            advantages but is a profitable business if conducted in the 
            right way.
    --Strategic--In the 1990s Umicore decided to transform itself from 
            a mining and metallurgy company to a materials technology 
            company and in the years since we have achieved that, 
            developing downstream activities into leading global 
            positions (both by internal growth and acquisition). The 
            closed loop approach for us is hence an important way to 
            secure our own raw material supply and get access to the 
            precious and special metals we need to manufacture our 
            products. It shows that vertical integration to secure the 
            supply base cannot only be achieved by investing in mining 
            activities but also in pushing the recycling. Furthermore, 
            the closed loop approach allows us closer relationships 
            with many of our customers to whom we supply our products 
            and for whom we recycle later on, either for return of more 
            product to them or for payment of metal content.

  <bullet> Incentives--The strategic fit in Umicore's sustainability 
        objectives and the business opportunities.
  <bullet> Obstacles--Transforming a traditional mining company into a 
        sustainability focused material technologies company is not an 
        easy move and is not achieved overnight.

    Internally it means adapting operational and functional structures 
and adjusting the mindsets of our workforce. Externally we are often 
confronted with difficult conditions in the recycling business, meaning 
that not all companies/countries are able to compete equally. Issues in 
this context are illegal exports of end-of-life materials, 
(environmentally) substandard treatment processes at some market 
participants, possible preferential treatment of imports and exports in 
some places and often poor general transparency in recycling markets.
    Question 2. You mentioned in your testimony that there are 4 major 
steps in the recycling process: collection, dismantling, pretreatment 
and refinement. I have been told steps 1 and 2 occur more in the 
European Union than here in the United States. If this is the case, how 
was that capability built up? How do collection and dismantling in the 
EU?
    Answer. Steps 1-3 (collection, dismantling, pretreatment) occur 
both in the United States and in Europe. Europe, however, has developed 
regulations that have lead to higher volumes of electronic scrap, 
automotive catalysts and batteries being collected than is the case in 
the U.S. This comes from legislative direction on targeted volumes for 
collection and recycling. One example is the EU Battery Directive* 
which requires that by 2012, 25% of all batteries sold in the European 
Union must be collected and recycled. That percentage increases to 45% 
by 2016.
---------------------------------------------------------------------------
    * This information has been retained in subcommittee files.
---------------------------------------------------------------------------
    Without collection in significant volumes, steps 2, 3 and 4 in the 
recycling process may not provide an economically viable business.
    By comparison, in North America, the Rechargeable Battery Recycling 
Corporation (a non-profit set up by battery manufacturers and suppliers 
into North America) is the only nationwide collection organization for 
the consumer batteries of all types. A sorting and preparation step 
allows the organization to direct the different battery chemistries to 
the most effective recycling tool, whether in North America or Europe. 
Even with an extensive network of over 30,000 collection points, RBRC 
collects just over 10% of the batteries sold into this market.
    Typically the first three steps in the recycling process should 
take place in the region where the materials arrive at their end of 
life. Dismantling and pretreatment are usually combined at the same 
facility and can include various combinations of manual and mechanical 
processes. These can differ by materials involved but also by operators 
or regional traditions. There are cases of the scrap being exported to 
countries where less sophisticated dismantling and pretreatment methods 
are used. It is often the case in those circumstances that yield is 
very poor and workers' health and safety are compromised. As long as 
the end-of-life products stay in the recycling chain that can recover 
the most critical materials and recover them most efficiently and with 
the least environmental impact, the value chain is maximized.
    For complex, precious metal bearing materials such as circuit 
boards, automotive catalysts or mobile phones, the refining is driven 
by economics (technical sophistication and economies of scale). Umicore 
is a leading refiner and plays a significant role not only in Europe, 
but globally. The principal recycling chain in Europe for precious 
metals containing products is described in the attached article.\3\ 
Please note that while the basic information in this article continues 
to be accurate, the article was written in 2006 and some of the 
quantities shown have since grown.
---------------------------------------------------------------------------
    \3\ ``Recycling of Electronic Scrap at Umicore's Integrated Metals 
Smelter and Refinery'' Author: Christian Hagelukenken, Umicore. 
Published in ``World of Metallurgy''--ERZMETALL 59 (2006) No. 3
---------------------------------------------------------------------------
    Our precious metals refinery as well as our rechargeable battery 
recycling facility receive feed from all parts of the world, including 
North America, Australia and Asia, in order to achieve economies of 
scale.
    One more example for the current situation in North America: End-
of-life (EOL) automotive catalytic converters are collected by a 
variety of small to medium size companies in cooperation with the local 
scrap yards and automotive dismantling facilities. Despite the high 
content of Platinum Group Metals (PGMs), only 50% are recycled. One 
impediment to a larger percentage is the export of used automobiles to 
markets outside the U.S. and Canada. Others are:

  <bullet> Lack of knowledge that there are valuable metals contained 
        in those catalytic converters (as well as in other parts of the 
        car)
  <bullet> Poor dismantling practices that capture only a portion of 
        the metals-containing parts of the automobile
  <bullet> Separation not done in a way to capture all the value that 
        is present.

    When looking at a way to make the recycling of electronic waste 
most immediately interesting and profitable, it can make sense to focus 
on the quality of recycling and not solely on quantity, For example, 
collection of end-of-life products containing valuable materials 
(examples: laptops and mobile phones) should be actively promoted and 
supported.
    In the U.S. it is a fact that landfilling competes with recycling 
in the electronic waste and battery worlds. If there is no incentive 
for society to recycle their electronics and rechargeable batteries, if 
there is no education to show them (or the collectors) how valuable the 
metals contained can be, if there is no legislation in place that 
compels society to recycle, how can we move to the step of making 
recycling the norm? If nothing else, can we encourage people to put 
electronics inside a plastic bag that can then be put into their 
recycling bin? Then it will be up to the collectors to funnel the 
electronics to dismantlers or to other, specialized, collectors.
    There is another aspect within the recycling chain to consider when 
it comes to availability of critical materials and that is the 
possibility to return the materials themselves to the suppliers that 
use them and have generated the scrap in the first place. Umicore often 
uses this tool for its automotive catalyst recycling, for example.
    And let's move beyond the immediate practicalities to encourage 
companies (and our design and engineering students) to design their 
next generation devices, automobiles, batteries in a way that allows 
easy dismantling and access to those parts containing critical 
materials. It will make recycling that much simpler and the economics 
of collection that much more attractive.

 Senator Risch--Additional information in response to Senator Risch's 
        verbal question following oral testimony on june 9, 2011

    The market failure in the system that could produce high-value 
recycled materials is very much like a chicken-and-egg problem--which 
comes first, the chicken or the egg? The problem is most acute with 
respect to end-of-life goods--electronics and small devices--held by 
American households.
    First, the chicken. We do not have an infrastructure in place to 
collect a significant volume of household end-of-life goods; there is 
no easy, convenient way for most Americans to dispose of those goods 
for recycling. Where electronic waste recycling does occur in the U.S., 
it's mainly by varying local mandates, or voluntary collection drives, 
producing a hodge-podge, fragmented, low-volume approach. As a result, 
almost all Americans store their end-of-life electronics--like old 
personal computers--in their basements or attics, and they end up 
simply throwing in the garbage end-of-life small devices--like cell 
phones and mobile phones. The same is true for rechargeable batteries. 
Consequently, these goods are not collected in central locations where 
a market player could purchase them for recycling. They are instead 
landfilled, with environmental ramifications and loss of valuable 
critical materials that could have remained in the supply chain.
    Second, the egg. We also do not have in the United States the 
plants that use best available technology to process end-of-life goods 
through the full recycling chain, to achieve the end result of new 
materials from the discarded goods. Without these plants, there are few 
market purchasers for end-of-life goods that could drive the systematic 
collection of such goods.
    So which comes first, the chicken or the egg? Actually, the 
question is better framed as, ``How do we get both the chicken and the 
egg in the United States?'' Let's look at the European Union for one 
possible answer.
    We know that in Europe there are plants operating today that use 
best available technology to process end-of-life goods for recycling 
and produce new materials from the discarded goods. We also know that 
the raw materials for their process--the endof-life goods--are 
collected systematically and are available to these plants to purchase 
for their recycling processes. There are discussions going on in Europe 
to set separate collection targets for those products that contain the 
most valuable critical materials, to be certain those come into the 
recycling cycle.
    The market works in these regions because the end-of-life goods are 
collected in significant volumes and within those volumes, higher value 
recyclables are targeted specifically as well. The end-of-life goods 
are then available for purchase and become the feedstock for these 
recycling process plants.
    These facts from Europe would suggest that (1) we can replicate 
these recycling process plants in the U.S. (companies like Umicore 
could be interested in opening new plants) if (2) we encourage the 
systematic collection of end-of-life goods in the U.S. to be among the 
raw materials for these plants. Finding a way to jumpstart an 
infrastructure to collect end-of-life goods in the U.S. could be the 
key to unleashing the market dynamic that would create a supply of raw 
materials that would in turn lure recycling plants to the country. 
Thereafter, the market would likely grow significantly on its own.
    We will be pleased to answer any additional questions that may 
arise after reading these responses.
                                 ______
                                 
     Responses of David Sandalow to Questions From Senator Bingaman

    Question 1. The most fundamental question to consider today is how 
we should go about determining exactly which minerals and materials are 
critical? The National Academy of Science recommended a method in their 
2008 study whereby that determination can be made--this seems like a 
good starting point, but can we make a more focused definition of which 
materials are critical for energy technologies? How can we make sure 
that every mineral or material under the sun is not considered to be 
``critical''?
    Answer. As part of the DOE Critical Materials Strategy, DOE 
assessed the criticality of various materials used in four clean energy 
technologies (electric drive vehicles, wind turbines, solar 
photovoltaic cells and fluorescent lighting phosphors). In conducting 
the criticality assessment, DOE adapted the National Academy of 
Sciences (NAS) methodology cited above, which uses two assessment 
dimensions. To address critical materials in clean energy technologies, 
DOE slightly modified NAS's ``Supply Risk'' dimension and replaced 
NAS's ``Impact of Supply Disruption'' dimension with ``Importance to 
Clean Energy''. Assessment scores for each dimension were based on a 
combination of qualitative and quantitative analyses.
    DOE's assessment considered nine rare earth elements and five other 
elements used in clean energy technologies. In the short term, only six 
of the fourteen elements assessed were deemed as critical (dysprosium, 
europium, indium, terbium, neodymium, and yttrium) for clean energy 
technologies. The detailed assessment criteria and scores are given in 
Chapter 8 and Appendix A the DOE Critical Materials Strategy, which is 
available at http://energy.Rovisites/prod/files/piprod/documents/
cms_dec_17_full_web.pdf.
    Question 2. In the hearing, we discussed that there are real global 
market uncertainties surrounding critical mineral supplies--what risks 
would the domestic mining industry face in light of the fact that there 
are more broad global supply chain risks? In other words, how does the 
global uncertainty in the critical materials markets affect the US's 
ability to reconstruct a full domestic supply chain for these minerals 
and materials?
    Answer. Uncertainty in critical materials markets can create 
challenges for U.S. businesses and make it more difficult to 
reconstruct a full domestic supply chain for these materials. There are 
both supply and demand strategies that reduce these difficulties and 
support a robust domestic supply chain. The difficulties are minimized 
when supply chains are globalized (instead of concentrated in single 
countries), substitutes are developed, and materials are used more 
efficiently. Better global markets and open trade policies can also 
play a role in helping to manage risks. Around the world, governments 
are working closely with businesses in their countries to address 
challenges and seize opportunities associated with critical materials 
markets. Recognizing the U.S. government's important role in working 
with U.S. businesses can help strengthen American competitiveness in 
this area and others.

    Responses of David Sandalow to Questions From Senator Murkowski

                  INTERAGENCY COORDINATION ON REPORTS

    In December of last year, the Energy Department published a very 
useful report on its ``Critical Materials Strategy.'' It is my 
understanding that, before the end of this year, the department plans 
to release a new version of this report. As good as that first version 
of the DOE strategy was, I had some concerns that it did not 
demonstrate as much interagency coordination as it could have, and felt 
that some more specific solutions to the problems identified might have 
been helpful. For example, the report explained that the U.S. ranks 
dead last in permit processing, but merely stated that such activities 
were the Interior Department's responsibility.
    Question 1. Can the Department of Energy commit to working in a 
more collaborative way on the next iteration of this Critical Materials 
Strategy, and perhaps publishing the next version jointly and with more 
specific proposals--under legal authorities you already have or need to 
see advanced by Congress--to solve some of the problems we face?
    Answer. DOE is committed to working collaboratively with relevant 
agencies (Commerce, DOD, EPA, Interior, State) and components of the 
Executive Office of the President (OSTP, CEQ, USTR) in generating its 
Critical Materials Strategy. Throughout the preparation of the 2010 
Strategy, DOE provided updates to and sought inputs from other relevant 
agencies both directly and through meetings of the EOP Interagency 
Working Group on Critical Mineral Supply Chains led by the White House 
Office of Science and Technology Policy (OSTP). For this year's updated 
Strategy, DOE envisions a deepened working relationship with relevant 
agencies based on last year's collaboration. The interagency working 
group will provide DOE and other agencies additional opportunities to 
collaborate on a range of topics, including establishing an economy-
wide definition for criticality, identifying and prioritizing materials 
critical to our economy and national security, and identifying 
potential strategies for ameliorating the criticality of these 
materials. Building on close collaboration with USGS last year, DOE 
envisions working closely with USGS as well as DOUBLM this year to 
ensure application of the best available data and information 
pertaining to rare earth mining in DOE's 2011 Critical Materials 
Strategy.
DEADLINES
    Question 2a. S. 1113 contains several deadlines, reporting 
requirements, and other activities that would be conducted pursuant to 
a deadline if the bill is enacted.
    Please review all applicable deadlines contained in S. 1113 and 
provide an assessment of the Department's ability to meet them in a 
timely manner.
    Answer. Section 106 contains a DOE reporting requirement on R&D 
programs for recycling and alternatives. Reports summarizing 
activities, findings and progress are required within 2 years of the 
passage of the act and then every 5 years afterwards. Assuming adequate 
resources, this timeline is reasonable, if it is understood that a 
first report would mainly focus on activities and progress, as R&D may 
take several years to produce findings. Assuming adequate resources, 
the timeline for the report requested in Section 210 is also 
reasonable.
    Question 2b. S. 1113 contains several deadlines, reporting 
requirements, and other activities that would be conducted pursuant to 
a deadline if the bill is enacted.
    If the Department feels it will be unable to meet any of the 
applicable deadlines contained in S. 1113, please provide an 
alternative timeframe that would be more workable from the agency's 
perspective.
    Answer. For the report required in Section 202, detailed findings 
from R&D would likely take longer than 2 years because R&D may take 
several years to produce findings, similar to the R&D described in 
Section 106. Four or five years would be more reasonable.

COST ESTIMATES and EXISTING AUTHORIZATIONS
    Question 3a. S. 1113 contains several authorizations to conduct 
research and development, develop methodologies, and engage in other 
activities not accounted for in existing budgets..
    Please provide an estimate of the time and funds necessary to 
undertake such activities, assuming such provisions were fully 
implemented.
    Answer. R&D programs required by sections 106, 202, 204, 205 and 
206 of S. 1113 could build on R&D conducted by DOE's Office of Energy 
Efficiency and Renewable Energy, as well as other offices within DOE. 
The estimation of time and funds necessary to undertake such activities 
would be determined through budgetary deliberations.
    Question 3b. S. 1113 contains several authorizations to conduct 
research and development, develop methodologies, and engage in other 
activities not accounted for in existing budgets.
    If the department is able to conduct research and development, 
develop methodologies, and engage in any other of the aforementioned 
activities, under existing authorizations, please provide a 
comprehensive list of those authorizations cross-referenced to the 
relevant sections of S. 1113.
    Answer. A number of existing DOE authorities could be read to 
authorize the types of research and development activities listed in S. 
1113. However, none of these provisions expressly calls for the 
activities described in Titles I and II of 5.1113. Much of the specific 
R&D activity in S.1113 is authorized under the Energy Independence and 
Security Act (EISA) of 2007 (Public Law 110-140). Under section 452 of 
EISA, the Department of Energy is authorized to establish a program to 
``support, research, develop, and promote the use of new materials 
processes, technologies, and techniques to optimize energy efficiency 
and the economic competitiveness'' of energy intensive industries. (42 
U.S.C. 17111) Section 452 includes authority for efforts related to 
``flexible sources of feedstock'' and ``recycling, reuse, and improved 
industrial materials''. Section 641 of EISA 2007 authorizes DOE to 
develop advanced storage methods. (42 U.S.C. Sec.  17231). Advanced 
materials for renewable energy are also addressed in section 656 of 
EISA 2007 (42 U.S.C. Sec.  17244). Research into alternative materials 
specifically for vehicle light-weighting applications are authorized 
under section 651 of EISA 2007. (42 U.S.C. Sec.  17241) Additionally, 
other existing statutes could be read to allow the Department to engage 
in research, development, demonstration, commercialization, and 
technical and economic assessment activities for materials considered 
critical to domestic clean energy technology and the domestic clean 
energy industry, specifically 42 U.S.C. sections 5555, 5901 et seq., 
9204, 12001 et seq., 16231, and 16272.
    The authority in the 21st Century Competitiveness Act (Public Law 
110-69), as amended, (codified at 42 U.S.C. Sec.  16538) would allow 
ARPA-E to participate in many of the activities contemplated in S. 1113 
sections 106, 109, 202, 204, 205, 206 and 210.
       Response of David Sandalow to Question From Senator Udall
    Question 1. We heard testimony from General Electric and Umicore on 
how their respective companies use and have developed recycling 
processes for critical materials. What is DOE doing in the area of R&D 
for recycling of critical materials? What is DOE doing in the area of 
post-consumer collection and other logistical challenges to recycling 
of critical materials?
    Answer. The Department of Energy (DOE) has pursued electric vehicle 
battery recycling research for some time. For example, Argonne National 
Laboratory has, for a number of years, done work evaluating the 
potential for recycling of lithium-ion batteries in order to develop 
improved processes and maximize material recovery. DOE has also 
supported some recycling infrastructure. In 2009, the Department 
supported TOXCO to expand their current battery recycling operations in 
Lancaster, Ohio.
    Research into recycling of materials identified as critical in last 
year's Critical Material Strategy is an increasing focus for DOE, with 
the intent of pursuing R&D that has the best potential to contribute to 
an economical supply of critical materials. For example, the proposed 
Critical Materials Hub will pursue separation technologies that can be 
economically applied to both mined ores and recycled product streams.
    While DOE intends to pursue recycling as part of a strategy to 
address material criticality, it is important to keep in mind that 
post-consumer collection and logistics is primarily in the domain of 
other federal and state agencies. Furthermore, there may be 
opportunities to recycle from industrial waste streams.
      Responses of David Sandalow to Questions From Senator Hoeven
    Question 1. Why, in your estimation, has China been able to 
effectively develop its critical minerals program?
    Answer. As part of its RE industrial policy, China has been 
investing in RE R&D since the 1950s. China has two key national 
research programs and four state laboratories on REs that house a total 
of around 3,000 scientists.
    In the early 1990s, China entered the international rare earth 
market and quickly drove down global rare earth prices due to policies 
that encouraged production and exports. China's share of global RE 
production rose rapidly in the 1990s, and oversupply contributed to the 
closure of mines in the United States and other countries by 2001. Some 
experts have pointed to the lack of environmental controls as a factor 
contributing to low cost Chinese production.
    Since the early 2000's, China's policies have moved toward a 
comprehensive industrial policy of directing production, restricting 
exports and encouraging domestic production in downstream RE-consuming 
industries. China has used export restraints and foreign investment 
policies on rare earths to develop domestic downstream manufacturing 
sectors, such as magnet and battery producers, and drive foreign 
manufacturers of high-technology products to relocate to China. Some 
have linked the Chinese government's efforts to enhance domestic 
production of higher value-added RE outputs to employment generation 
and the building of a vertically integrated RE industry. Outside of the 
rare earth industry, China is pursuing similar policies of export 
restraints with respect to indium and other metals and minerals.
    Question 2. If China continues to develop its critical minerals 
program, how long until China has cornered the critical mineral 
development through either low cost production or mineral allocations? 
If they do corner the market, what is the implication for our national 
security?
    Answer. China already dominates the market in certain materials, 
especially rare earth elements and indium. This dominance has been 
achieved through favorable resource endowments of these minerals as 
well as low labor costs, and industrial policies designed to maximize 
market share. With regard to rare earths, for instance, China has been 
the world's leading rare earth producer since 1996, and rapidly grew 
its share of global RE production when it entered the global market 
with high-volume, low-cost minerals in the 1990s. This affected the 
economic viability of deposits elsewhere. As a result of these 
developments, China currently produces more than 95 percent of global 
rare earth elements. Additionally, current economic reserves of indium 
are heavily concentrated in China, which accounts for about 73% of 
global reserves and half of indium refining.
    China's dominance in certain critical material markets has 
implications for U.S. economic, energy, and defense objectives. In 
part, due to tightening export quotas imposed by China on all rare 
earth elements, prices of certain elements have risen by 300-2500% 
between 2009 and 2011. Sustained price increases could limit the 
ability of U.S. manufacturers to procure the material inputs necessary 
for production or, in some cases, impact the price of finished 
components and end products. Additionally, severe supply restrictions 
of critical materials due to tightened quotas could create shortages of 
certain technologies or dependence on foreign suppliers.

       Response of David Sandalow to Question From Senator Coons

    Question 1. How will the proposed innovation hub for critical 
materials differ from ongoing research programs at DOE, USGS, and the 
AMES national lab? Will there be opportunities for collaboration 
between the proposed innovation hub and existing researchers at 
universities and other national labs?
    Answer. The proposed Critical Materials Hub will focus on flexible 
and adaptable materials processing, efficient separation techniques, 
and other novel approaches to reducing dependencies on critical 
materials. For example, the Hub will address industrial processes that 
are sufficiently adaptable to enable adjustment of process outputs to 
the changing economic and demand profiles of input critical materials. 
The understanding gained from these processing improvements will aid in 
optimizing critical materials use in existing components. Also, 
innovations in separations of chemically similar rare earth elements 
could promote increased, sustainable production of critical materials 
by significantly decreasing the time and cost of materials processing 
and reducing the environmental footprint of these processes. The 
Critical Materials Hub will pursue separation technologies that can be 
economically applied to both mined ores and recycled product streams. 
The R&D pursued by the Hub will complement the current DOE critical 
materials R&D portfolio.
    This current DOE R&D portfolio includes work supported by the 
Office of Energy Efficiency and Renewable Energy (EERE) and ARPA-E that 
focuses on technology and product alternatives that reduce or eliminate 
dependence on critical materials. Current activities in EERE are 
centered on reduction or elimination of rare earths in electric drive 
motors, batteries, and magnesium alloys for vehicles. ARPA-E has 
recently issued a solicitation to fund early-stage technology 
alternatives that reduce or eliminate the dependence on rare earth 
materials by developing substitutes in two key areas: electric vehicle 
motors and wind generators. Several current ARPA-E projects also focus 
on new magnet and battery technologies with reduction or elimination of 
rare earth elements as a goal.
    The current DOE R&D portfolio also includes work supported by the 
Basic Energy Sciences (BES) program within DOE's Office of Science to 
elucidate the fundamental properties of lanthanides and actinides, 
including separation science relevant to advanced nuclear fuels. The 
Office of Science also supports work to investigate the atomic basis of 
materials properties and behavior and to improve materials performance, 
with an emphasis on magnetic materials containing rare earth additions.
    The Hub will complement the existing efforts supported by DOE by 
addressing processing and separation challenges at multiple stages of 
the supply chain. The scope of the proposed Hub will be distinct from 
the current work on critical materials at the USGS and the DOE-
supported work at Ames Laboratory. The USGS collects, analyzes, and 
disseminates information on the domestic and international supply of 
and demand for minerals and materials essential to the U.S. economy and 
national security. USGS also provides assessments of undiscovered 
mineral resources in the United States and around the world. The Hub 
will not conduct these types of analyses. Ames Laboratory, which is a 
DOE research facility run by Iowa State University, is a leader in rare 
earth research, with a focus on the synthesis of highest quality 
polycrystals and single crystals, advanced characterization methods, 
and first principles modeling and does not focus on the processing 
challenges the Hub will address.
    Following the model of the existing Energy Innovation Hubs, the 
Critical Materials Hub will be competitively awarded to a self-
assembled team of experts that may include members from academia, 
industry, and the national laboratories. The Hub model will drive these 
scientists and engineers to accelerate solutions to the most pressing 
critical materials problems and promptly transfer the knowledge to 
industrial partners who will be able to incorporate those solutions 
into the market.
                                 ______
                                 
    Responses of Marcilynn Burke to Questions From Senator Bingaman

    Question 1. Presently there is a lack of information on which 
critical minerals are present on public lands and what their present 
value might be. Do you have any estimates of the value of any of these 
minerals? What would you need to do to get an estimate of the present 
value of these mineral deposits?
    Answer. The first step to get a full understanding of potential 
value of mineral resources on public lands is to inventory known 
reserves and resources and then conduct an assessment of undiscovered 
resources. The USGS recently completed an inventory of known principal 
rare-earth-element reserves and resources in the United States. Of 
these, approximately half are located on public lands. The next step is 
to define a list of other critical minerals that are important for the 
country's economic and national security and conduct an inventory of 
those reserves and resources. Once the inventories are complete, and 
proper geologic and grade-tonnage models are constructed for the 
critical minerals in question, then an assessment of undiscovered 
critical mineral resources may be conducted. By combining known 
resources with estimates of undiscovered resources, a more 
comprehensive understanding of resource endowment on public lands can 
be realized. The value of the mineral resources depends on many 
variables, including the cost of exploration and development, as well 
as market prices, all of which can fluctuate greatly during the time 
leading up to development.
    Question 2a. The public gets a royalty for the extraction of other 
minerals, such as oil, gas, and coal mined from federal lands. 
Shouldn't a royalty be paid for critical minerals as well?
    Answer. At this time, the BLM does not have a position with respect 
to royalty collection for strategic minerals. The Administration has 
proposed a gross royalty on some of the most valuable hard rock 
minerals (gold, silver, lead, zinc, copper, uranium, and molybdenum) 
produced from Federal lands by shifting these minerals to a leasing 
system.
    Question 2b. How can we make sure that the American taxpayer gets a 
return on their investment in public lands where these mineral deposits 
are opened to mining?
    Answer. Generally the BLM tries to secure a fair return for the 
American people for the use of their public land resources. However, 
the 1872 Mining Law does not authorize that a royalty be paid for the 
removal of locatable hardrock minerals. In order to ensure a better 
return to the taxpayer, the Administration has proposed a gross royalty 
on some of the most valuable hardrock minerals produced from Federal 
lands by shifting these minerals to a leasing system. This proposal 
does not currently include critical minerals. [Note: Minerals covered 
by the BLM/DOI hardrock legislative proposal are gold, silver, lead, 
zinc, copper, uranium, and molybdenum.]
    Question 3. As you know, the disposition of hardrock minerals on 
public lands is governed by the antiquated Mining Law of 1872, which 
allows miners to locate claims and exclude other uses and mining 
developers. Some believe that these claims can be held for speculative 
purposes. Wouldn't it help ensure that critical minerals are developed 
diligently and in a more orderly fashion if a leasing system were put 
in place?
    Answer. To date, industry has demonstrated little interest in 
developing critical minerals on public lands through the filing of 
notices of exploration and plans of operation. The Administration has 
proposed moving certain hardrock commodities into the existing leasing 
system. Permitting requirements for other Federal, state, and local 
authorizations would remain unchanged.
    Question 4. At present, how many plans have been submitted to the 
BLM that are seeking to open a mine that would extract ``critical 
minerals'' from public lands? These ``critical minerals'' could include 
any of the minerals or elements as identified by the National Academy 
of Science in their ``Minerals, Critical Minerals, and the US Economy'' 
report or the DOE strategic plan on the same topic. If there are none 
pending, can you provide a history of any submitted plans within the 
past 10 years.
    Answer. The BLM has not approved any mining plans of operations for 
critical minerals or rare earth elements during the past 10 years. 
Presently, none are pending; however the BLM expects to receive two 
plans of operations for proposals to commence mining minerals and 
elements from the NAS critical elements list. Both projects are located 
in Nevada.

  <bullet> Lithium--proposed by Western Lithium in Kings Valley, 
        Nevada. The plan of operations is expected to be submitted by 
        third quarter 2011.
  <bullet> Vanadium--proposed mine known as the Gibellini Project, 
        south of Eureka, Nevada. The company is expected to file a plan 
        of operations in 2011.

    Question 5a. Can you describe the process that a potential owner/
operator of a new mine has to go through to open a new mine?
    Answer. The process of mining locatable minerals on public lands 
generally consists of the following steps, as broadly described in 
Geological Survey Scientific Investigations Report 2010-5220:

          1) Proving the deposit (locating a mining claim, exploring 
        the deposit, providing a financial guarantee or bond);
          2) Mining and metallurgical planning (submitting a mining 
        plan of operations to develop the deposit, compliance with the 
        National Environmental Policy Act (NEPA));
          3) Permitting the mine-BLM, other Federal agencies and the 
        State (approval of plan of operations, seeking permits from 
        Corps of Engineers, applying for a mine identification number 
        and obtaining any needed plan approvals from the Mine Safety 
        and Health Administration (MSHA), state and related agencies, 
        providing a bond);
          4) Construction of mine and plant (inspections of mine 
        development, approvals from state for construction plans, 
        periodic bond adequacy review);
          5) Operation (mining, periodic safety and health inspections 
        and monitoring by MSHA and possibly other federal and state 
        regulatory agencies, periodic bond adequacy review);
          6) Reclamation and closure (inspections of reclamation, bond 
        release, closure of mining project in accordance with other 
        federal and state regulatory agencies rules and regulations).

    The steps listed above do not, for purposes of this answer, include 
capital formation and acquisition of project financing.
    Question 5b. How many regulatory programs oversee any given mine 
operation, from concept design to the startup of commercial production-
including all applicable environmental standards?
    Answer. On Federally-owned lands, two regulatory programs-
administered by the Forest Service (FS) (36 CFR 228) and the BLM (43 
CFR 3809)-oversee a given mine operation.
    In addition, mines on Federally-owned lands must also comply with 
all applicable state, Federal, and local permitting requirements. At 
the state level, there are often multiple permitting programs, largely 
focused on air and water quality, ground water protection, mining 
reclamation and mine safety matters. In most states, permitting 
programs to implement Federal environmental laws have been delegated to 
states by the Federal government, such as implementation of the Clean 
Air Act and Clean Water Act. State and local governments in some states 
may establish additional permitting requirements. Gold mines are also 
subject to air toxics regulation under the Clean Air Act.
    Question 5c. Are these different from the regulatory programs that 
have oversight and enforcement authority over the mines during their 
operation?
    Answer. Mining regulators with direct responsibility for oversight 
and enforcement of mines include the Federal land management agencies 
(BLM and FS), the Mine Safety and Health Administration (U.S. 
Department of Labor), and state mine inspectors as well as state mine 
permitting and reclamation agencies.
    These agencies are distinct from the Federal and state agencies 
charged with regulating the various aspects of environmental laws. 
Generally, the environmental regulators are focused on a single 
resource such as air, water, or wildlife.
    Question 5d. Can you describe each of these programs, their intent, 
and at what level of government they reside?
    Answer. These programs are numerous. In 1999, the National Research 
Council provided sample descriptions of these programs in a report 
titled ``Hardrock Mining on Federal Lands.'' The details of these 
descriptions are found in Appendix C of that report, which is copied 
and attached as Attachment 1 to these Questions for the Record.
    The full report is available in Acrobat format from the National 
Academy Press Web site. (http://www.nap.edu/
catalog.php?record_id=9682). The states may have modified, extended, or 
improved their regulatory programs; however, the BLM does not track 
closely this kind of information.
    Question 6a. Is there any report that you are aware of that 
indicates that the US is last in permitting times?
    Answer. The position of ``last in permitting times'' is derived 
from the 2011 edition of an annual report prepared by a mining 
consultancy, the Behre Dolbear Group, called ``Ranking of Countries for 
Mining Investment, Where Not to Invest.'' The report is available on 
the company Web site, www.dolbear.com.
    The same report lists the U.S. as No. 6 among the 25 nations 
evaluated in its favorability toward mining enterprises when taking 
into account six other rating factors in addition to mining delays.
    Question 6b. How does the US permitting regime compare to other 
nations in the approval process and permitting of new mines?
    Answer. The BLM has not conducted any surveys of mine permitting 
times generally. The Behre Dolbear survey gives the United States a one 
out of 10 possible points. The highest score was awarded to Australia, 
which received an eight out of 10 points.
    Question 6c. Is this different for the reopening of old mines?
    Answer. The BLM has done no surveys in this area, and the Behre 
Dolbear survey appears to make no differentiation between new mines and 
mines being reopened.
    Question 7a. What exact role does the BLM play in the actual 
permitting process?
    Answer. For mines on public lands, BLM:

  <bullet> acknowledges Notices for exploration as specified by the 43 
        CFR 3809 regulations;
  <bullet> approves Plans of Operations for mining operations and 
        exploration as specified by the 43 CFR 3809 regulations;
  <bullet> accepts and approves financial guarantees for both Notice-
        and Plan-level activities.

    The BLM's approval of Plans of Operation requires environmental 
analysis under NEPA. Because of this requirement, the BLM generally 
serves as the lead agency for the environmental analysis and many of 
the other Federal and state permitting agencies become cooperators in 
that process.
    Question 7b. Does the BLM issue permits? If not permits, then what?
    Answer. The BLM does not issue permits. The BLM acknowledges notice 
level exploration, approves plans of operations, and approves financial 
guarantees.
    Question 8. The most fundamental question to consider today is how 
we should go about determining exactly which minerals and materials are 
critical? The National Academy of Science recommended a method in their 
2008 study whereby that determination can be made-this seems like a 
good starting point, but can we make a more focused definition of which 
materials are critical for energy technologies? How can we make sure 
that every mineral or material under the sun is not considered to be 
``critical''?
    Answer. The 2008 National Academy of Sciences study was largely 
funded by the USGS and provides a good conceptual framework of how to 
consider the criticality of mineral commodities. With the NAS 
criticality concept as a foundation, the USGS is making progress on a 
more quantitative approach, whereby mineral commodities can be 
quantified in terms of risk of supply. Quantifying importance of use 
must be approached with specific industries in mind and involves an 
analysis of what mineral commodities have important applications in 
each of the energy, defense, transportation, health care, and 
agricultural industries, for example.
    Responses of Marcilynn Burke to Questions From Senator Murkowski

    PRINCIPAL STATISTICAL AGENCY--On April 15th, I released a 
discussion draft of the Critical Minerals Policy Act for comment. In 
reviewing those comments, I was struck by the number advocating for the 
designation of the minerals information offices at USGS as a 
``Principal Statistical Agency.''
    Question 1a. Please describe the logistical, managerial, 
functional, budgetary, and other differences between the current status 
of these offices and how they would be treated if designated as a 
Principal Statistical Agency.
    Answer. In a 1997 Order Providing for the Confidentiality of 
Statistical Information, OMB established ``a uniform policy for the 
principal statistical agencies'' but appears to have used the term 
principal statistical agency informally. The Order lists twelve 
agencies under the heading ``Designated Statistical Agencies or 
Units''. These agencies were determined by OMB to be subject to the 
1997 Order and thus obliged to implement certain policies on 
confidentiality of information (Federal Register, v. 62, No. 124, p. 
35044-35050)\1\. The USGS is not included as one of the twelve agencies 
listed in the 1997 Order.
---------------------------------------------------------------------------
    \1\ Order roviding for the Confidentiality of Statistical 
Information http://www.gpo.gov/fdsys/pkg/FR-1997-06-27/pdf/97-16934.pdf
---------------------------------------------------------------------------
    The Confidentiality Information Protection and Statistical 
Efficiency Act of 2002 (CIPSEA) defines a statistical agency or unit as 
``an agency or organizational unit of the executive branch whose 
activities are predominantly the collection, compilation, processing, 
or analysis of information for statistical purposes''\2\. OMB, which 
coordinates the implementation of CIPSEA, recognized 14 statistical 
organizational units as statistical agencies or units for the purposes 
of CIPSEA in its 2007 guidance on implementing the Act\3\. Neither the 
USGS as a whole, nor any part of USGS, is designated as a statistical 
agency or unit under CIPSEA.
---------------------------------------------------------------------------
    \2\ Confidential Information Protection and Statistical Efficiency 
Act of 2002 P.L. 107-347, title V http://www.gpo.gov/fdsys/pkg/PLAW-
107publ347/pdf/PLAW-107publ347.pdf
    \3\ Implementation Guidance for Title V of the E-Government Act, 
Confidential Information Protection and Statistical Efficiency Act of 
2002 (CIPSEA) http://www.gpo.gov/fdsys/pkg/FR-2007-06-15/pdf/E7-
11542.pdf
---------------------------------------------------------------------------
    The designation of an agency or unit as a statistical agency or 
unit for the purposes of CIPSEA subjects the agency to different 
confidentiality standards. CIPSEA statistical agencies or units must 
implement higher standards to protect data confidentiality than other 
statistical units. This involves increased physical and IT security 
measures, confidentiality training for all personnel, additional record 
keeping, informing respondents about the confidentiality protection and 
use of information, ensuring that information is used only for 
statistical purposes, ensuring that identifiable information is not 
disseminated, and supervising and controlling agents who have access to 
confidential information. CIPSEA does not convey specific authority to 
an agency. Rather, each agency's authority is defined in the statutes 
governing that agency. For example, some CIPSEA statistical agencies 
have mandatory data collection authority. In addition, there are 
differences in how the agencies are funded.
    If a unit within USGS, such as the National Minerals Information 
Center, were to be designated as a statistical unit under the 
provisions of CIPSEA, that unit would have to implement additional IT 
and administrative security measures, increase personnel training, and 
meet additional reporting requirements to comply with the required 
higher confidentiality standards. The confidentiality of data collected 
by the National Minerals Information Center is currently governed by 
subsection (f) of the National Materials and Minerals Policy, Research, 
and Development Act of 1980 (30 U.S.C. 1604(f)).
    Question 1b. Does the Administration support making this 
``Principal Statistical Agency'' designation?
    Answer. The Administration has not yet developed a position on the 
designation of the National Minerals Information Center as a Principal 
Statistical Agency. The Administration is in favor of a well supported 
and robust nonfuel mineral data collection and analysis function to 
provide timely information on nonfuel mineral supply and demand 
statistics and forecasts.
    The mission of the USGS National Minerals Information Center 
(formerly the Minerals Information Team) is to col*lect, analyze, and 
disseminate information on the domestic and international supply of and 
demand for minerals and mineral materials essential to the U.S. economy 
and national security.
    The Center's goal is to provide decision makers with the 
information required to ensure that the Nation has an adequate and 
dependable supply of minerals and materials to meet its defense and 
economic needs at acceptable costs related to environment, energy, and 
economics.
    The USGS does not anticipate designation of the national Minerals 
Information Center as s Principal Statistical Agency will improve our 
ability to meet this goal.
    Question 1c. Are there benefits to making such a designation, in 
terms of gathering information that is not currently available, or 
downsides, in terms of the relationships already established with those 
providing minerals information on a voluntary basis?
    Answer. The USGS believes that such a designation would have little 
impact on the quantity and quality of data currently collected through 
a long-standing trust-based voluntary system. The public and private 
sectors rely on USGS minerals information to understand better the use 
of materials and the ultimate disposition of materials in the economy, 
to use national resources efficiently, and to forecast future supply 
and demand for minerals.
    The National Minerals Information Center canvasses the nonfuel 
mining and mineral-processing industry in the United States for data on 
mineral production, consumption, recycling, stocks, and shipments. More 
than 140 surveys are conducted annually on commodities-from abrasive 
materials to zirconium. Aggregated U.S. statistics are published 
because individual company data are proprietary and are not released. 
More than 18,000 producer and consumer establishments voluntarily 
complete about 40,000 survey forms annually. The USGS has cooperative 
agreements with the U.S. State governments to exchange data. In 
addition, the Center reports U.S. trade data collected by the U.S. 
Department of Commerce.
    International minerals information is directly obtained through 
questionnaires and exchanges from approximately 100 countries annually.
    Question 1d. Are there any other issues that the Senate Energy and 
Natural Resources Committee should consider or be aware of in deciding 
whether or not such a designation should be made?
    Answer. Designation of USGS's nonfuel mineral data collection 
effort as a statistical agency or unit under the provisions of CIPSEA 
would result in a requirement for increased documentation, increased 
administrative and IT security measures, and increased staff to 
implement the increased confidentiality measures. We do not anticipate 
that such a designation would improve our ability to provide decision 
makers with the information required to ensure that the Nation has an 
adequate and dependable supply of minerals and materials to meet its 
defense and economic needs at acceptable costs related to environment, 
energy, and economics.
    Question 2. In reviewing my legislation, S. 1113, can you tell us 
whether it amends, weakens, or in any way modifies existing regulatory 
programs meant to ensure environmentally-responsible conduct?
    Answer. The language of the bill does not appear to directly affect 
the BLM's existing regulatory programs.

    PACE OF PERMITTING--Behre Dolbear's most recent ``Where Not to 
Invest'' report states that ``permitting delays in the United States 
are the most significant risk to mining projects. the United States is 
ranked lowest, at a 1 due to the average 7-to 10-year period required 
before mine development can begin.''
    Question 3. Would you describe the Administration as satisfied or 
dissatisfied with the fact that the United States is last in the world 
when it comes to mine permitting?
    Answer. The BLM on average takes four years to approve a mining 
plan of operations for a large mine (more than 1,000 acres) on public 
lands. A number of factors contribute to the duration of this approval 
period, including the BLM's NEPA obligations and its responsibility in 
reviewing a proposed mining plan of operations on public lands to 
ensure that prospective mine operators address environmental 
protections for water, air quality, and other natural resources in 
compliance with the laws of the United States. We continuously strive 
to improve the efficiency of our process. In addition, a number of 
factors outside the BLM's control contribute to the duration of the 
period before mine development begins, including the filing of mining 
plan modifications by the operator, delays by the operator in the 
posting of bonds, and litigation by third parties.
    Factors contributing to mine plan approvals that require longer 
than four years include litigation and appeals, state and local 
permitting, and other federal state, and local authorizations. These 
longer time periods before mine approval may also include time the 
operator spends exploring the site under a notice, before filing a mine 
plan of operations to the BLM.

    DUPLICATIVE AUTHORITIES--The Department's written testimony 
asserted that ``many of the activities called for in S. 1113 are 
already authorized by existing authorities.''
    Question 4. Please provide a detailed list, cross-referencing those 
authorities contained in S. 1113 that the department feels are 
duplicative with relevant sections of the U.S. Code, including full 
citations and naming of the relevant, underlying statute(s) noted.
    Answer.



----------------------------------------------------------------------------------------------------------------
                        S. 1113 Provision                                       Existing Authority
----------------------------------------------------------------------------------------------------------------
Secs. 101, 103, 107, 203, 207, 208, 209, 211                      Organic Act of March 3, 1879; 43 U.S.C. 31 et
                                                                                                           seq.
                                                                  Strategic and Critical Materials Stock Piling
                                                                                     Act of 1946, 50 U.S.C. 98g
                                                                     National Mining and Minerals Policy Act of
                                                                                            1970; 30 U.S.C. 21a
                                                                        National Materials and Minerals Policy,
                                                                       Research and Development Act of 1980; 30
                                                                    U.S.C. 1601 et seq., especially 1604(e) and
                                                                                                           (f).
----------------------------------------------------------------------------------------------------------------


    DEADLINES--S. 1113 contains several deadlines, reporting 
requirements, and other activities that would be conducted pursuant to 
a deadline if the bill is enacted.
    Question 5a. Please review all applicable deadlines contained in S. 
1113 and provide an assessment of the Department's ability to meet them 
in a timely manner.
    Question 5b. If the Department feels it will be unable to meet any 
of the applicable deadlines contained in S. 1113, please provide an 
alternative timeframe that would be more workable from the agency's 
perspective.
    Answer. The BLM believes that the deadline imposed by the reporting 
requirement at Sec. 104 (d) would be difficult to meet, due to the size 
and nature of the request. Such a task would require data calls from 
multiple agencies and stakeholders. It would require the redirecting of 
staff resources from other priority work since much of this data is not 
centrally located and would require manual extraction from case records 
which would then need to be collected and analyzed. It is unknown if 
any of the Department's databases would be adequate to collect and 
analyze the collected data. The ability of other agencies within the 
Department of Interior to meet these deadlines is unknown.
    The USGS recommends the following:




------------------------------------------------------------------------
     S. 1113 Provision Deadline              Deadline Recommended
------------------------------------------------------------------------
Sec. 101 (a): 30 days                     90 days. It will take time to
                                          realign staff and projects to
                                            position ourselves to begin
                                       conducting the activities called
                                                      for in this bill.
------------------------------------------------------------------------
Sec. 101 (c): 120 days               240 days. It is estimated that the
                                     draft methodology will be available
                                     for comment on the federal register
                                             for 30 days (120 days from
                                      enactment). An additional 30 days
                                      will be required to review public
                                          comments and revise the draft
                                      methodology accordingly (150 days
                                        from enactment). Establishing a
                                     National Academy committee and the
                                     time required for the committee to
                                     review the methodology is expected
                                       to be an additional 90 days (240
                                                  days from enactment).
------------------------------------------------------------------------
Sec. 101 (d): 150 days                 270 days. Reviewing the National
                                     Academy committee's recommendations
                                           and revising the methodology
                                     accordingly is estimated to require
                                     30 days (270 days from enactment).
------------------------------------------------------------------------
Sec. 101 (e): 150 days               360 days. It is estimated that the
                                     final methodology will be available
                                     for comment on the federal register
                                             for 30 days (300 days from
                                     enactment). Final determination of
                                           critical minerals using this
                                            methodology will require an
                                      additional 60 days (360 days from
                                                            enactment).
------------------------------------------------------------------------
Sec. 103 (a): 4 years                                      As provided.
------------------------------------------------------------------------
Sec. 104 (e), (f)(2): 4 years            5 years. One year from time of
                                     completion of assessment activities
                                           will be required to compile,
                                       synthesize, report , and publish
                                              final assessment results.
------------------------------------------------------------------------
Sec. 211 (a): 21 months                24 months. This will be the time
                                       required if only an inventory of
                                         identified resources for these
                                      mineral commodities is called for
                                               and not an assessment of
                                     undiscovered resources. No previous
                                          national assessments of these
                                          mineral commodities exist, so
                                            updating assessments is not
                                                            applicable.
------------------------------------------------------------------------
Sec. 211 (d): 2 years                 30 months. An additional 6 months
                                      from completion of inventory will
                                      be required to analyze, compile a
                                           report, and publish results.
------------------------------------------------------------------------

     .
    COST ESTIMATES and EXISTING AUTHORIZATIONS--S. 1113 contains 
several authorizations to conduct research and development, develop 
methodologies, and engage in other activities not accounted for in 
existing budgets.
    Question 6a. Please provide an estimate of the time and funds 
necessary to undertake such activities, assuming such provisions were 
fully implemented.
    Answer. From the BLM's perspective, the extensive nature of this 
request would require an expenditure of no less than $1 million with 
additional funding needed for a database. The primary cost would be 
data collection, which must be done manually. The BLM does not have 
personnel available to collect this data and a third-party contractor 
would likely be needed. In addition, the modification of an existing 
database or a creation of new database to collect, store, and analyze 
the requested data would be necessary.
    Question 6b. If the department is able to conduct research and 
development, develop methodologies, and engage in any other of the 
aforementioned activities, under existing authorizations, please 
provide a comprehensive list of those authorizations cross-referenced 
to the relevant sections of S. 1113.
    Answer.


----------------------------------------------------------------------------------------------------------------
          S. 1113 Provision               Time required       Funds Required        Existing Authorizations
----------------------------------------------------------------------------------------------------------------
Sec. 101                               1 yr                 $1M                Strategic and Critical Materials
                                                                                   Stock Piling Act of 1946; 50
                                                                                                   U.S.C. 98(g)
----------------------------------------------------------------------------------------------------------------
Sec. 103 (a); (d)                      4yrs; 5 yrs          $20M               Organic Act of March 3, 1879; 43
                                                                                              U.S.C. 31 et seq.
                                                                               Mineral resource assessment work
                                                                                     on certain public lands is
                                                                                authorized under the Wilderness
                                                                               Act of 1964; 16 U.S.C. 1133; the
                                                                                                       Federal Land Policy and
                                                                               Management Act of 1976; 43 U.S.C.
                                                                               1711, 1782.; the Alaska National
                                                                                                      Interest Lands Conservation Act
                                                                                        of 1980; 16 U.S.C. 3150
----------------------------------------------------------------------------------------------------------------
Sec. 107                               6 yrs                $8M                 National Materials and Minerals
                                                                               Policy, Research and Development
                                                                                 Act of 1980; 30 U.S.C. 1601 et
                                                                               seq., especially 1604(e) and (f).
----------------------------------------------------------------------------------------------------------------
Sec. 211 (a) (d)                       24 months (if        $5M                Organic Act of March 3, 1879; 43
                                        inventory of                                          U.S.C. 31 et seq.
                                        identified
                                        resources and not
                                        assessment of
                                        undiscovered
                                        resources); 30
                                        months
----------------------------------------------------------------------------------------------------------------

      Responses of Marcilynn Burke to Questions From Senator Coons
    Question 1. Are geologic occurrence models adequate to effectively 
explore for REE?
    Answer. The USGS is currently updating existing mineral deposit 
models for the important rare earth element (REE) bearing mineral 
deposit types. These models provide the fundamental geologic framework 
in which to understand why such deposits form and why they formed where 
they have in the earth's crust. This information is used to predict 
where undiscovered deposits are likely to be found. Once these geologic 
models are complete, they will be adequate to explore for and assess 
undiscovered REE deposits.
    Question 2. Are geologic occurrence models adequate to effectively 
estimate endowments of REE for the USA, China, and less well-known 
parts of the world like Afghanistan?
    Answer. To understand an endowment requires an inventory of known 
reserves and resources and an assessment of undiscovered resources. An 
assessment of undiscovered resources requires up-to-date global grade-
and-tonnage models for each specific type of REE-bearing deposit. 
Currently the grade-and-tonnage models for the important REE-bearing 
mineral deposits are inadequate and in need of updating. The USGS 
recently completed an inventory of known principal REE reserves and 
resources in the United States. An estimate of domestic undiscovered 
REE resources cannot be made until grade-and-tonnage models are 
adequately updated and constructed. This also applies to estimating 
endowment for areas outside the United States.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                         Statements of UMICORE

        WASTE ELECTRICAL AND ELECTRONIC EQUIPMENT (WEEE) UPDATE

    The European Commission adopted its draft proposal for a revised 
directive on WEEE in December 2008 following a public consultation and 
impact assessment. The revision aims to improve implementation and 
compliance, in particular through addressing the low collection rate of 
WEEE, diverging requirements for producers, sub-standard treatment in 
the EU and illegal exports of outside the EU.
    The proposal is now in the legislative decision-making process, 
when the European Parliament and the Council (Member States) amend and 
then adopt the proposal. As the Council (Member States) and the 
European Parliament had different views on several provisions, a first 
reading agreement could not been reached (the European Parliament voted 
in first reading in November 2010 and the Member States reached 
political agreement in May 2011). As such, the directive will enter the 
second reading procedure, which means a final agreement could be 
reached by end of this year or early next year.
Revised/new provisions
    Scope: the directive should apply to EEE falling under the 
following ten categories: large household appliances, small household 
appliances, IT and telecommunications equipment, consumer equipment, 
lighting equipment, tools, toys, leisure and sports equipment, medical 
devices, monitoring and controlling instruments and automatic 
dispensers. Note that the final agreement could refer to an open scope, 
which would include all EEE with a few exceptions (the European 
Parliament and several Member States support an open scope).
    Product design--measures to promote the design and production of 
EEE in view of facilitating re-use, dismantling and recovery should be 
promoted.
    Collection target--the revision proposes a new collection target of 
65% of the average weight of EEE placed on the market of each Member 
State in the two previous years to be achieved annually by producers or 
third parties acting on their behalf starting in 2016. The objective is 
to further boost collection while taking into account the variations in 
EEE consumption in each Member State (the current ``one size fits all'' 
target of 4kg per inhabitant per year of WEEE from households has led 
to sub-optimal targets for some countries and too ambitious for 
others). The proposal foresees several flexibilities such as possible 
transitional measures for Member States and a reexamination of the rate 
later on by the European Parliament and Council.
    Separate collection--the disposal of untreated separately collected 
WEEE is prohibited and the collection and transport of separately 
collected WEEE should be carried out in a way which optimizes re-use 
and recycling and the confinement of hazardous substances. Cooling and 
freezing equipment containing ozone depleting substances and 
fluorinated greenhouse gases are considered priority products for which 
a high level of separate collection is to be targeted.
    Recovery and Recycling targets--the existing recovery and recycling 
targets set per product category are increased with 5%. Also, in order 
to encourage the re-use of whole WEEE, the revision proposes to include 
re-use of whole appliances in the increased target for recycling 
combined with re-use (one target for recycling and re-use). These 
targets are calculated for each category as weight percentage of 
separately collected WEEE that is sent to recovery facilities.
    Treatment requirements--Member States should ensure that all 
separately collected WEEE undergoes proper treatment. The European 
Parliament and the Council amended the Commission proposal calling for 
the development of standards for treatment, including recovery, 
recycling and preparing for re-use.
    Financing WEEE from private households--calls for Member States to 
encourage producers to finance all the cost occurring for collection 
facilities for WEEE from private households.
    Information for users--producers are allowed to show purchasers a 
visible fee at the time of sell of new products for the costs of 
collection, treatment and disposal
    Producer Registration--the revision proposes the harmonisation of 
the registration and reporting obligations for producers between the 
national producer registers, including making the registers inter-
operational, with the view to reduce the administrative burden related 
to WEEE implementation.
    Enforcement--in order to strengthen the enforcement of the WEEE 
Directive, in particular to distinguish between EEE and WEEE in the 
case of shipments of used EEE, minimum monitoring requirements for 
shipments of WEEE are proposed. Such requirements include: a copy of 
the invoice and contract relating to the sale and/or transfer of 
ownership of the EEE which states that the equipment is for direct re-
use and fully functional, evidence of evaluation or testing of the EEE 
and sufficient packaging to protect the shipped products from damage 
during transportation, loading and unloading.
                                 ______
                                 
    In response to Item ``5--Crosscutting Questions'' of the Department 
of Energy Quadrennial Technology Review Framing Document, Umicore has 
the following comments:

    2) How do we balance international competitiveness against 
international cooperation?
    There is an example Umicore recognizes from its own experience, 
where international collaboration is the core of the projects covered. 
That is the European Commission FP7 research programs. The Seventh 
Framework Programme (FP7) bundles all researchrelated EU initiatives 
together under a common roof to reach the goals of growth, 
competitiveness and employment. Further details available at http://
cordis.europa.eu/fp7/home_en.html. Umicore is actively committed to 
several of such programs, which broaden the scope of work and collect 
expertise from different viewpoints. We find this a very enriching 
experience.
    Collaboration can also be at a national level; e.g. in Germany 
where Umicore is a member of the Development Plan for Electric 
Mobility. The Plan intends to speed up research and development for 
battery electric vehicles as well as the market preparation and 
introduction for those vehicles. Ultimate target: 1 million EV's on the 
road by 2020.
    Programs such as these assist Umicore in defining its own materials 
development.
    3) What principles should the Department follow for allocating 
resources among technologies of disparate maturity and potential time 
to impact?
    Put in place across the board a defining strategy that integrates 
both materials development and recycling. This ``closed loop'' model 
ensures that whatever the level of maturity, the resources will be put 
to the best use.
    d) What are useful metrics to guide DOE technology activities?

  <bullet> Increased energy efficiency
  <bullet> Lower environmental impact

    Wherever possible, use quantitative metrics that clearly link to 
the objectives of the programs as well as to general sustainable 
development principles. These metrics should measure the progress made 
relative to the starting point and can have their origins in 
engineering sciences. These could be energy efficiency and 
environmental impact metrics; for example, the categories used inLife 
Cycle Analysis:

          <bullet> Green house gas potential
          <bullet> Emission of hazardous substances--Recycling of waste 
        streams (e.g. recycling of wastes from the production of energy 
        materials or technologies or recycling of process water)
          <bullet> Or amount of waste that cannot be recycled.

    Furthermore a combination of different metrics will be necessary to 
cover all aspects of technology performance.
    An example from our own organization: Umicore Battery Recycling has 
evaluated its recycling process for battery materials versus primary 
production of battery materials by using exergy as a metric (besides 
other metrics in the technology development phase), to express 
preservation of material quality as well as the lower use of energy 
resources. The two items are linked as the recycling of batteries 
preserves the material so it can be used for new batteries, it avoids 
the mining of virgin materials (at high energy cost) and it preserves 
the efforts (energy) invested in the battery material during mining and 
processing in its first life cycle. Furthermore the high purity of the 
materials in the used batteries means that less effort (energy) is 
necessary to obtain high-quality materials again. Umicore combined this 
with a highly energy-efficient recycling (smelter) technology, which 
uses as little energy as possible. See ``The global life cycle of 
rechargeable Lithium ion batteries: what natural resource savings can 
be gained through recycling?''--Jo Dewulf, Ghent University together 
with Umicore http://www.batteryrecycling.umicore.com/download/
show_LCM2009CapetownJoDewulf.pdf
    7) Have we correctly identified and structured these six 
strategies?
    A critical component that we do not see incorporated here is 
acknowledging the role of the supply of materials in achieving the 
goals of the strategies, and as a consequence the energy needed to 
mine, refine, manufacture (= supply) the materials is not taken into 
account. The demands for energy and materials are closely interlinked 
as it takes energy to produce the materials that can enable the clean 
energy future. Recycling of metals requires much less energy than their 
primary production, hence recycling is a core technology in achieving a 
clean energy society.
    Recovering metals from production scrap and waste and from end-of-
life products needs much less energy than production from primary 
resources. For aluminum for example, recycling uses only 25% of the 
energy demand for virgin aluminum production, hence produces also 1/4th 
of the CO<INF>2</INF> emissions. For the more noble metals such as 
cobalt, the platinum group metals and metals such as indium, tellurium 
or selenium the energy savings made by recycling the metals can be even 
larger. Therefore recycling is a core energy technology. Producing 
metals via responsible recycling means that the industry will emit less 
CO<INF>2</INF> and the possibilities for new recycling industry and 
associated manufacturing industry in the U.S. can increase. The energy 
demand in the industrial sector will be lower as well. In addition, 
further advancements (innovation) in the energy efficiency of the 
recycling processes can drive down the energy consumption further, 
resulting in a ``double gain'' in the field of energy savings.
    This leads Umicore to recommend that the DOE include in all its R&D 
programs, across the six strategies:

    1) the notion that recycling of materials/products and energy-
efficient production of metals and materials reduce the demand for 
energy, thereby serving as the underpinning of a sustainable long-term 
policy around clean energy technology research
    2) a life cycle and systems approach to the evaluation of the 
reduction in energy usage over time
    3) the notion that the materials, devices and/or technologies 
developed need to be designed from the beginning as recyclable, making 
certain the energy footprint of recycling is low. Or more generally, 
that the new technology is performing better than the current 
technology in all aspects--holistically, in terms of energy and 
material usage and from the environmental perspective
    4) appropriate metrics be used that support the evaluation of the 
performance from an energy and materials sustainability point of view
    5) recycling and materials sustainability should be demonstrated.

    To support the implementation of the above we suggest assigning a 
dedicated person who can take the lead on recycling and materials 
efficiency, and is responsible for embedding this underpinning and 
cross-cutting theme throughout the six strategies. Although this may 
sound huge and a near-impossible transformation, Umicore, as a global 
company, is proof that such a transformation is possible. Umicore has 
transitioned from a company active in metals production from mining to 
a company that produces materials for clean technologies, and produces 
these metals mainly from industrial by-products and end-oflife products 
using highly energy efficient, clean recycling technologies. This 
strategic business decision has resulted in high levels of innovation 
within the company and has stimulated research and innovation via 
collaboration with many university partners and inhouse R&D centers. It 
has created high-tech manufacturing and industry jobs. Including 
recycling and the concept of energy-efficient materials supply into the 
program offers the United States also the possibility to stimulate 
innovation and contribute to national and global sustainability, as 
well as (partly) de-coupling itself from fossil fuels and dependence on 
other countries for metals supplies. The end-of-life products necessary 
for recycling are, in many cases, already located within the United 
States.
    Please see also our response to item 8 for examples of how Umicore 
is already working within the six strategies.
    8) We welcome comment on the selection of these technologies and 
sources, as well as suggestions of alternate technologies and sources, 
and updated technology, cost and forecast data, particularly in 
rapidly-moving fields.
    Umicore's concerns about the need for energy efficient materials 
production and recycling are indicated in the items above. There are 
direct and indirect relations between the materials and processes in 
which we are involved and we see value in developing a kind of network 
structure among all the different players in the industry: a byproduct 
or waste from one can easily be the raw material for another, for 
example. So rather than keep each entity within one box of the Six 
Strategies structure, we'd prefer diagonal lines connecting wherever 
possible.
    Specifically on 6.1.1.1--Transport--Increase Vehicle Efficiency--
Light-weight materials
    DOE mentions the stimulation of the use of light weight metals like 
aluminum, magnesium and other materials to reduce the vehicle weight. 
Further supporting our comments in section 7, we like to use this as a 
specific case. Despite the fact that most of the vehicle energy 
consumption takes place in the use phase of the vehicle, it will be 
important to also look at the energy investments made into the light 
weight materials. This implies looking at the energy efficiency of the 
light metal primary production process as well as stimulating recycling 
of the light weight materials.
    Recycling of the light weight materials is not straightforward 
however, as the connection of the light weight material to other 
materials, coatings etc. influences the effectiveness of the recycling 
process and the material losses incurred. This is where the initial 
design comes in and can facilitate recycling of the materials later on. 
In addition, the appropriate recycling strategies and technologies need 
to be developed and/or improved. Furthermore, recycling lowers the 
energy demand of the metals manufacturing industry hence has a direct 
link to Strategy 6.2.1--Building and Industrial Efficiency. All of this 
allows for additional opportunities for innovation and clean technology 
developments.
    Appropriate metrics to evaluate are necessary. In this regard we 
can suggest reading the following in the area of magnesium and metrics:

    1) ``Coated magnesium--Designed for sustainability'' by C.E.M. 
Meskers, PhD thesis Delft University of Technology, 2008.
    2) C.E.M. Meskers, M.A. Reuter, U. Boin and A. Kvithyld. ``A 
fundamental metric for recycling applied to coated magnesium'' 
metallurgical and materials transactions B vol 39, no 3 pp 500-517, 
2008
    3) C.E.M. Meskers, Y. Xiao, R. Boom, U. Boin and M.A. Reuter. 
``evaluation of the recycling of coated magnesium using exergy 
analysis'' Minerals Engineering vol 20 no 9 pp 913-925, 2007.

    Specifically on 6.1.2.1--Transport--Progressive Electrification of 
the Vehicle Fleet--Batteries
    Umicore has done extensive work in this field that can support 
deployment of one million EV's by 2015. Based on its ``closed loop'' 
business model (strategy that integrates materials development and 
recycling), Umicore develops material designs and materials solutions 
for the battery and OEM customers that contribute both to better 
quality and to cost reduction (lower US$/kWh) while also developing a 
unique recycling process for rechargeable batteries. Work is focused in 
the following areas--often based on funding provided by Belgian, other 
European, and South Korean programs.

          1. Operating a state of the art industrial recycling plant 
        while at the same time continuing to improve its processes
          2. Development of next generation Li Ion cathode materials 
        (with capacity, safety, recyclability and cost as main drivers)
          3. Development of new Li Ion anode materials (same targets)
          4. Exploring the limits of Li Ion chemistry by combining both 
        cathode and anode materials to make the best Li Ion battery 
        possible
          5. Further improving the driving range of EV's with post Li 
        Ion battery systems, while contributing to better cost/
        performance
          6. Providing a material solution to the customer through 
        collaboration with other battery component suppliers (eg. 
        Electrolytes, binders)
          7. Performing safe dismantling of used batteries and 
        providing suggestions for more optimized designs

    Research and development is the cornerstone to realize these 
successfully and the pilot production of batteries is key and 
available. In the case of Umicore, the R&D is both applied and 
fundamental. It is related to product and process innovation. The 
innovation is based on a profound knowledge of the application and a 
high quality network within the academic and industrial worlds.
    Metrics for battery materials are related to the US$/kWh ratio by 
the use of less expensive and future recycled base materials and by the 
improvements in their capacity on both cell and system levels.
                                 ______
                                 
                     THE BATTERY DIRECTIVE SUMMARY

    The directive aims at minimising the negative impacts of batteries 
and accumulators on the environment. This should be achieved by 
reducing the use of hazardous substances in batteries and accumulators 
(in particular, mercury, cadmium and lead) and by treating and 
recycling the amounts of used substances.
    It applies to all types of batteries and accumulators, including 
(H)EVs (exception: batteries used in equipment to protect Member 
States' security or for military purposes, or in equipment designed to 
be sent into space).
    In order to ensure that a high proportion of spent batteries and 
accumulators are recycled, the directive sets out collection and 
recycling targets. As such, Member States must establish collection 
schemes to promote and maximise separate waste collections and prevent 
batteries and accumulators being thrown away as unsorted municipal 
waste. Collection rates of at least 25% and 45% based on annual sales 
have to be reached by September 2012 and September 2016 respectively. 
Furthermore, as batteries and accumulators need to be easily removed, 
Member States should ensure that manufacturers design their appliances 
accordingly.
    The directive also foresees that treatment and recycling are 
performed using the best available techniques and establishes minimum 
recycling efficiencies, focused on the output of the recycling process. 
The recycling process of lead-acid batteries should recover all the 
lead and 65% of the average weight of those batteries. The recycling 
process of nickel-cadmium batteries should recover all the cadmium and 
at least 75% of the average weight of those batteries. For other 
batteries, the recycling process should recover 55% of the average 
weight. Treatment and recycling may be performed outside the EU 
provided it fulfills similar requirements to those in the EU. The 
methodology to calculate the recycling efficiencies as well as the 
criteria for assessment of similar conditions for treatment and 
recycling outside the EU need to be further developed by the European 
Commission.
    The producers have to bear the cost of collecting, treating and 
recycling batteries and accumulators, as well as the costs of campaigns 
to inform the public of these arrangements.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
